<html>
<title> - ROUNDTABLE DISCUSSION: THE OLDER AMERICANS ACT</title>
<body><pre>[Senate Hearing 109-437]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-437
 
             ROUNDTABLE DISCUSSION: THE OLDER AMERICANS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RETIREMENT SECURITY AND
                                 AGING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING THE REAUTHORIZATION OF THE OLDER AMERICANS ACT

                               __________

                       TUESDAY, FEBRUARY 14, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
26-115                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

             Subcommittee on Retirement Security and Aging

                      MIKE DeWINE, Ohio, Chairman

JOHNNY ISAKSON, Georgia              BARBARA A. MIKULSKI, Maryland
ORRIN G. HATCH, Utah                 JAMES M. JEFFORDS (I), Vermont
JEFF SESSIONS, Alabama               JEFF BINGAMAN, New Mexico
PAT ROBERTS, Kansas                  HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Karla L. Carpenter, Staff Director

              Ellen-Marie Whelan, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, FEBRUARY 14, 2006

                                                                   Page
DeWine, Hon. Mike, Chairman, Subcommittee on Retirement Security 
  and Aging, opening statement...................................     1
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, prepared statement........................     2
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland, opening statement....................................     3
    Prepared statement...........................................     5
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................     7
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, prepared statement...................................     7
Kennelly, Barbara, B., chair, Leadership Council of Aging 
  Organizations, Washington, DC..................................    11
    Prepared statement...........................................    12
Reed, Jo, National Advocacy Coordinator, Federal Livable 
  Communities and Consumer Issues, AARP, Washington, DC..........    15
    Prepared statement...........................................    16
Bedlin, Howard, vice president, public policy and advocacy, The 
  National Council on Aging, Washington DC.......................    21
    Prepared statement...........................................    22
Howard, Laura, executive director, National Association of 
  Nutrition and Aging Services Programs, Washington, DC..........    27
    Prepared statement...........................................    28
Borden, Enid, A., chief executive officer, Meals on Wheels 
  Association of America, Alexandria, VA.........................    31
    Prepared statement...........................................    32
Markwood, Sandy, chief executive officer, National Association of 
  Area Agencies on Aging, Washington, DC.........................    34
    Prepared statement...........................................    35
Flood, Patrick, Commissioner, Vermont Department of Disabilities, 
  Aging, and Independent Living, on behalf of the National 
  Association of State Units on Aging, Washington, DC............    39
    Prepared statement...........................................    40
Mintz, Suzanne, president and co-founder, National Family 
  Caregivers Association, Kensington, MD.........................    45
    Prepared statement...........................................    46
Jones, Karyne, president and chief executive officer, the 
  National Caucus and Center on Black Aged, Inc., Washington, DC.    48
    Prepared statement...........................................    49
Blancato, Bob, national coordinator, Elder Justice Coalition, 
  Washington, DC.................................................    52
    Prepared statement...........................................    53
Lacayo, Carmela, G., president and chief executive officer, 
  National Association for Hispanic Elderly, Pasadena, CA........    55
    Prepared statement...........................................    57

                                 (iii)

Fong, Clayton, S., president and chief executive officer, 
  National Asian Pacific Center on Aging, Seattle, WA............    61
    Prepared statement...........................................    63
Kourpias, George, J., president, Alliance for Retired Americans, 
  Washington, DC.................................................    66
    Prepared statement...........................................    67

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Easter Seals Disability Services.............................    78
    Traci L. McClellan, National Indian Council on Aging.........    80
    American Dietetic Association................................    85



  


             ROUNDTABLE DISCUSSION: THE OLDER AMERICANS ACT

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2006

                                       U.S. Senate,
Subcommittee on Retirement Security and Aging, Committee on 
                    Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room 430, Dirksen Senate Office Building, Hon. Mike DeWine 
[chairman of the subcommittee] presiding.
    Present: Senators DeWine and Mikulski.

                  Opening Statement of Senator DeWine

    Chairman DeWine. Let me thank everyone for being here. 
Welcome to the Subcommittee on Retirement Security and Aging's 
first roundtable on the reauthorization of the Older Americans 
Act. Let me thank Senator Mikulski, who I have worked with on 
so many other occasions--she is the subcommittee's ranking 
member--for her great interest in these issues and, of course, 
for being here today. As many of you remember, during the 
reauthorization process in 2000, we were the chair and ranking 
member, as well. I look forward to working with her again on 
the Older Americans Act.
    The last time this subcommittee convened to discuss the 
Older Americans Act was in May last year. At that time, we 
heard from Assistant Secretary Emily DeRocco from the 
Department of Labor and the Assistant Secretary from the 
Department of Health and Human Services. They promised me then 
that they would provide the administration's recommendations 
for the reauthorization of this act. While I have not yet 
received those recommendations, I do intend to move forward in 
the process of reauthorization.
    I look forward to hearing all of your thoughts and 
receiving your recommendations for this reauthorization. We 
appreciate all of you being here very much.
    Since the last time this subcommittee met to discuss the 
Older Americans Act, most, if not all, of you participated in 
the White House Conference on Aging. At the Conference, you 
voted on the issues affecting older Americans that are most 
important to you. I am happy to see that you listed the 
reauthorization of the Older Americans Act as one of your top 
priorities. I look forward to working with all of you to make 
that reauthorization happen this year.
    As you know, older Americans are a vital and rapidly 
growing segment of our population. As we discussed in our May 
hearing, over 36 million people living in the United States are 
over the age of 65, accounting for about 12 percent of the 
population. The Census Bureau projects that 45 years from now, 
people 65 years and older will number nearly 90 million people 
in the United States and comprise, at that time, 21 percent of 
our population. Further, we know that 4.6 million people aged 
65 and older are still today employed.
    The Older Americans Act is an important service provider 
for these Americans. Through this important act, our parents, 
grandparents, aunts, and uncles are able to access services, 
including congregate and home-delivered meals, community 
service employment, and services to prevent the abuse, neglect, 
and exploitation of older persons.
    Reauthorizing the act is the primary goal of this 
subcommittee and I look forward to working with all of you 
together. Let me thank our panel participants here today. Thank 
you for being here. I will introduce everyone by name and 
affiliation, after which we will proceed to your 3 minute 
prepared remarks. After the first 3 minute round, we will 
proceed to a second round, where you will be given the 
opportunity to respond to remarks made by your colleagues and 
by me. To be recognized to make a remark during the second 
round, I would ask that you place your placard on its end and I 
will recognize you. Now, that assumes the placard will stand 
up. I am not really sure if that is going to work or not. If it 
is not, just raise your hand, which might be an easier way to 
do it.
    Let me turn to Senator Mikulski for her comments but before 
I do I would like to submit the statement of Senator Enzi.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Good afternoon. First, I would like to thank Chairman 
DeWine and ranking member Mikulski for holding this roundtable 
as the Committee on Health, Education, Labor, and Pensions 
prepares for reauthorization of the Older Americans Act. In 
addition, I would like to thank each of the participants today 
for taking time out of your schedules to attend this roundtable 
discussion. The Older Americans Act was created to enrich the 
lives and well being of older Americans through social services 
and programs. As Americans live longer, it is important to 
create an environment that allows our older Americans to live 
better. The programs of the Older Americans Act are an 
important tool for accomplishing this goal.
    When originally enacted in 1965, the act envisioned a wide 
range of social services and programs, including supportive 
services, congregate and home-delivered nutrition services, 
community service employment, the long-term care ombudsman 
program, and services to prevent abuse, neglect and 
exploitation of older individuals. It is important to note that 
the act supports specific grants to Native Americans, as well 
as research, training and demonstration activities.
    Fourteen amendments since 1965 have continued to shape the 
delivery of services and add new programs to the Older 
Americans Act that will benefit individuals as they age. Major 
amendments have created a national nutrition program for the 
elderly that benefited my own mother, and many others, in the 
State of Wyoming. In addition, amendments have provided more 
flexibility in the administration of State and area agencies on 
aging that are the foundation of a comprehensive network of 
services for all older Americans. In 1992, the amendments 
created a new title VII to consolidate and expand certain 
programs that focus on the rights of older persons, including a 
long-term care ombudsman program; program for the prevention of 
elder abuse, neglect and exploitation; elder rights and legal 
assistance development programs; and outreach, counseling and 
assistance for insurance and public benefit programs. The 2000 
amendments were enacted after 6 years of congressional debate 
on reauthorization and authorized the National Family Caregiver 
Support Program.
    It is my goal to move through the reauthorization process 
expeditiously, while balancing the need to understand what 
programs have worked and what programs have not. The process of 
reauthorization provides an opportunity for all of us to 
examine the success of prior years and prior programs and to 
determine what improvements can be made. This committee looks 
forward to a full and open discussion of the Older Americans 
Act in the months ahead. We will be working across party lines 
to ensure reauthorization is conducted in a timely fashion. 
Certainly, we will work toward the goal set forth by the 
resolution of highest priority at the December 2005 White House 
Conference on Aging, which called for reauthorization within 6 
months. If we address the controversial issues upfront, it will 
help expedite the legislative process.
    I look forward to hearing how the changes that accompanied 
the 2000 reauthorization have affected the organizations we 
have represented here today. The participants today represent 
some of the groups that are recipients of title V funding for 
Senior Community Service Employment Programs through the 
Department of Labor. While we do not have the final figures on 
the past 3 years of performance measures from the Department of 
Labor, I look forward to learning how these programs have been 
influenced by the changes that occurred in this program as a 
result of the 2000 amendments. I also look forward to learning 
how the National Caregiver Support Program has benefited older 
Americans and their families.
    As we move forward with reauthorization, it is important 
that we focus on the reason the Older Americans Act was enacted 
in 1965. Moreover, we must consider additions or changes to 
programs that are needed as we prepared for 77 million Baby 
Boomers who are turning 60 in record numbers. Beginning this 
year, everyday 7,918 people will turn 60 years old. The Older 
Americans Act must embrace programs that ensure our seniors 
remain healthy, fed, housed, mobile, and safe from scams and 
abuse. I look forward to learning from today's participants the 
ways we can improve the Older Americans Act for future 
generations to come. Again, I thank you for your participation 
in today's roundtable discussion.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator DeWine, and 
welcome to all of you. I am looking forward to this 
conversation. I want to take this opportunity to wish you a 
happy Valentine's Day. I would hope, though, that on such a day 
of such good feelings that we commit ourselves to being able to 
pass this bill.
    I want to thank Senator DeWine for convening this hearing 
and also the way we worked together in 2003. We got the bill 
authorized after years of stalling and fussing and fretting and 
a variety of things and we look forward to that and I want to 
thank him for his collegiality and for his civility and I 
believe we can do it again.
    I want to thank the senior network in attendance today 
because ultimately, our best ideas have to come from the 
people. And as much as we would like, we can't hold town hall 
meetings throughout the entire country on this authorization. 
But you, speaking today for the groups that you represent, 
create in many ways a national town hall by proxy. So we look 
forward to hearing your advice and your recommendations.
    This program has been around for a while, but it continues 
to be fresh because of the principles that I believe we follow. 
And when we look to reauthorization, we need to talk about 
those principles.
    First, that it is vital to continue and improve the core 
services of the act. Seniors have come to depend on the 
information and referral, as well as the family caregiver 
support services, as well as congregate home-delivered meals, 
transportation, and home care.
    The other important part of this program is though it is a 
national framework, it allows for local flexibility. One of the 
joys I have in traveling my home State of Maryland is that you 
can see the variety and richness and creativity of the local 
community in the way it delivers the services, whether it is in 
Garrett County, which is an Appalachian part of my State, or in 
the inner city of Baltimore, or even different than the 
sophisticated community of Bethesda, or the the poor rural part 
of the Eastern Shore in Somerset County. But through it all, we 
want to preserve a national framework, national standards, 
local flexibility, and local creativity.
    Not all seniors have family and friends, and we want to 
work to ensure that they continue to stay independent and we 
will look at those services.
    Our senior population is not the same as when this bill was 
passed in 1965. This is the first time the boomers will be 
eligible for services under the Older Americans Act, and we 
know the boomers. When they come, they boom, and we expect that 
we will be hearing from them. But they are also going to look 
for a more modernized Older Americans Act to meet the changing 
needs. But it also means that we have an increasing population 
of 85 and older, and an increasing aging population in general. 
We need to take advantage of new technologies and innovations 
to be able to provide the kind of services that we need.
    I look forward to working on this program, but I must say 
that as we work on reauthorization, we have to also work on the 
budget. I was deeply concerned that this year's budget has a 
cut in Meals on Wheels, eliminates two important programs in 
Alzheimer's and other very important services. So we want to 
not only create the right Federal lawbook, but we have got to 
make sure we put the Older Americans Act in the Federal 
checkbook.
    We look forward to your advice, and I am sure you will have 
our consent. Thank you very much.
    [The prepared statement of Senator Mikulski follows:]

                 Prepared Statement of Senator Mikulski

    Good morning. I'm very pleased to be here this morning as 
we meet to discuss how Older American's Act programs and 
services have benefitted our Nations seniors. I look forward to 
hearing suggestions about what legislative changes should be 
made to improve these important programs so they continue to 
meet the day-to-day needs of America's growing population of 
older Americans. I would like to thank the chairman, Senator 
DeWine, for calling this roundtable discussion today, as well 
as all the representatives of the senior network in attendance.
    I am looking forward to reauthorizing the Older Americans 
Act. It is an important responsibility that we have to our 
Nation's seniors. However, I must say that I was disappointed 
last week when I learned that President Bush's fiscal year 2007 
budget proposed a decrease of $72 million below last years 
funding level for Older Americans Act programs. The budget 
completely eliminates two programs--the Alzheimer's 
Demonstration Grant program, and the Preventative Health 
Services program for seniors. The budget also reduces funding 
for two programs near and dear to my heart--and in many 
instances the life line for many seniors and the family members 
who care for them. Nutrition programs were cut by $2 million--
and the Family Caregiver Program--which is a resource for 
thousands of families across the country was cut by $3 million. 
On the heels of the White House Conference on Aging--where 
resolutions stating that additional funding for these important 
programs must be appropriated were adopted--our Nations budget 
for senior programs should be going up--not down.

                               PRINCIPLES

    There are several principles that I believe must guide 
reauthorization. First, we must continue and improve the core 
services of this act to meet the vital needs of America's 
seniors. We need a national program, with national standards 
that ensure consistency--but also allows for local flexibility 
and creativity. Secondly, we must modernize the act to meet the 
changing needs of America's senior population, including the 
growing number of seniors over 85, the impending senior boom, 
and the growing number of seniors in minority groups. Next, we 
must look for ways to help seniors live more independent and 
active lives. Finally, we must give national, State, and local 
programs the resources they need to carry out these vital 
responsibilities. Let me expand on these principles.

                             CORE SERVICES

    It is vital to continue and improve the core services of 
this act. Seniors have come to depend on the information and 
referral services, family caregiver support services, 
congregate and home-delivered meals, transportation, home care, 
and other OAA programs to meet their daily needs. Take 
information and referral services. Whether it is pension 
counseling or the long-term care ombudsman program--these are 
vital to helping seniors navigate the complex financial and 
health care systems. Not all seniors have family and friends 
that can assist them with complicated decisions, like choosing 
a long-term care insurance plan or a nursing home. These 
programs put information in terms seniors can understand. These 
programs are a safety net for many. Where else would they get 
these services?

                             MODERNIZATION

    Our senior population is not the same as it was in 1965. 
This will be the first time the baby boomers will be eligible 
for services under the Older Americans Act. That's why we must 
modernize the OAA to meet the changing needs and diversity of 
our seniors. What does this mean? Well, it means making sure we 
have programs and services to meet the needs of the growing 
population that is 85 or older. It means making sure that we 
are sensitive to the needs of minority, low-income, and hard-
to-reach seniors. And it means preparing for the upcoming 
senior boom. By 2050 there will be nearly 90 million seniors 
over age 65, more than twice their number in 2003. We must take 
advantage of new technology and innovations like the Internet 
to reach out to these seniors.

                              INDEPENDENCE

    Seniors today are living longer, healthier lives. We must 
do what we can to help them be as independent and active as 
possible. The majority of senior citizens with chronic 
conditions live in the community and have their care provided 
by spouses, adult children and other family members. With the 
reauthorization of OAA in 2000, we worked hard to create the 
National Family Caregiver Support Program. In 2003, this 
program provided assistance to nearly 600,000 caregivers. 
Services include respite care, caregiver counseling and 
training, information about available resources, and assistance 
in locating services. These services are invaluable to seniors 
and their families. We must ensure that we are doing what we 
can to help ALL seniors live healthy, independent lives for as 
long as possible.

                               RESOURCES

    Finally, we must provide the resources necessary to meet 
these challenges and support our seniors. Too many Older 
Americans Act programs have been flat funded, and decreased for 
too long. We must commit ourselves, our dollars, and our 
programs to meet the needs of our growing and changing senior 
population.
    I want us to reauthorize this act. This is our 
responsibility. We must not abandon it. I look forward to 
working with all of the groups represented on today's panel, as 
well as others that we will hear from during this 
reauthorization process.
    I thank you for your testimony and I look forward to 
working with you in the coming months to improve the quality of 
life for all of America's seniors in 2006 and beyond.
    Chairman DeWine. Thank you.
    I want to introduce all 13 members of the panel and then we 
will start with Barbara over here but before I do that I would 
like to submit for the record the statements of Senator Kennedy 
and Senator Clinton.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    It's a privilege to be part of this roundtable discussion 
today. The Older Americans Act is a lifeline for our senior 
citizens. The act was one of the first bills I worked on in the 
Senate in the 1960's.
    Like Social Security, Medicare and Medicaid, it's part of 
our commitment to take care of our Nation's seniors in their 
golden years.
    One of its major goals is to encourage healthy living and 
disease prevention, and the Meals on Wheels program enacted in 
the 1970's has been one of its most impressive successes. 
Massachusetts has been in the forefront of the effort to 
provide community-based nutrition services to elders. The State 
program coordinates 28 nutrition projects throughout the State 
to deal with seniors' problems of poor nutrition and social 
isolation.
    Unfortunately, the administration's new budget cuts $3 
million from these important nutrition programs, and cuts the 
Older Americans Act by a total of $28 million. It zeros out 
programs such as disease prevention and Alzheimer's 
demonstration grants, and it cuts the National Family Caregiver 
Support Program by $2 million. Funding for the Older Americans 
Act was already failing to keep pace with inflation, and this 
budget goes even further in ignoring the needs of seniors and 
the successful programs that keep them healthy and self-
sufficient.
    According to the Census Bureau, there will be 6.7 million 
persons aged 55 or older who will be living in poverty by 2008, 
a 22 percent increase from 2000. By 2015, the number will 
increase to 9 million low-income older Americans if we allow 
the current trend to continue.
    The Older Americans Act also provides essential 
opportunities for employment for older Americans through the 
Senior Community Service Employment Program, which provides 
seniors with job training while involving them with the 
communities they love, and which also love them. Last year, 
this program supported over 61,000 jobs and served over 91,000 
people.
    These and other programs under the act will become even 
more important in the years ahead. We know that this year, the 
first of the baby boom generation will be eligible for the 
act's services. By the year 2030, one in five Americans will be 
over age 65. We obviously need to get our priorities right, and 
I look forward to working with all of you to strengthen the 
safety net for the Nation's seniors. A good place to start is 
with the reauthorization of the Older Americans Act this year. 
Thank you all for taking part in this roundtable discussion to 
help us chart the path ahead.
    [The prepared statement of Senator Clinton follows:]

                 Prepared Statement of Senator Clinton

    I would like to thank Senators DeWine and Mikulski for 
holding this important hearing. In less than 10 years, the 
first wave of Baby Boomers will turn 65. As we prepare for the 
upcoming reauthorization of the Older Americans Act, we must 
consider how we will meet the increasing needs of this elder 
boom and the demands placed on our local, State, and Federal 
health systems in the next 30 years.
    As Baby Boomers begin to require these essential senior 
services, it is not the time to be cutting programs for older 
Americans. The Bush administration's budget for fiscal year 
2007 cuts Aging programs by $28 million, which will jeopardize 
our seniors' access to critical services, like Meals on Wheels.
    Originally enacted in 1965, the Older Americans Act is the 
major vehicle for the delivery of social and nutrition services 
to our seniors. New York receives the third largest allocation 
of the Older Americans Act funds, just behind California and 
Florida.
    At the White House Conference on Aging in December 2005, 
the delegates' primary recommendation for Congress was to 
reauthorize the Older Americans Act within the next 6 months. 
As we prepare to make that recommendation a reality, I believe 
there are a number of important areas to examine.
    One of the first areas we must address is the long-term 
care crisis in our country resulting from the growing longevity 
of Americans. We must look for solutions to this mounting 
problem. As the number of individuals in need of long-term care 
rises, issues such as financing, quality of care, family 
involvement, quality of life, end-of-life care, and overall 
service delivery are growing in importance and impact.
    And although Medicaid provides some home- and community-
based services and supports, the program is weighted towards 
institutional care, even when many seniors would be able to--
and most times would prefer to--stay in their own homes. 
According to the AARP, more than 90 percent of older adults 
prefer to remain in their current residence as long as 
possible.
    Home and community-based services are not only the 
preference of seniors, but they are also a more cost-effective 
means of providing care. As the Baby Boomers continue to age, 
our current infrastructure for delivering services needs to 
adjust to reflect this preference and help ease the cost of 
providing care to this burgeoning group.
    I am currently developing legislation that would amend the 
Older Americans Act to assist older adults who are just above 
the Medicaid threshold obtain supportive services necessary to 
remain safely in their communities. This legislation would 
provide seniors with the option of using a consumer directed, 
long-term care approach based on their individual choices and 
preferences, in collaboration with service coordinators. This 
approach would not only respect the wishes of older adults, but 
also reduce the burden on the Medicaid system.
    As we anticipate an increase in demand for long-term care 
services from the Baby Boom generation, Naturally Occurring 
Retirement Communities or NORCs are another area of interest to 
me. NORCs refer to a variety of residential housing constructs, 
such as apartments, condominiums, cooperatives, and 
neighborhoods of attached or single-family dwellings, where 
large concentrations of older adults reside. NORCs exist in 
many demographic spheres--urban, suburban and rural. They 
evolve naturally, primarily through the aging in place of the 
population or through large-scale migration of seniors to 
particular buildings or neighborhoods. According to AARP, as 
many as 25 to 36 percent of seniors live in NORCs.
    A study funded by the Robert Wood Johnson Foundation and 
conducted by the Florence Heller Graduate School of Brandeis 
University found NORCs provide unique opportunities to: (1) 
deliver health and supportive services cost effectively; (2) 
increase service availability; (3) organize cooperative health 
promotion, crises prevention, and community improvement 
initiatives and (4) develop new human, financial, and 
neighborhood resources for the benefit of older residents. 
There has been a growing interest in NORCs, as well as an 
increasing number of them. Successful set aside NORC 
demonstration projects have been funded through the Older 
Americans Act in the past.
    With the older adult population expected to mushroom to 20 
percent of the U.S. population by 2025, we should put more 
permanent language into the upcoming Older Americans Act that 
would authorize funding for NORCs in all States, rather than 
just for demonstration projects in some States.
    Another issue of considerable importance to me is 
caregiving. Research suggests that more than a quarter of 
adults are currently providing care for a chronically ill, 
disabled, or aging family member or friend, while 59 percent of 
adults will care for a loved one at some point in their 
lifetime. Although caregiving can be personally rewarding, it 
can also result in substantial psychological, physical, and 
financial hardship. Research suggests that caregivers often put 
their own health and well being at risk while assisting loved 
ones. These difficult demands can lead to depression, 
relationship stress, physical illness, anxiety, and emotional 
strain.
    As you know, my husband signed the National Family 
Caregiver Support Program into law as part of the 2000 
amendments to Title III of the Older Americans Act. This was a 
tremendous step toward recognizing the heroic efforts of our 
caregivers. Prior to the establishment of this program, there 
was no comprehensive Federal program that supported family 
caregivers of seniors. Although the National Family Caregiver 
Support Program took a step in the right direction, further 
efforts are necessary to meet the increasing needs of family 
caregivers.
    Unfortunately, in New York and across our country, quality 
respite care remains hard to find today and too many caregivers 
do not know how to find information about available services. 
Even when community respite care services exist, there are 
often long waiting lists.
    That is why I reintroduced the Lifespan Respite Care Act 
with my cosponsor Senator Warner. This legislation would 
improve efficiency and reduce duplication in respite service 
development and delivery. The Lifespan Respite Care Act would 
bolster the National Family Caregiver Support Program by making 
quality respite care available to family caregivers of 
individuals with special needs across the lifespan--from 
children to seniors--regardless of their Medicaid status, age 
or disability.
    In addition to caregiving, I believe we must focus on the 
growing mental health needs of our seniors during the upcoming 
reauthorization of the Older Americans Act. Although older 
adults enjoy good mental health, it is estimated that nearly 20 
percent of Americans age 55 or older experience a mental 
disorder. The number of seniors with mental and behavioral 
health problems is anticipated to reach 15 million in 2030.
    Among the most prevalent mental health concerns older 
adults encounter are anxiety, depression, and cognitive 
impairment. If left untreated, these disorders can have severe 
physical and psychological implications. In fact, older adults 
have the highest rates of suicide in our country and depression 
is the foremost risk factor.
    The physical consequences of mental health disorders can be 
both expensive and debilitating. For example, depression has a 
significant negative impact on the ability to function, 
resulting in high rates of disability.
    In order to address the mental health needs of our seniors, 
I have reintroduced the Positive Aging Act with my cosponsor 
Senator Collins. This bill would amend the Older Americans Act 
to make mental health services for older adults an integral 
part of primary care services in community settings and extend 
them to other settings where seniors reside and receive 
services, such as NORCs. Interdisciplinary teams of mental 
health professionals and other health providers would provide 
evidence-based services to seniors under this legislation.
    Finally, I believe we must promote elder justice by 
providing resources to States and local agencies to combat 
elder abuse, neglect and exploitation and by increasing 
resources, awareness and leadership on this issue. That is why 
I support the Elder Justice Act that Senators Lincoln and Hatch 
have spearheaded this Congress. This is the first comprehensive 
piece of Federal legislation that addresses and prevents the 
suffering and disgrace so many of our seniors experience--that 
too often goes unreported.
    We face an important yet exciting challenge as we prepare 
our country for the aging boom. What we do to prepare now will 
have a tremendous impact on our systems of care tomorrow.
    Again, I thank you for holding this important hearing today 
and look forward to continuing to explore these and other 
important issues as we prepare for the reauthorization of the 
Older Americans Act.
    Chairman DeWine. Barbara Kennelly, our former colleague, we 
welcome her as the chair of the Leadership Council of Aging 
Organizations; Jo Reed, chief executive officer of the AARP; 
Howard Bedlin, vice president for public policy of the National 
Council on Aging; Laura Howard, executive director of the 
National Association of Nutrition and Aging Services Programs; 
Enid Borden, chief executive officer of the Meals on Wheels 
Association of America; Patrick Flood, the commissioner of the 
Vermont Department of Aging and Disabilities, today, he is 
representing the National Association of State Units on Aging; 
Sandy Markwood, chief executive officer of the National 
Association of Area Agencies on Aging; Suzanne Mintz, president 
and co-founder of the National Family Caregivers Association; 
Karyne Jones, president and chief executive officer of the 
National Caucus and Center on Black Aged; Clayton Fong, 
executive director of the National Asian Pacific Center on 
Aging; Carmela Lacayo, president and chief executive officer of 
the National Association for Hispanic Elderly; Bob Blancato, 
the national coordinator of the Elder Justice Coalition, and 
finally, George Kourpias, President of the Alliance for Retired 
Americans.
    Barbara, why don't you start, please.

STATEMENT OF BARBARA B. KENNELLY, CHAIR, LEADERSHIP COUNCIL OF 
              AGING ORGANIZATIONS, WASHINGTON, DC.

    Ms. Kennelly. Thank you, Senator. I am absolutely delighted 
to be here as chair of the Leadership Council of Aging 
Organizations. I am also president of the National Committee to 
Preserve Social Security and Medicare. In addition, I was a 
member of the policy committee with Clayton Fong and with Bob 
Blancato and Gail Hunt, who is in the audience, and we were 
voting on resolutions. It wasn't even a contest. The number one 
resolution of people, 1,200 people who came from around the 
United States, Republicans, Democrats, Independent, they wanted 
the reauthorization of the Older Americans Act.
    I have not much time and you were good enough to ask me to 
send all the recommendations of our group and I sent you 31 
recommendations that we all agree on. But I also just want to 
say to you that LCAO supports a substantial increase in the 
Older Americans Act authorization levels above current 2006 
funding levels to reflect inflation and assure that the aging 
network has adequate resources to meet its challenges. I know 
that is asking a lot, but I think it should happen.
    And then I know the two things that you both are interested 
in, both Senators, is to help family caregivers. LCAO supports 
strengthening the National Family Caregivers Support Program, 
which I know you both have supported so beautifully in the 2000 
reauthorization. I also have had the honor, Secretary Carboneli 
had me over last week to see the Choices for Independence 
Initiative, the new program. We want to look at it very, very 
carefully.
    You are here today, and you know, in this day and age, it 
is not often that a whole audience, people who are testifying 
and people who are in the audience, agree on where we are 
today. I have been in senior issues for 31 years, but I don't 
think there has ever been as successful a program as the Older 
Americans Act. Now, I know and everybody in this room knows 
that we are going to be arguing and debating and challenging 
each other about Social Security and about Medicare, but I 
think the Older Americans Act is something that we can all 
agree on.
    Therefore, I just think this is an opportunity to authorize 
this act and authorize it to the point where it really works. 
Thousands and thousands and thousands of rides to the bank, to 
the grocery store, just getting people out of their homes and 
they can stay independent and they can live with dignity. This 
act does its work, but it can't do its work unless it is 
authorized at an adequate amount of funding, and I think we are 
so lucky to have all of us agree on that.
    We are 54 organizations that belong to the LCAO, but we all 
agree the authorization of this act is terribly important. We 
can't agree on much in this town, but this one we can agree on.
    Chairman DeWine. Thank you very much.
    [The prepared statement of Ms. Kennelly follows:]

               Prepared Statement of Barbara B. Kennelly

        LCAO OLDER AMERICANS ACT REAUTHORIZATION RECOMMENDATIONS

    The Older Americans Act (OAA) is the major Federal discretionary 
funding source for home- and community-based services for seniors. 
Programs supported through the OAA include home-delivered and 
congregate nutrition services, the Senior Community Service Employment 
Program, the long-term care ombudsman program, services to prevent the 
abuse, neglect, and exploitation of older persons, the National Family 
Caregiver Support Program, and other supportive services. These 
programs provide vital support for those seniors who are at significant 
risk of losing their ability to remain independent in their own homes 
and communities.
    The Leadership Council of Aging Organizations (LCAO), which has 
played a significant leadership role in past reauthorizations, is 
committed to a reauthorization that will strengthen the OAA for both 
the seniors currently receiving services and for the baby boomers who, 
starting in 2006, are eligible to receive services provided by the OAA. 
The Aging Network established by the act has been a successful model of 
service delivery for over 30 years and through this reauthorization 
should be positioned to assist the country's growing aging population 
to remain healthy, active, and in their communities for as long as 
possible.
    The number one priority at the recent 2005 White House Conference 
on Aging, an event held only once a decade, concerned reauthorization 
of the OAA. Delegates from across the county, largely appointed by 
Governors and Members of Congress, expressed strong support for 
strengthening the program, along with serious concerns about its 
current underfunding. We urge Congress to act on the will of these 
delegates by updating and improving the act and providing the funding 
needed for the OAA to keep seniors independent and productive.
    Therefore, the LCAO makes the following recommendations to 
strengthen and enhance the OAA:

                                GENERAL

    1. Increase OAA authorization levels by at least 25 percent above 
current fiscal year 2006 funding levels to reflect inflation and ensure 
that the Aging Network has the necessary resources to adequately serve 
the projected growth in the numbers of older adults, particularly those 
over the age of 85, who are the most frail, most vulnerable and in the 
greatest need of aging supportive services.
    2. Provide for a 5 year authorization period to ensure continuity, 
promote quality improvements in programs and services and allow newly-
authorized programs and amendments to be fully implemented.

                                TITLE II

    3. Strengthen the National Long-Term Care Ombudsman Resource Center 
by increasing the authorized appropriation level to $1 million annually 
to provide support and training for the Long-Term Care Ombudsman 
Programs that protect the rights and interests of residents of long-
term care facilities and their families.
    4. Strengthen the National Center on Elder Abuse by increasing the 
authorized appropriation level to $1 million annually to promote 
understanding, knowledge sharing, and action on elder abuse, neglect, 
and exploitation.

                               TITLE III

    5. Encourage and support the development and implementation of 
greater opportunities for innovative, community-based service delivery 
methods, including consumer-directed models that promote independence, 
autonomy, choice and control for senior adults and their caregivers.
    6. Strengthen the National Family Caregiver Support Program (NFCSP) 
under title III-E by:
    a. Doubling the original authorization to $250 million per year;
    b. Revising the definition of ``kinship'' in the NFCSP to include 
non-blood relationships;
    c. Adding a new program focusing on the needs of older persons with 
Alzheimer's disease and related dementia and their caregivers, building 
on the success of the current State demonstration program;
    d. Promoting the value of senior volunteers, particularly low-
income seniors, in providing respite care to relieve caregiver stress.
    7. Establish an authorization level of at least $60 million for the 
title III-D Health Promotion and Disease Prevention program, including 
$25 million specifically for local implementation of evidenced-based 
promotion and prevention programs and a $10 million set aside for a 
demonstration program on a community-based collaborative involving 
State or local aging, health care and public health providers to 
advance health promotion and disease prevention services.
    8. Include statutory language in the Older Americans Act that 
increases support to the aging network to promote senior mobility and 
to facilitate coordination of human services transportation.

                                TITLE IV

    9. Authorize funds for the administration on Aging (AOA) to conduct 
a study on the status and effectiveness of the nutrition programs which 
should be done by an independent organization such as the Institute of 
Medicine, and thoroughly disseminate the study's findings.
    10. Authorize funds for a demonstration project to study the ways 
technological innovations can be used to promote the independence, 
health and well being of seniors and their caregivers.

                                TITLE V

    11. Maintain the Senior Community Service Employment Program's 
(SCSEP's) dual structure of funding State and national grants and 
operating through State Units on Aging and the National Sponsoring 
Agencies.
    12. Maintain the title V SCSEP's vital, historic focus on community 
service, which significantly benefits the aging population.
    13. Reduce the barriers to participation of older workers in SCSEP. 
For example, strengthen the income security provided to low-income 
older workers in the SCSEP by exempting wages earned in the program as 
income for purposes of determining eligibility for Medicaid and other 
Federal benefits.
    14. Develop reasonable performance expectations based on population 
served, particularly regarding unsubsidized placements.
    15. Oppose efforts to consolidate the SCSEP with other employment 
programs and oppose burdensome administrative requirements or 
significant programmatic changes. Low-income seniors face barriers to 
employment far different from the challenges other seniors face in 
seeking workforce engagement; to divert resources or program focus away 
from this population would significantly lessen the likelihood that 
they will find and retain meaningful employment. Frequent changes in 
SCSEP regulations and administration have created serious negative 
consequences for both participants and community-based organizations 
and it is now appropriate to let the changes of the last few years 
settle in.
    16. Strengthen the involvement of the Administration on Aging in 
the title V program by requiring the Secretary of Labor to consult 
with, and obtain the written recommendations of the Assistant Secretary 
for Aging on operation and administration of title V.

                                TITLE VI

    17. Strengthen title VI Aging Grants to Indian Tribes and Native 
Hawaiian Organizations by increasing authorized appropriations level to 
$50 million annually to provide for adequate delivery of nutrition and 
other supportive services.
    18. Increase the authorized appropriations level to $20 million 
annually for Part C, the Native American Caregiver Support Program, and 
provide training to Tribes to use the caregiver funds effectively.

                               TITLE VII

    19. Strengthen the capacity of the aging network to develop and 
implement a comprehensive elder rights system through:
    a. Authorizing funding to support the rights of elders through 
existing title VII elder rights services. In particular, we recommend 
the following authorized funding levels:
    i. Long-Term Care Ombudsman Program at $45.5 million;
    ii. Legal Services Developer at $10 million;
    iii. Elder Abuse Prevention at $10 million;
    iv. Pension Counseling at $10 million;
    v. Native American Organization Provisions at $10 million.
    b. Authorizing a funding level of $50 million to provide assisted 
living residents and recipients of home- and community-based services 
access to services of the Long-Term Care Ombudsman Program.
    c. Recognizing the critical role of adult protective service (APS) 
in the prevention of and response to elder abuse, neglect and 
exploitation.
    d. Statutory recognition of the existing role of State units on 
aging in administering APS programs.
    20. Strengthen provisions and increase the authorized funding 
levels for title VII services to enhance access to Legal Assistance to 
the Elderly and ensure the viability of elder abuse and domestic 
violence prevention, intervention and related elder justice activities 
and outreach demonstrations. Also, support title VII services to 
enhance capacity and increase training of law enforcement officials and 
medical staff; broaden public education; and facilitate coordination 
among all professionals and volunteers involved with the prevention, 
detection, intervention and treatment of abuse and neglect of 
vulnerable older adults.

                 ADDITIONAL WAYS TO STRENGTHEN THE OAA

    21. Establish a new title in the OAA that would support the Aging 
Network to work with State and local Governments to actively prepare 
for the aging of the baby boomers, as well as today's elderly 
population. Through the new title, funds would support new resources in 
the Aging Network to coordinate community plans to prepare for the 
aging population's impact on the social, physical, and fiscal fabric of 
our Nation's cities and counties. The new title would also establish a 
national resource center to provide the necessary guidance, training, 
and technical assistance to aging programs in their efforts to help 
communities develop livable communities for all ages. This title shall 
be evaluated and sunsetted as necessary.
    22. Provide permanent authority and authorize funds to design and 
implement Aging and Disability Resource Centers to assist older people 
and adults with disabilities to make informed decisions about their 
service and support options and serve as the one-stop center for the 
States long-term care service and support system.
    23. Include a national education and training program for new 
leaders in the aging network that would reinforce and broaden the 
capacity of aging network to meet future challenges and opportunities.
    24. Authorize the creation of a new National Center on Senior 
Benefits Outreach and Enrollment. The Center would work closely with 
State Health Insurance Assistance Programs (SHIPs), State Units on 
Aging (SUAs), Area Agencies on Aging (AAAs), and CMS Regional Offices 
to create and support a nationwide network of certified enrollment 
centers.
    25. Establish a permanent, evidence-based disease prevention and 
health promotion program to support healthy, productive aging by 
capturing the critical lessons learned from the current Evidence-based 
Prevention Initiative demonstrations. Establish a range of programs in 
each State. Expand the size (both the number of providing agencies and 
the number of participants) of the best of the current demonstrations 
to ensure that these programs can go to scale and to develop more 
accurate cost estimates and establish readiness to implement criteria. 
Document adjustments that are being made to current organizational 
processes and systems to gain a better understanding of which practices 
can be modified and which practices need to be rebuilt. Provide 
incentive grants, training and technical assistance to the next 
generation of agencies that meet the readiness criteria to implement 
evidence-based prevention programming.
    26. Strengthen collaboration between the Administration on Aging 
and the Corporation for National and Community Service to promote their 
roles as:
    a. Catalysts in forging a national policy framework and 
infrastructure that greatly expands opportunities for millions of older 
adults to give back and participate in the affairs of their 
communities;
    b. Innovators to foster the growth of promising practices, 
evidence-based and outcome focused program models, and community 
capacity building initiatives;
    c. Collaborators with the private sector to change workforce 
policies and practices and support transition planning for retiring 
workers;
    d. Researchers to establish, and routinely assess against, a 
baseline for financial savings and cost benefits resulting from older 
adults remaining active, contributing members of society and from the 
direct and demonstrable impact they have on reducing serious social 
problems.
    27. Strengthen the authority of State Government to ensure that the 
act's resources are targeted to those older persons most in need of 
support to maintain dignity and independence, such as the very old, the 
poor, the near poor who may not qualify for Medicaid, the frail, those 
geographically or socially isolated, limited English speaking 
individuals, and low-income minority persons.
    28. Strengthen and broaden the Federal leadership role of the 
Assistant Secretary for Aging to include new partnerships with the 
Centers for Medicare and Medicaid Services (CMS):
    a. To administer the Home and Community-Based Services (HCBS) 
Medicaid Waiver Programs and other long-term care programs.
    b. To ensure that older qualified individuals with disabilities 
have access to services in the most integrated setting appropriate to 
their needs.
    c. To provide information, education and counseling to people with 
Medicare in partnership with CMS.
    d. To assist in efforts to ensure the integrity of the Medicare 
program in partnership with CMS.
    29. Strengthen collaborative efforts between the Administration on 
Aging, with its Federal leadership role, and all relevant Federal 
agencies with a significant aging portfolio, including but not limited 
to: the Department of Housing and Urban Development, the Federal 
Transit Administration, the Corporation for National and Community 
Service, the Social Security Administration, the Centers for Disease 
Control, and the Centers for Medicare and Medicaid Services.
    30. Strengthen and broaden the leadership role of the State Units 
on Aging and Area Agencies on Aging (AAAs) to eliminate the 
institutional bias in their State's long-term care system through:
    a. New partnership with the State Medicaid agencies to ensure that 
older qualified individuals with disabilities have access to services 
and adaptive equipment in the most integrated setting appropriate to 
their needs.
    b. Requiring active participation in the development and 
implementation of the State's Olmstead plan, long-term care rebalancing 
plans or meeting ADA title II requirements for older people.
    c. Statutory recognition of their expanded responsibilities in the 
design and implementation of home- and community-based service systems 
including the State Medicaid Home and Community-Based Services Waiver 
programs for the aged and people with disabilities and other long-term 
care programs.
    31. Make proven title IV projects, including legal hotlines, Family 
Friends, and Medicare Patrol Projects, permanent service options 
through stable and reliable funding sources.
    Note: The numbering system used in this document is for reference 
purposes only and should not be considered a prioritization of 
recommendations.

    Chairman DeWine. Ms. Reed.

 STATEMENT OF JO REED, NATIONAL ADVOCACY COORDINATOR, FEDERAL 
 LIVABLE COMMUNITIES AND CONSUMER ISSUES, AARP, WASHINGTON, DC.

    Ms. Reed. Thank you. First of all, on behalf of AARP, I am 
delighted to be here, as well. I have to tell you, however, 
that I am the National Coordinator for Livable Communities and 
Consumer Issues for Advocacy Operation, although I appreciated 
that promotion. I will briefly summarize the key points in our 
longer statement for the record.
    Regarding the delivery of home- and community-based 
services, helping people to grow older in their communities 
with independence and dignity is the bedrock goal of the Older 
Americans Act, and coordination of available resources to 
achieve this goal is essential. So we are encouraged by the 
administration's new initiative, Choices for Independence, and 
we think this initiative holds tremendous promise and really 
deserves favorable attention from Congress. However, we are 
concerned that funds for other important activities, such as 
the Alzheimer's demonstration grants, should not be sacrificed 
in a move to launch this effort.
    Monitoring and improving quality in the delivery of long-
term care services is critical. We strongly support the 
maintenance of the Office of the Long-Term Care Ombudsman and 
the program's authority to be an effective watchdog in nursing 
homes and other long-term care facilities.
    Regarding the title V Senior Community Services Employment 
Program, AARP believes that the current SCSEP project 
management structure has proven effective and should be 
preserved, along with its original dual job opportunity and 
community service mission. In that regard, we do not support 
the title V proposal outlined in the administration's 2005 
budget, which would eliminate national grants and administer 
the program through State contracts with national and other 
groups. Such a drastic and premature change would, in our view, 
create significant confusion for participants and serious 
program inefficiencies. Further, it would squander the 
opportunity for experienced grantees to build on past success 
and new ones to prove their worth. Mr. Chairman, let me add 
that we believe in this program so strongly that we subsidize 
it with AARP resources.
    AARP continues to support targeting of Older Americans Act 
services established in previous reauthorizations, an effort 
more critical in these days of austere budgets than ever. To 
that end, we support uniform data collection procedures and 
definitions. These are necessary to strengthen evaluation of 
program effectiveness and better target services to the most 
vulnerable populations.
    AARP supports retaining the critical advocacy functions of 
the Older Americans Act, highlighted in Title VII of the act. 
Advocates for seniors need to engage fully in all aspects of 
OAA planning and work to improve access to public benefit 
programs by low-income older persons whose participation in 
such programs continues to lag behind that of other age groups.
    Legal assistance should continue to be a required service 
in the act.
    Finally, AARP continues to believe that broader cost-
sharing and sliding scale fees should be implemented only after 
carefully monitored demonstrations affirm that the most 
economically and socially vulnerable populations do not 
encounter barriers.
    In conclusion, we thank you for acknowledging the concerns 
of older Americans. We strongly urge your support for a simple 
reauthorization that makes only targeted changes in existing 
programs to improve efficiency. Thank you.
    [The prepared statement of Ms. Reed follows:]

                     Prepared Statement of Jo Reed

                        EXECUTIVE SUMMARY SHEET

A. Delivery of Home and Community-Based Long-Term Care & Ombudsman 
        Services
    1. Develop and use comprehensive, coordinated systems of long-term 
care that ease consumer access through a single point of entry.
    2. Encourage States to develop their own home- and community-based 
care programs using combinations of OAA and other funds to serve 
persons unable to meet Medicare and Medicaid requirements.
    3. Encourage use of combined funding sources to supplement services 
provided through Medicaid.
    4. Retain the separation between the roles of assessing eligibility 
and actual provision of service for OAA-funded entities.
    5. Retain demonstrations capacity to assess new and improved ways 
to more effectively deliver LTC and supportive services.
    6. Retain Ombudsman provisions that authorize their advocacy 
functions and ensure adequate funding.
    7. Do not expand the roles or requirements of Ombudsmen without 
providing adequate new funding.
B. Title V--The Senior Community Service Employment Program (SCSEP)
    1. Do not block grant SCSEP funds to States or compel grant 
competitions in all States;
    2. Do not impose a higher burden of administrative costs to run the 
program;
    3. Make no major revisions in SCSEP's administrative structure or 
reporting requirements that are unrelated to identified problems;
    4. Do not alter the current percent allocation split of program 
funds between the national sponsors and the States as provided for in 
the OAA Amendments of 2000.
C. Targeting of Older Americans Act Services
    1. Retain current targeting language in the act.
    2. Do not raise the age of eligibility for service because of its 
adverse impact on vulnerable older minority individuals.
    3. Defer any plan to broaden cost-sharing under the act pending an 
evaluation of the impact on under-served groups with critical needs.
D. Vulnerable Elder Rights and Consumer Rights Protections
    1. Retain the current advocacy functions of entities created under 
the act and their roles in all aspects of planning and implementation.
    2. Retain the mandate of OAA legal services and include a floor of 
funding at the local level.
    3. Retain Ombudsman provisions that authorize their advocacy 
functions and ensure adequate funding.
                                 ______
                                 
    On behalf of AARP, thank you for this opportunity to comment on the 
reauthorization of the programs and services of the Older Americans Act 
(OAA) and how they might be made more responsive to the needs of mature 
and older Americans. I am Jo Reed, AARP National Advocacy Coordinator 
for Federal Livable Communities and Consumer Issues.
    AARP is most concerned that programs, authority and partnerships 
that have already proven effective in meeting the needs of vulnerable 
older Americans be maintained and strengthened. We believe that older 
persons are best served by a simple reauthorization that makes only 
minor changes in existing programs to improve efficiency. Better 
coordination of existing OAA programs with other Federal programs, such 
as proposed by the administration in its ``Choices for Independence'' 
initiative, holds tremendous promise and merits the support of 
Congress.

I. Delivery of Home and Community-Based Services

    Helping people to grow older in their communities with independence 
and dignity is a bedrock goal of the Older Americans Act. All too 
often, advancing age and increasing frailty threaten the ability of 
older persons to remain in their own homes. The fear of having to enter 
a nursing home, with its attendant loss of independence and threat of 
impoverishment, weighs heavily on the minds of many older persons and 
their caregiver families.
    Indeed, this concern is a major basis for the National Family 
Caregiver Support Program and the ``Choices for Independence'' 
initiative that the administration fiscal year 2007 Budget proposes as 
part of this reauthorization cycle. AARP welcomes this initiative as 
both a complement to existing caregiver and service programs and an 
innovative step in addressing aspects of the much larger home- and 
community-based service challenge. If this new program is adopted, 
however, higher OAA appropriations will be required so that other 
important OAA activities are not displaced. This will require real 
commitment and creativity given tight Federal spending caps.
    Over the past 15 years, States have made great strides in improving 
the options for older persons with disabilities who want to remain in 
their own homes and communities for as long as possible. AARP and our 
partners in the aging network have been strong advocates for the 
development of effective networks for delivering home- and community-
based long-term care services. Successful State delivery strategies 
include:

    <bullet> expanding home- and community-based care programs by 
consolidating Federal and State funding (such as Medicaid, state-only 
funded programs, OAA, and Social Services Block Grant);
    <bullet> streamlining administrative operations by designating a 
single State agency to serve as a single point of entry into the long-
term care system;
    <bullet> adopting assessment and care management practices that 
allow targeting of resources to the persons most in need.

    In many States, the area agencies on aging serve as ``single points 
of entry'' into comprehensive, coordinated systems of care. Such 
systems can ease the ability of older persons and their families to 
find and use long-term care services, and can help States to manage 
their resources effectively.
    AARP supports the single point of entry approach. Maximizing 
linkages between various delivery systems is critical, especially 
access linkages like transportation or legal assistance. Without such 
coordination, persons who need long-term care must go from agency to 
agency, trying to locate programs and services for which they are 
eligible. They also must try to decipher the multiple and often 
conflicting eligibility requirements of various programs.
    At the same time, AARP believes that, in general, it is preferable 
to retain the current separation between the assessment of eligibility 
and the actual provision of services, so that the agency that conducts 
eligibility assessments does not have a financial interest in the type 
and amount of services authorized. We believe that the existing 
arrangements function effectively.

II. Long-Term Care (LTC) Ombudsman

    Finding methods of monitoring and improving quality in the delivery 
of long-term care services is critical. Federal legislation to protect 
vulnerable seniors from abuse, neglect and exploitation is still 
pending, so the resources of the OAA remain critical [see our later 
comments on elder rights protections]. Long-term care clients are 
particularly vulnerable, and the aging network has a vital role to play 
in quality assurance. AARP supports adequate funding for the LTC 
Ombudsman program, authorized by the OAA. We strongly support 
maintenance of the Office of the LTC Ombudsman and the program's 
authority to be an effective watchdog in nursing homes and other long-
term care facilities. We urge retention of provisions that enable the 
Ombudsman to:

    <bullet> provide information to the public and lawmakers;
    <bullet> comment on laws or regulations affecting care 
institutions;
    <bullet> execute their mission free of conflict of interest at any 
level;
    <bullet> assure the confidentiality of resident complaints and 
program records.

III. Title V--The Senior Community Services Employment Program (SCSEP)

    First, we should note that the AARP Foundation is 1 of 13 SCSEP 
national sponsors. As a 501(C)(3) organization, the Foundation is a 
separate entity from AARP, a 501(C)(4) organization. AARP believes that 
the current SCSEP project management structure has already proven 
effective in meeting the needs of vulnerable older Americans, and 
should be preserved. In our view, the program can be best served by a 
simple reauthorization that makes only targeted changes to improve 
efficiency.
    The reauthorization should not be encumbered by amendments that 
make major changes in the existing SCSEP program or its original, dual 
job opportunity and community service mission. While some constructive 
proposals have been made to improve title V--SCSEP, we have serious 
concerns regarding plans outlined in the administration's fiscal year 
2007 Budget. That proposal would eliminate national grants and 
administer the program through State contracts with national and other 
groups. Such a drastic and premature change would, in our view, create 
significant confusion for participants and serious inefficiency in the 
program itself. Further, it would squander the opportunity for 
experienced grantees to build on past success, and new ones to prove 
their worth.
    In general, AARP opposes proposals that:

    <bullet> block grant SCSEP funds to States or compel grant 
competitions in all States;
    <bullet> impose a higher burden of administrative costs to run the 
program;
    <bullet> make major revisions in SCSEP's administrative structure 
or reporting requirements that are unrelated to identified problems;
    <bullet> alter the current percent allocation split of program 
funds between the national sponsors and the States as provided for in 
the OAA Amendments of 2000.

    SCSEP works because it is administered in a way that responds to 
both older workers' and local community service needs, without the 
State or local Government bureaucracy that would be required if 
administered primarily by State agencies or as a block grant. This is 
especially important considering the minimal attention of State and 
earlier Federal jobs programs in addressing the special needs of older 
workers. SCSEP is the only remaining Federal job training initiative 
specifically designed to meet the needs of our aging workforce. It is 
critical that this highly successful program continue without disabling 
changes.
    SCSEP is a work training program for low-income persons age 55 and 
older. It is authorized to assist participants in gaining job skills 
and paid work experience needed to transition to permanent, 
unsubsidized jobs. As SCSEP is the only means-tested part of the act, 
participants meet income, age, and residency requirements.
    Once enrolled, participants receive a temporary, part-time, minimum 
wage assignment with a host agency (a non-profit community service 
organization), job search assistance, and skills training as needed. 
The program gives ``enrollees'' a chance to earn an income, develop new 
skills, and serve their community while continuing to pursue a 
permanent job. Typical assignments include jobs as cashiers, clerk 
typists, custodians, data entry clerks, grounds keepers, teacher's 
aides, hospital workers, home/health care service providers, day care 
workers, food preparers and public agency staff support workers.
    A long-standing goal for SCSEP under the Department of Labor's 
rules has been to place 20 percent of all participants in unsubsidized 
jobs in any program year. This goal is extremely challenging given that 
older workers qualify as ``hard-to-serve'' based on age alone. The AARP 
Foundation has regularly exceeded this goal, placing 48 percent of 
participants in the last program year and nearly doubling the goal in 
each year for the past decade. Because other national sponsors have 
also performed well, the average unsubsidized placement rate for 
national sponsors as a group has consistently exceeded that of the 
States.
    National sponsor performance has also exceeded that of States with 
regard to serving individuals with multiple employment barriers, cost 
per placement, administrative costs and service to the general 
community. While there have been occasions over the 35-plus year life 
of the program where administrative cost issues have been raised, it is 
important to keep in mind that sponsors operate under a maximum 
administrative cost cap of 15 percent, still well below what is allowed 
for most other Federal jobs programs.
    SCSEP meets the needs of those most economically vulnerable seniors 
who must work to subsist. Of those served by SCSEP in 2004, 82 percent 
were below poverty (participants qualify at up to 125 percent poverty), 
66 percent were female, 62 percent were age 60+, 36 percent did not 
graduate high school, 15 percent had a disability, 16 percent were 
veterans, and 41 percent were minority (14 percent Hispanic, 38 percent 
African-American, and 1 percent other, while 47 percent were white). 
Clearly, SCSEP serves a population that faces multiple barriers to 
employment. Some smaller national organizations bring unique skills for 
reaching older worker populations that are often underserved, 
especially older minority individuals. For this reason, among others, 
AARP has always supported using national sponsors to provide employment 
training opportunities.
    Finally, AARP would also be very concerned about any proposals to 
lower the administrative cap. The practical effect of such a change 
would be to disadvantage minority elders because it would fall more 
heavily on smaller minority national sponsors such as those serving 
Native American, Hispanic, Asian and African-American elderly. The 
impact would simultaneously be felt by minority communities and the 
national sponsors in the form of diminished service delivery capacity. 
Some likely consequences of a lower administrative cap that can be 
anticipated include:

    <bullet> Outreach and support services to eligible seniors would be 
reduced due to decreased project staff and resources;
    <bullet> Job opportunities would be diminished for low-income and 
minority elders and their communities, since minority sponsors serving 
such communities have the smallest grants, yet their program 
participants have the greatest need for support;
    <bullet> Important community services now staffed by title V 
participants might be dropped by financially strapped communities, 
thereby eliminating both services and job training opportunities for 
low-income seniors; and
    <bullet> Non-profits might be discouraged from seeking to be 
sponsors because the severe administrative caps would not be viewed as 
realistic for administering an effective program, and there would be 
concerns about draining financial resources from other organizational 
priorities.

IV. Targeting of OAA Services

    Administration of the programs and services of the act is more 
critical in these days of austere budgets than ever before. It is 
important to direct resources to areas that achieve the most impact 
while aiming to meet the goals of the act. Toward this end, the 
Association supports uniform data collection procedures and definitions 
which permit evaluation of program effectiveness, especially regarding 
gaps in service to rural, frail, low-income and minority older persons.
    Years of studies show pockets of under-service to certain older 
populations by the programs of the act. AOA has improved its ability to 
collect participant data in recent years. However, there are not 
adequate measures of the unmet need for services. Broadening the scope 
of data collection for title III programs could help demonstrate their 
impact on special populations.
    For many years, AARP has advocated targeting OAA services to 
persons with the greatest social and economic need and, in particular, 
to low-income, older minorities. AARP continues to strongly support 
retention of the targeting provisions of the act. The flexible nature 
of the OAA programs is one of its strengths because it helps to garner 
broad public and political support. However, historically there have 
been problems in achieving adequate service delivery to older minority 
individuals. It is critical that new participation data collected by 
AOA be disseminated, so that the adequacy of current service delivery 
to older minorities can be evaluated. By tracking results, it is 
possible to ensure that more funding goes to those programs that 
achieve the best results with the targeted populations. Better tracking 
would also enhance ability to assess delivery of services to other 
underserved target populations like rural elders and enable more 
effective allocation of OAA service dollars.

V. Vulnerable Elder Rights Protection, Consumer Protection & Legal 
                    Assistance

    AARP supports retaining the advocacy functions of the OAA programs. 
In order to fulfill the act's mission, it is critical that State and 
area agencies on aging continue to be effective and visible advocates 
for older persons. A critical component of this function is allowing 
for public participation in all aspects of the act's planning and 
implementation processes.
    AARP continues to support efforts by the aging network to improve 
access to public benefit programs by low-income older persons. 
Participation by older persons in public benefit programs continues to 
lag behind participation rates for other age groups. With the extensive 
changes in public benefit programs enacted by welfare reform and recent 
proposals to eliminate nutrition alternatives like the Commodity 
Supplemental Food Program (CSFP), there is even greater uncertainty 
among older persons regarding both access and possible eligibility. The 
OAA programs can play an important role in helping older persons with 
low incomes to gain access to other programs for which they are 
eligible. Such assistance can make a critical difference in the quality 
of life for these vulnerable individuals.
    Similarly, a host of problems confronting older consumers in 
today's marketplace require redress. These problems range from the 
refusal of some managed care providers to cover certain necessary 
treatments to predatory lenders who convince older individuals to 
accept high-interest loans secured by their only asset, the equity in 
their homes. Older persons need quick access to legal advice before 
they sign a document or take action they may later regret. A 1994 AARP 
survey found that 13 percent to 18 percent of persons age 60 and older 
need the assistance of a lawyer each year to protect their rights or to 
redress a wrong. We suspect that the increased complexity of financial, 
personal and public assistance requirements have greatly increased that 
need, but the lack of current research on the legal needs of seniors 
remains a barrier to resource allocation.
    AARP urges that legal assistance continue to be a required service 
under the act unless waived in accordance with guidelines from the 
Secretary. It is critical that the current waiver process be retained. 
This process provides that interested parties be notified and a public 
hearing be held before a waiver can be granted. Without this 
protection, the vital interests of many of the most vulnerable elders 
can be waived without recourse. Legal assistance helps older persons 
obtain access to vital medical, insurance, housing, and social security 
benefits as well as providing guidance regarding nursing home and 
estate issues.
    Unfortunately, according to the Comprehensive Legal Needs Survey 
conducted by the American Bar Association (ABA) in 2004, most moderate 
and low-income persons facing problems with legal dimensions do not 
seek the benefit of a lawyer's services. This reaffirms similar 
findings in the ABA's 1994 study. Among the reasons noted are lack of 
awareness that their problems are legal in nature, the perceived cost 
of a lawyer, the effort required to find a good, qualified lawyer, and 
the discouraging fear of dealing with lawyers.
    The OAA's mandate to provide legal services is therefore extremely 
important. This ensures the availability of legal help for at least 
some of the most critical problems of the neediest older Americans. 
Requiring services rather than providing discretion in this area is 
critical because legal services are controversial in some communities. 
Without the mandate, the fundamental principle of access to justice 
will be denied to some older persons. For the same reason, area 
agencies should be required to spend a minimum percentage of their 
title IIIB funds, set by the State Unit on Aging, on legal services. 
Before establishment of the mandate, less than 50 percent of area 
agencies funded any legal services. Many others spent insignificant 
amounts on legal services. A 2002 study of legal services in New Jersey 
noted among its conclusions that pro bono services are inadequate to 
make a significant difference in access to legal assistance by those 
who need it. AARP therefore opposes any changes that would substitute 
pro bono services for OAA legal assistance without reliable data to 
affirm that legal needs are being met by such services.

VI. Cost-Sharing Initiatives

    Any proposals to broaden the scope of cost-sharing under the act 
should be deferred pending a national, independent and verifiable 
impact analysis. AARP continues to believe that broader cost-sharing 
and sliding scale fees should be implemented only after carefully 
monitored demonstrations affirm that the most economically and socially 
vulnerable populations do not encounter barriers. While it may be 
possible to limit the number and types of services that would be 
affected by an expanded cost-sharing policy, the fact remains that no 
uniform national studies have been conducted to assess impact.

Conclusion

    Again, AARP thanks the committee for acknowledging the concerns of 
older Americans and strongly urges your support for the recommendations 
we have presented. AARP welcomes every opportunity to work with 
Congress, the administration and others to preserve essential OAA 
programs and services while more effectively coordinating Federal 
resources through initiatives that permit State and local flexibility 
in meeting the needs of an aging America.

    Chairman DeWine. Mr. Bedlin.

 STATEMENT OF HOWARD BEDLIN, VICE PRESIDENT FOR PUBLIC POLICY 
  AND ADVOCACY, THE NATIONAL COUNCIL ON AGING, WASHINGTON, DC.

    Mr. Bedlin. Good afternoon. I am Howard Bedlin with the 
National Council on Aging.
    The Older Americans Act plays an essential role in keeping 
seniors independent. In fact, among 73 resolutions the 1,200 
delegates to the once-per-decade White House Conference on 
Aging chose reauthorization of the Older Americans Act as their 
number one priority. We support a noncontentious 
reauthorization, and as co-chair of the LCAO Community Services 
Committee with Laura here as the other co-chair, we helped to 
craft a consensus document that reflects the reforms that are 
broadly agreed upon.
    Several controversial issues delayed the reauthorization 
last time for 5 years. We believe the act works well and that 
delegate carefully crafted compromises should not be reopened. 
The primary controversy last time concerned the title V SCSEP 
program, the most effective workforce program for low-income 
older Americans. There is broad consensus that the current 
structure of States and national sponsors and the historic 
emphasis on community services should be maintained. This issue 
merits its own roundtable discussion.
    NCOA proposes several improvements to the act. First, we 
support the AOA Choices for Independence Initiative, which can 
strengthen the act and provide significant benefits to seniors 
in need. We enthusiastically support its healthy lifestyle 
component, building on evidence-based prevention demonstrations 
that have proven effective in reducing the risk of disease and 
disability. We recommend making the program permanent and 
focusing on low-cost evidence-based interventions and providing 
training, technical assistance, and accurate measures of 
program costs.
    Second, it is a national tragedy that millions of low-
income seniors eligible for help are not actually getting it. 
Even after 40 years, only about one-third of eligible seniors 
in need receive food stamp or Medicare cost sharing benefits 
available to them. We need a focused, coordinated effort to 
assist them to get the benefits Congress intended. We recommend 
a new National Center on Senior Benefits Outreach and 
Enrollment be formed to develop sophisticated, cost-effective 
strategies to assist those in greatest need to actually get the 
help available under the law.
    Third, we must stop viewing the aging population as a 
problem rather than recognizing older adults as powerful 
resources. We should develop new civic engagement models to 
take advantage of the resources baby boomers offer America. The 
aging network should be strategically mobilized to help seniors 
give back to their communities. We recommend that a civic 
engagement innovation fund be created, a sophisticated cost-
benefit analysis be conducted, and a blueprint developed on how 
to best tap older adults to address critical societal needs.
    Finally, one of the most effective programs tapping senior 
volunteers is Family Friends, which recruits and trains senior 
volunteers to work with children with disabilities. We 
recommend that the act include a permanent authorization in 
this program.
    Additional recommendations are included in my written 
statement, including those concerning senior centers.
    Thank you for this opportunity to share our views and we 
look forward to working with you.
    Chairman DeWine. Thank you very much.
    [The prepared statement of Mr. Bedlin follows:]

                  Prepared Statement of Howard Bedlin

    Thank you for the opportunity to submit this statement on behalf of 
the National Council on the Aging (NCOA). I am Howard Bedlin, Vice 
President for Public Policy and Advocacy.
    The delegates to the recent once-per-decade White House Conference 
on Aging (WHCOA) were asked to vote on their priorities from among 73 
resolutions that were crafted by the White House Conference Policy 
Committee. A majority of the over 1,200 delegates from across the 
Nation were selected by Members of Congress and the Governors. To the 
surprise of some, those delegates--leaders in the aging network from 
every corner of the country--chose as their number one priority the 
resolution regarding reauthorization of the Older Americans Act (OAA). 
That is a powerful statement to Congress, to the White House, and to 
the Nation.
    Since its enactment in 1965, the OAA has been reauthorized 14 times 
and has made an enormous positive difference in the lives of millions 
of older Americans. The act established the primary vehicle for 
organizing and delivering community-based services through a 
coordinated system at the State level. Nutrition, home care, senior 
center services, transportation, employment, protections against abuse 
and neglect, disease prevention, family caregiver support--all of these 
have been extremely beneficial over the years. Programs operating 
through the OAA provide vital support for those elders who are at 
significant risk of losing their ability to remain independent in their 
own homes and communities. These services help older persons avoid or 
delay costly nursing home care.
    The act works well, given its limited finances. Funding for the 
program has essentially remained frozen at $1.783 billion since fiscal 
year 2002--failing to keep pace with inflation or increases in need due 
to demographics. The most recent Federal PART Performance Measurements 
concluded that AOA programs:

    <bullet> address a specific and existing problem, interest or need;
    <bullet> are not redundant or duplicative of any other Federal, 
State, local or private effort;
    <bullet> are free of major flaws that would limit effectiveness or 
efficiency;
    <bullet> effectively target resources to reach intended 
beneficiaries;
    <bullet> use strong financial management practices.

    While current OAA programs work well, much can be done to leverage 
relatively modest additional resources to achieve significantly greater 
results. Too many frail older Americans should be able to remain 
independent in their homes and communities, but--for a wide variety of 
reasons--are prematurely admitted into expensive nursing homes. Too 
many low-income seniors are not applying for and receiving assistance 
they are eligible for. Too many family caregivers are burning out under 
growing financial, emotional and physical burdens. Too many older 
Americans were found in a recent study to be food insecure. And we are 
not taking full advantage of experienced, able-bodied seniors who want 
to volunteer to give back to their communities. NCOA proposes several 
key improvements to the OAA that would help address these concerns.
    We support a smooth, non-contentious reauthorization of the OAA, 
and hope that it can be accomplished during 2006. In an attempt to 
promote such a process this year, as co-chair of the Community Services 
Committee of the 54-member Leadership Council of Aging Organizations, 
we worked with many other groups to craft a consensus document on OAA 
reauthorization issues. We believe the document is an accurate 
indicator of the reforms the aging network generally agrees upon.
    A small set of controversial issues delayed the last 
reauthorization for 5 years. We believe that, on balance, the act is in 
good shape and that these same controversial issues should not be 
revisited in the upcoming reauthorization. We should learn from the 
experience from the previous reauthorization and not reopen and pour 
salt on old wounds that reflect carefully crafted compromises that are 
now working well.
    For example, one of the major controversies that held up 
reauthorization last time concerned cost sharing. To help break the 
logjam, NCOA and the National Association of State Units on Aging 
(NASUA) collaborated on a delicately balanced compromise that is the 
foundation of the current law provision. We oppose reopening this 
contentious issue.
    Nutrition providers are currently required to provide participants 
with an opportunity to make non-coercive, voluntary contributions, and 
AOA data show that many seniors do contribute. These voluntary 
contributions by seniors account for 32 percent of the total income in 
congregate meals programs and 25 percent in home-delivered meals. That 
system works well and should be retained. We should not be erecting 
additional barriers to participation in nutrition programs. Congress 
should do its utmost to assure that no senior who needs nutrition 
assistance is denied because of inability to pay mandatory cost-
sharing.
    It is important to note that the 2000 reauthorization required the 
AOA to complete a study of cost-sharing practices, to determine their 
impact on participation [see Section 315(d)]. That study has not been 
completed. Clearly, we should await the results of this analysis before 
considering any change to the compromise in effect.
    The other primary controversy from the last reauthorization 
concerned the title V Senior Community Service Employment Program 
(SCSEP).

    THE TITLE V SENIOR COMMUNITY SERVICE EMPLOYMENT PROGRAM (SCSEP)

    SCSEP is our Nation's most effective workforce program for low-
income older Americans, and NCOA strongly hopes that it is not again a 
source of controversy in this reauthorization. The best course for 
Congress to take with title V is to continue it as it is, with minor 
improvements.
    The 2000 reauthorization of the OAA made significant changes in the 
SCSEP, based largely on another compromise initiated by NCOA and NASUA, 
and it took 4 more years--until late 2004--for the Department of Labor 
to issue final regulations for those changes. Thus, the sponsoring 
agencies and the program participants are still adapting to the new 
rules and systems that were only recently made final.
    We are concerned that the Department of Labor may propose far-
reaching structural changes to SCSEP, such as eliminating the historic 
emphasis on community service (which benefits program participants, the 
aging network, and communities served), eliminating national sponsors, 
eliminating service to participants under age 65, and eliminating 
fringe benefits for participants. The President's budget proposal, 
released last week, clearly pointed to an intention to eliminate 
national sponsors and block grant the funds to the States, in addition 
to other significant legislative changes.
    NCOA strongly opposes these changes, which would make the program 
far worse, not better. Such changes are unwarranted, and would be 
disruptive and harmful to older workers and communities. There is not a 
single senior organization that would likely support these proposals.
    There is broad consensus that the following principles should help 
guide Congress's efforts in reauthorizing title V, many of which are 
likely to be included in the final report of the WHCOA in June: (1) 
Continue the current system of funding both national and State grants, 
including the current percentage split of the funds; (2) Maintain the 
program's historic dual emphasis on both community service placements 
and unsubsidized placements for participants; (3) Maintain the current 
age and eligibility requirements for participants, so that services can 
be targeted to persons with the greatest economic and social need; (4) 
Retain current policy on program budgets; and (5) Strengthen the role 
of the Administration on Aging in SCSEP, because Section 505(a) of the 
OAA does not appear to be working as intended.
    We suggest that SCSEP can be improved by developing measures of 
grantee performance that more closely reflect Congressional intent and 
by streamlining performance data collection.
    In summary, SCSEP is a proven program that has a good track record 
of providing training and placement for difficult-to-serve populations 
of older adults. The program should be allowed to continue doing what 
it does well. During the last attempt to reauthorize the OAA, the 
primary reason for the 5 year delay may well have been a proposal to 
shift the funding formula of 78 percent for national sponsors and 22 
percent to States, to a 50 percent-50 percent split. Any attempt now to 
overturn the current compromise (which national sponsors and States 
supported) and go, in effect, from a 78 percent-22 percent split to a 
0-100 percent split could harm older workers, derail efforts to 
reauthorize the program this year, and deflect attention from important 
proposals that would help seniors--such as Choices for Independence.

                AOA'S CHOICE FOR INDEPENDENCE INITIATIVE

    In sharp contrast to the approach that the Department of Labor 
appears to want to take, the AOA is proposing an initiative that we 
think can strengthen and improve the OAA and provide significant 
benefits to seniors in need. The proposed Choices for Independence 
initiative has three components. The Consumer Empowerment component can 
provide important information on planning for long-term care, including 
using reverse mortgages to stay at home. The Community Living 
Incentives component can help address the expensive institutional bias 
in our Nation's long-term care system by improving access to more cost 
effective home and community services for vulnerable, moderate income 
seniors. The Healthy Lifestyle component can build on AOA's current, 
highly successful Evidence-Based Prevention Demonstration Program to 
assist older adults to make behavioral changes that have proven to be 
effective in reducing the risk of disease and disability. Additional 
comments on the significant opportunities that exist under the act on 
health promotion and disease prevention are provided below.
    NCOA is supportive of the Choices for Independence initiative and 
looks forward to receiving additional detail on the proposal, and to 
working closely with AOA and Congress to incorporate it into the OAA. 
Although we appreciate the proposed $28 million investment in the 
initiative, we believe additional resources will be needed to fully 
achieve the proposal's goals, and that funding should not be taken away 
from current OAA programs.

  STRENGTHENING EVIDENCE-BASED HEALTH PROMOTION AND DISEASE PREVENTION

    A variety of Federal agencies and private funders have recently 
supported rigorous studies on health promotion, prevention, chronic 
disease self-management, and related topics that have resulted in a 
strong base of efficacious interventions that can make a measurable 
difference in the quality of life of older adults and their caregivers. 
These interventions are generally much less expensive than medical 
treatments and can be implemented through community aging service 
providers much more easily than through medical care systems.
    Unfortunately however, there is considerable delay in the diffusion 
of these innovative and proven interventions into the hands of those 
who can run the programs. This deficiency must be addressed now. Over 
70 percent of health care spending on seniors is directly related to 
problems associated with chronic disease--problems that can be 
effectively addressed through less expensive non-medical interventions 
such as physical activity, falls prevention, dietary modification, and 
supports for behavior change. But these interventions will not reach 
the seniors who can benefit from them if we do not make a priority of 
the systematic translation of highly structured research interventions 
into practical, real world programs.
    Due to the foresight of AOA's leadership, we have an excellent 
start on addressing this problem. Although their Evidence-based 
Prevention Initiative was launched with a modest investment, it has 
succeeded establishing a basic foundation on which to build a national 
program. By every indication, this initiative is demonstrating 
remarkable success.
    NCOA recommends building on AOA's current, highly successful 
Evidence-Based Prevention Demonstration Program to assist older adults 
to make behavioral changes that have proven to be effective in reducing 
the risk of disease and disability among the elderly. Reforms should 
focus on low-cost, evidence-based interventions at the community level 
that support self care, physical activity, and fall prevention. Special 
emphasis should be placed on reaching older adults with one or more 
risk factors and reducing health disparities.
    Specifically, we should establish within the OAA a permanent, 
fully-funded program composed of a limited repertoire of specific 
interventions that have proven effective in supporting healthy, 
productive aging. This permanent program should:

    <bullet> Implement specific evidence-based programs across the 50 
States based upon State and agency readiness to implement and monitor 
the most successful tested prevention/promotion interventions. Working 
with Federal research agencies and other scientists, establish criteria 
for programs that qualify as evidence-based and prepare a list of 
programs that meet these criteria and are suitable for implementation 
under this program.
    <bullet> Provide training, technical assistance and systems 
development for States and local areas to support evidence-based 
prevention programs at community sites and for frail elders at home. 
Provide incentive grants to study new, published, efficacious 
interventions that are best suited for testing in community settings 
and with diverse populations.
    <bullet> Establish a system for documenting the impact of these 
programs on health care utilization and health status. Develop more 
accurate measures and estimates to track program costs, implementation 
processes, and program improvements and to disseminate evidence-based 
innovations and improvements.

 CREATING A NATIONAL CENTER ON SENIOR BENEFITS OUTREACH AND ENROLLMENT

    The history of public benefits outreach efforts to low-income 
seniors is very discouraging. Studies show that even after 40 years, 
large percentages of older Americans who are eligible for important 
public benefits are not receiving them. An estimated 47 percent of the 
elderly eligible for Supplemental Security Income (SSI), 70 percent of 
seniors eligible for food stamps, 67 percent of people eligible for 
Qualified Medicare Beneficiary (QMB) protections, and 87 percent of 
those eligible for Specified Low-Income Medicare Beneficiary (SLMB) 
protections are not receiving the assistance for which they are 
eligible. It is a national tragedy that this help is not getting to 
those in greatest need. Congress's responsibility should not end after 
a program for our poorest seniors is enacted. Additional steps need to 
be taken to better ensure that eligible beneficiaries actually receive 
the help Congress intended.
    There are many trusted, non-profit community organizations and many 
caregivers that can help find and assist low-income seniors, but they 
will need easy-to-use tools to help seniors understand what they are 
eligible for and to assist them with enrollment. Trusted intermediary 
organizations also need resources to be able to reach beneficiaries and 
provide one-on-one counseling and enrollment assistance. While some 
support is currently being provided in conjunction with outreach for 
the new Medicare prescription drug benefit, there is no focused, 
coordinated effort to assist low-income seniors in receiving the range 
of assistance they are eligible for under the law.
    The public and private sectors must work together to develop a 
sophisticated, cost effective, permanent, person-centered program to 
assist those in greatest need get the help the law provides. NCOA 
recommends that the OAA authorize the creation of a new National Center 
on Senior Benefits Outreach and Enrollment. The Center would work 
closely with the aging network, as well as State Health Insurance 
Assistance Programs (SHIPs), CMS Regional Offices, and other Federal 
agencies to create a nationwide network of certified, coalition-based 
Enrollment Centers using state-of-the-art technology and best practices 
to achieve cost-effective results. Services provided by this nationwide 
network should include:

    <bullet> Promoting greater use of person-centered strategies, as 
opposed to single benefit outreach strategies, to find and enroll 
seniors in all of the benefits for which they are eligible;
    <bullet> Promoting and maintaining the use of the latest 
technologies and integrated systems by updating web-based screening, 
decision support and enrollment tools;
    <bullet> Promoting the use of in-reach strategies which utilize 
computer matching of existing lists of low-income program enrollees to 
find and enroll seniors in need;
    <bullet> Conducting research and benchmarking on best practices and 
the most cost effective methods for enrolling seniors in benefits they 
need;
    <bullet> Providing training and technical assistance on the most 
effective outreach, screening, enrollment and follow-up strategies 
through a network of regionally-based trainers.

               TAPPING THE POTENTIAL OF CIVIC ENGAGEMENT

    Rather than recognizing older adults as potentially powerful 
resources, our Nation has viewed the aging population primarily as a 
problem. Thus, policy debate concentrates on costs associated with 
perceived decline and increasing frailty, and repeatedly misses vital 
opportunities. This negative focus promotes a national aging model that 
stigmatizes and dis-empowers, stifles creativity and discourages 
meaningful contributions. In the next 20 years, the population of the 
persons 65 and older in the United States will double as 77 million 
baby boomers reach retirement age. They will also live longer and more 
healthily. Aging baby boomers will be, and should be treated as, 
powerful allies and assets.
    A June 27, 2005 Business Week article stated convincingly that: 
``If society can tap [Boomer] talents, employers will benefit, living 
standards will be higher, and the financing problems of Social Security 
and Medicare will be easier to resolve''. The article goes on to state 
that: ``Increased productivity of older Americans and higher labor-
force participation could add 9 percent to gross domestic product by 
2045 on top of what it otherwise would have been. This 9 percent 
increase would add more than $3 trillion a year, in today's dollars to 
economic output.'' This is the type of calculation and reasoning that 
needs to take root in communities across the country. It is time to 
consider a national strategy and a policy agenda that not only measures 
work productivity and economic output, but also recognizes the value 
and return on investment of new initiatives that can foster and support 
volunteering and service. We must develop new models for civic 
engagement to make effective use of the incredible resource that these 
seniors can offer our society. The net result would be billions of tax 
dollars saved because of wise forethought and planning.
    Currently, civic participation occurs to some degree on its own, 
but its extent is surprisingly limited without organizational support. 
Thus, for civic engagement to reach its full societal potential, 
visionary leaders must lay the foundation. The reauthorization of the 
OAA can galvanize the creation of vital support, with AOA playing a 
central role in partnership with the Corporation for National and 
Community Services (CNCS). The OAA has historically focused on the 
needs of the frail elderly while paying insufficient attention to the 
significant benefits to be derived from older adults making meaningful 
contributions. The demographic and longevity revolutions collide to 
challenge AOA's limited and now outdated role. This reauthorization is 
the time to correct this costly oversight. As part of AOA's established 
aging network, cadres of older adults across the country could be 
strategically mobilized to tutor and mentor children, facilitate access 
to health services, strengthen families, provide respite to caregivers, 
and bolster the long-term care system--all civic activities shown also 
to contribute to their own well-being. There is much to gain by 
leveraging relatively small investments in civic engagement into major 
returns on the value of contributions in education, health care, 
transportation, housing, and long-term care.
    Specifically, the OAA should include language to authorize the 
following activities:

    <bullet> In coordination with the CNCS, develop a civic engagement 
fund for innovations, under Title IV of the OAA. The purpose would be 
to foster the growth of promising practices, evidence-based and 
outcome-oriented program models, and community capacity building 
initiatives focused on developing older adults as community assets;
    <bullet> Conduct a research based cost-benefit analysis to 
establish a credible base line on the potential for Federal and State 
budgetary savings resulting from enlisting older adults, through paid 
and unpaid, positions which have direct and demonstrable impacts on 
serious social problems;
    <bullet> Develop a national blueprint on how to best tap older 
adults as a new source of social capital to address critical local 
needs of national concern and recommend public policy changes necessary 
for its implementation.

                 AUTHORIZING THE FAMILY FRIENDS PROGRAM

    One of the most effective current programs successfully tapping the 
potential of senior volunteers is the Family Friends program, a 
national family support program that recruits and trains volunteers 55 
and older to make weekly visits to the homes of families who have 
children with disabilities and chronic illnesses. For 20 years this 
highly successful intergenerational program has been administered by 
NCOA.
    Family Friends is unique among volunteer programs. It provides in-
depth, home-based intervention by highly-trained volunteers who focus 
on both the child and his/her family. Volunteers support the families 
with whom they work in many ways--such as engaging the children in 
educational and recreational activities that promote development, 
connecting families to resources and services, accompanying families on 
doctor visits, providing breaks for parents, and expanding the social 
networks of the families.
    Studies of the families involved in the program have shown 
important positive results for those families, including decreased use 
of hospitals and increased ability of parents to cope with emotional 
strain and to control what is happening in their lives.
    The national Family Friends program is at a crucial point in its 
history. The need for its services is increasing and the pool of 
potential volunteers is increasing. In order to help communities that 
want to start a Family Friends program and provide the necessary 
training for volunteers, Family Friends needs a permanent 
authorization. We ask that the OAA reauthorization include such an 
authorization for the Family Friends program.

                       OTHER NCOA RECOMMENDATIONS

    We continue to work with our members to solicit their views on 
reauthorization, and to review the implementation strategies from the 
White House Conference. The final report to Congress is expected in 
June. For example, we are:
    <bullet> looking closely at the senior center resolution #15 from 
the conference, which, according the WHCOA Web site, included a draft 
implementation strategy to ``support an expanded role for senior 
centers as focal points for community based services and civic 
engagement;''
    <bullet> analyzing how to include language to increase support to 
the aging network to promote senior mobility and to facilitate 
coordination of human services transportation;
    <bullet> considering how to best respond to the concerns of many 
senior centers who want to have the opportunity to provide input into 
the development of area plans;
    <bullet> reviewing possible improvements to the National Family 
Caregiver Support Program.
    Thank you again for this opportunity to share our views. We look 
forward to working closely with members of the committee to enact a 
reauthorization bill this year that will empower and support older 
Americans, their families and communities.

    Chairman DeWine. Ms. Howard.

    STATEMENT OF LAURA HOWARD, EXECUTIVE DIRECTOR, NATIONAL 
     ASSOCIATION OF NUTRITION AND AGING SERVICES PROGRAMS, 
                        WASHINGTON, DC.

    Ms. Howard. Thank you. I am Laura Howard, Executive 
Director of the National Association of Nutrition and Aging 
Services Programs, and on behalf of our membership, thank you 
for this opportunity to present you with our concerns about the 
reauthorization of the Older Americans Act.
    I and 30 NANASP members had the opportunity to participate 
in the recent White House Conference on Aging, and it has been 
mentioned. We were very pleased to see that the Older Americans 
Act reauthorization was the number one priority of over 1,200 
delegates.
    Nutrition services play a key role in the Older Americans 
Act. The three nutrition programs make up the largest service 
program in the act, and there is no doubt that nutrition 
significantly impacts the health and long-term living of older 
Americans. Through the nutrition program, seniors can receive a 
meal at a congregate site or through a home-delivered program 
that provides one-third of their daily recommended nutritional 
intake. This provides a greater health status to seniors who 
might otherwise not be able to achieve proper nutrition. It may 
also allow seniors to remain independent and in their homes 
instead of being prematurely institutionalized.
    According to the U.S. Administration on Aging, the average 
age of participants in the combined programs is approaching 80. 
As long-term care needs grow with increased life expectancy, 
home- and community-based services, such as those provided 
under the act, will play an integral part in maintaining the 
dignity, independence, and health status of many seniors and 
will continue to offer a cost-effective alternative to 
institutionalization or hospitalization.
    But it cannot be stressed enough that these programs are 
more than just a meal. The congregate programs provide an 
opportunity for education and socialization and allow seniors 
to maintain community ties and stay active in society. The same 
is true in the home-delivered program, where the meal delivery 
can be the only chance for an isolated senior to engage in 
human contact. This socialization is important to reducing 
isolation and is a tool used to monitor the safety and well-
being of seniors living alone.
    The Older Americans Act nutrition programs are truly a win-
win Federal program. This reauthorization provides an 
opportunity to assess the effectiveness of existing programs 
and identify future needs. In doing so, we urge you to reaffirm 
and expand the commitment to the largest service program in the 
act.
    Among its top priorities for the future, NANASP urges 
Congress to increase authorization levels for all programs in 
the act by at least 25 percent above current fiscal year 2006 
funding levels to reflect inflation and the projected growth in 
the number of older adults. We hope an increase in 
appropriations for these programs will also be considered by 
Congress this year as opposed to the cuts in the President's 
proposed fiscal year 2007 budget.
    In my written statement, I have outlined several other 
proposals for reauthorization on issues of importance to 
NANASP, including title V, transportation, the National Family 
Caregiver Support Program, and other title III issues, but 
thank you for this opportunity today.
    Chairman DeWine. Thank you very much.
    [The prepared statement of Ms. Howard follows:]

                   Prepared Statement of Laura Howard

    Senators Enzi, Kennedy, DeWine, and Mikulski, and members of the 
committee. I am Laura Howard, Executive Director of the National 
Association of Nutrition and Aging Services Programs (NANASP). On 
behalf of NANASP's more than 750 members across the country, I thank 
you for this opportunity to present NANASP's thoughts on the 
reauthorization of the Older Americans Act (OAA).
    I and 30 NANASP members had the opportunity to participate in the 
recent White House Conference on Aging. We were pleased to see that the 
reauthorization of the Older Americans Act was the number one priority 
of the delegates. As a professional membership organization 
representing those at all levels of the aging network who are dedicated 
to providing quality nutrition and other direct services for older 
Americans, NANASP has a particular interest in this reauthorization. 
This is the year the first baby boomers become eligible for the OAA 
nutrition and other service programs, making it the first Federal 
service program for the elderly to confront this demographic challenge.
    Nutrition providers are acutely aware that the population they 
serve today is both changing and growing. One of the major challenges 
will be to attract those seniors newly eligible for OAA programs to 
participate. This may require a redefinition of congregate meals for a 
new generation. Nutrition programs will need to reassess and possibly 
redesign menus, service delivery methods and ancillary services offered 
to meet the expectations and desires of this new population, while 
continuing to serve those currently receiving services. Programs must 
balance these demands while adhering to Federal nutritional standards 
in an ever-tighter budget environment.
    Nutrition significantly impacts the health and long-term living of 
older Americans. Through the nutrition programs, seniors above the age 
of 60 can receive a meal at a congregate site or through a home-
delivered program that provides one-third of their daily recommended 
nutritional intake. This provides a greater health status to seniors 
who otherwise might not be able to achieve proper nutrition. The 
nutrition programs also allow seniors to remain independent and in 
their homes instead of being prematurely institutionalized. According 
to the U.S. Administration on Aging, the average age of participants in 
the combined programs is approaching 80. As long-term care needs grow 
with increased life expectancy, home- and community-based services, 
such as those provided under the OAA, will play an integral part in 
maintaining the dignity, independence, and health status of many 
seniors and will continue to offer a cost-effective alternative to 
institutionalization or hospitalization.
    The OAA nutrition programs also provide opportunities for social 
engagement in both congregate and home-delivered meal programs. It 
cannot be stressed enough that congregate programs are more than just a 
meal--they provide an opportunity for education and socialization and 
allow seniors to maintain community ties and stay active in society. 
The same is true in the home-delivered program, where the meal delivery 
is at times the only chance for an isolated senior to engage in human 
contact. This socialization is important to reducing isolation and is a 
tool used to monitor the safety and well-being of seniors living alone. 
The nutrition programs also allow seniors to remain active by providing 
opportunities for volunteerism and civic involvement.
    Through their health, social and other benefits, the OAA nutrition 
programs are truly a win-win Federal program. This reauthorization 
provides an opportunity to assess the effectiveness of existing 
programs and identify future needs. We thank you for the opportunity to 
provide input from the perspective of nutrition service providers 
during this process and urge you to reaffirm and expand the commitment 
to the largest service program in the act.
    Specifically, NANASP proposes that the OAA reauthorization:

    <bullet> Increase OAA authorization levels by at least 25 percent 
above current fiscal year 2006 funding levels to reflect inflation and 
ensure the Aging Network has the necessary resources to adequately 
serve the projected growth in numbers of older adults.
    <bullet> In 2006, the oldest of the baby boomers turn 60 and are 
now eligible to receive services under the OAA.
    <bullet> One of the fastest growing segments of our population is 
made up of those 75 and over. These seniors are often the most frail, 
most vulnerable and in the greatest need of aging supportive services 
such as those provided by the title III nutrition programs. In fact, 69 
percent of those receiving home-delivered meals and 64 percent of those 
receiving congregate meals are age 75 and over.
    <bullet> Request that the Institute of Medicine Food and Nutrition 
Board conduct a study on the status and effectiveness of the nutrition 
programs and thoroughly disseminate the study's findings.
    <bullet> The Older Americans Act Nutrition Program, in existence 
for 35 years, has not been comprehensively evaluated by the Food and 
Nutrition Board (FNB) in relation to nutrition and health, quality of 
life, and independence. Since there were very few nutrition questions 
in recent national outcome studies, the cost effectiveness of the food 
and nutrition services may be underestimated. However, the cost of 1 
day in a hospital equals the cost of 1 year of Nutrition Program meals, 
based on 2003 reported total expenditures and number of home-delivered 
meals provided by States.
    <bullet> The FNB at the Institute of Medicine, the National 
Academies, produces widely disseminated reports that provide 
Government, industry, academia, and the public with the best available 
information and recommendations about food safety, food security, and 
nutrition, thereby promoting public health and preventing diet-related 
diseases. Studies have served as the basis for national policy by being 
thorough, balanced, and objective. National policymakers need advice on 
nutrition and food science in relation to health to ensure that 
decisions are supported by the best scientific analysis. Other Federal 
food and nutrition assistance programs have been regularly evaluated 
and re-evaluated in whole and/or in part by the FNB.
    <bullet> Raise the visibility of nutrition as an important health 
and welfare issue for unpaid family caregivers by exploring ways to 
provide meals and nutritional services to these caregivers and also 
have these meals counted toward NSIP totals.
    <bullet> Unpaid family caregivers can sacrifice their own health, 
financial security and quality of life in the course of their efforts 
to care for a loved one. If the caregiver is not eating well, this puts 
them and their charge at risk. Also a client is more likely to eat more 
and receive better nutrition if the caregiver joins him/her in eating 
the same meals.
    <bullet> Currently, meals provided to caregivers under the age of 
60 are not able to be paid by title IIIC or NSIP money; they must be 
paid by title IIIE, though whether this service is covered varies by 
State.
    <bullet> If caregiver meals are paid using title IIIE funds, 
allowing these meals to be counted toward NSIP totals will allow OAA 
nutrition programs to better meet the needs of the client and his or 
her caregiver by providing a nutritious meal.
    <bullet> Ensure that the National Family Caregivers Support 
Program's (NFCSP's) match rate is equal to that of other OAA programs.
    <bullet> Currently, the match rate for the NFCSP is 25 percent, 
while the match rate of other title III programs is 15 percent.
    <bullet> The increased match rate puts a significant burden on 
service programs already stretching limited resources and competing for 
local and public funding. Programs need to be encouraged to continue to 
provide services to at-risk caregivers and to plan for the future with 
additional services for the long-term population growth. With the 
increased match, many programs may not be able to continue with 
caregiver programs and services.
    <bullet> Establish and authorize adequate funding for one or more 
Nutrition and Physical Activity Resource Centers.
    <bullet> The OAA Nutrition Program is the largest program 
administered by the U.S. Administration on Aging. Yet, there is no 
requirement for the Assistant Secretary to fund a Resource Center for 
Nutrition and Physical Activity. Funding such a Resource Center is 
currently at the discretion of the Assistant Secretary for Aging.
    <bullet> The Aging Network needs technical assistance, access to 
the latest scientific information, guidance to establish outcome-based 
model programs, and help to implement newly released Federal 
guidelines, such as the Dietary Reference Intakes (DRIs) and Dietary 
Guidelines for Americans, as well as national physical activity 
recommendations targeted to older adults. A Resource Center or Centers 
can assure that the Aging Network technical assistance needs are met. 
Another goal is to promote better cooperation between the food industry 
and the OAA Nutrition Program. Development and/or reformulation of more 
nutritious food products would expand menus options, food quality, and 
cost-effectiveness.
    <bullet> Require each State unit on aging and encourage area 
agencies and local programs to employ registered dietitian(s) (RDs) 
because of their specific nutrition, food safety and foodservice 
expertise, as well as their program administration abilities.
    <bullet> Currently, there is no requirement at the State level to 
have a registered dietitian on staff, though budgetary and major 
administrative decisions are made at the State level that impact local 
nutrition programs.
    <bullet> An RD would bring specific skills to the design, 
implementation and evaluation of the nutrition program. Application of 
the basic nutrition science of the Recommended Dietary Allowances and 
the Dietary Guidelines for Americans is essential to help keep older 
adults active, healthy and at home. This science is increasingly 
complex. The RD can integrate and disseminate this information about 
nutrition science advancements to ensure that the most recent science 
evidence is put into practice.
    <bullet> An RD can ensure that the role of nutrition is addressed 
in home- and community-based nutrition services in the context of long-
term care, especially since programs are serving more frail, impaired 
older adults at home who have more complicated nutrition needs.
    <bullet> An RD can be a resource for training other professionals 
and function as a team member in designing comprehensive and 
coordinated service systems to meet the unique needs of older 
individuals in each State.
    <bullet> Include statutory language in the Older Americans Act that 
increases support to the Aging Network to promote senior mobility and 
to facilitate coordination of human services transportation, especially 
as it relates to nutrition.
    <bullet> Transportation is a priority service under OAA Title III. 
Mobility is essential to live at home in the community. Providing safe, 
convenient modes of transportation to those who can no longer drive is 
necessary, but transportation funding competes with limited funding for 
many other needed services.
    <bullet> The act needs to allow flexibility for agencies to 
collaborate together in meeting the community needs.
    <bullet> Maintain the title V Senior Community Service Employment 
Program's (SCSEP's) vital, historic focus on community service, which 
significantly benefits nutrition programs and the entire aging 
population.
    <bullet> Low-income older adults who want or need to remain in or 
re-enter the workforce need options for employment. SCSEP allows older 
adults who must work to stay independent but who may not have the 
education or resources to compete with younger workers.
    <bullet> Workers under the SCSEP program provide incredible value 
to the aging network that needs dedicated staff, but has increasingly 
limited funds.
    Through these principles, we believe the act will be strengthened 
and improved to allow service providers to adequately prepare for the 
projected increase in demand while continuing to serve the seniors who 
rely on these services.

    Chairman DeWine. Ms. Borden.

STATEMENT OF ENID A. BORDEN, CHIEF EXECUTIVE OFFICER, MEALS ON 
      WHEELS ASSOCIATION OF AMERICA, ALEXANDRIA, VIRGINIA

    Ms. Borden. Senator DeWine, Senator Mikulski, I am Enid 
Borden, CEO of the Meals On Wheels Association of America. You 
have asked that I focus my remarks on the broad issue of the 
effectiveness of the Older Americans Act since the 2000 
reauthorization.
    As you might expect, I will say emphatically that senior 
nutrition services have benefited older Americans by, one, 
improving some seniors' declining nutritional and health 
status; two, restoring others to wellness; three, keeping many 
individuals out of institutions; and four, preventing seniors 
from going hungry, yes, going hungry.
    Whenever I tell people what I do, the response usually is, 
Meals On Wheels is a wonderful program. On the one hand, it is 
gratifying to have such a positive image, the one of the 
smiling volunteer walking up with a nutritious meal to the 
front door of a waiting homebound senior, and that is an 
accurate picture in that it portrays the heart of our program. 
But allowing local senior meals program to be portrayed only as 
warm and fuzzy social service programs, however, fails to 
emphasize the critical, often life-saving role these programs 
play in the lives of the people we serve.
    Perhaps more serious and hard to discuss is that the rosy 
picture of our success fails to acknowledge the consequences of 
those individuals who don't get served because of a lack of 
resources. It is not a pleasant subject, but we need to admit 
that those consequences and the tragic fact that hunger exists 
among the elderly in this, the richest Nation on the planet. We 
need to admit that lack of proper nutrition leads to poor 
health and even death. And then we need to commit to working 
together to ensure that not one senior goes hungry.
    How do we do that? By increasing resources. That is usually 
the province of appropriations, but MOWAA's proposal is one 
that only you as the authorizing committee can enact.
    Nutrition programs are the largest OAA program and last 
year accounted for approximately 46 percent of AOA's agency 
budget. But current law allows States to transfer up to 30 
percent between title III(b) supportive services and title 
III(c) nutrition services. In the 5 fiscal years since the last 
reauthorization, total net transfers from nutrition services 
into supportive services was over $174 million. MOWAA has 
supported allowing flexibility to States to shift some funds to 
meet specific needs and we continue to do so.
    But given the current limitation on resources, we propose 
that transfers should be allowed only if there is no unmet need 
in the category for which the allocations were explicitly made. 
There should be no transfer from nutrition services to 
nonnutrition-related supportive services as long as any waiting 
list for nutrition service exists or while even one senior is 
going hungry.
    I mentioned $174 million was transferred out of nutrition 
services in 5 years. Here is that figure in context. At an 
average cost of $5 per meal, that equates to a loss of 
approximately 35 million meals. Those funds, if reserved for 
nutrition, could have gone a long way toward eliminating 
current waiting lists in four out of our ten programs.
    I want to close by thanking you for your dedication to 
improving the lives of our older Americans. Leadership and 
national commitment come from the top. The Older Americans Act 
that Congress created and that you on this committee continue 
to refine is the foundation that makes our work possible. Thank 
you.
    Chairman DeWine. Thank you.
    [The prepared statement of Ms. Borden follows:]

                  Prepared Statement of Enid A. Borden

    Chairman Enzi, Senator Kennedy, Members of the Health, Education, 
Labor, and Pensions Committee and particularly of the Subcommittee on 
Retirement Security and Aging, I am Enid Borden, CEO of the Meals On 
Wheels Association of America (MOWAA), and on behalf of the hundreds of 
home-delivered and congregate senior meal programs that are MOWAA 
members and the literally hundreds of thousands of older Americans they 
serve, I want to thank you for holding this roundtable today. MOWAA is 
pleased to participate and most encouraged that the committee has 
turned its attention to the reauthorization of the Older Americans Act 
this early in the second session of the 109th Congress. We hope that it 
will remain a top priority until reauthorization is completed.
    For the purposes of this roundtable you have asked that we focus on 
the broader issue of the effectiveness of the Older Americans Act since 
the 2000 reauthorization and specifically how the programs have served 
older Americans. As you might anticipate, I will confine my comments to 
the benefit of meal services. And as you must also expect, I will say 
emphatically and without equivocation that senior nutrition services--
whether delivered in senior centers or to the doors of frail, homebound 
men and women in communities across America--have been of significant 
benefit to hundreds of thousands of individuals in communities in every 
State of the country. But saying it that way understates the critically 
important role those meals and related services play in the lives of 
people who receive them. Meals furnished under Title III of the Older 
Americans Act, particularly home-delivered meals, have (1) improved 
seniors' declining nutritional and health status, (2) they have 
restored older Americans to wellness, (3) they have contributed to 
keeping many individuals out of institutions and from isolation (4) 
they have kept seniors from going hungry, Yes, you heard me correctly 
they have kept seniors from going hungry. Please think about that as 
you work through the reauthorization.
    Whenever I tell people what I do, the response is usually, ``Meals 
On Wheels is a wonderful program.'' On the one hand, it is gratifying 
to have such a positive image . . . the one of the smiling volunteer 
walking up with a nutritious meal to the front door of a waiting home 
bound senior. That is an accurate picture in that it portrays the heart 
of our program. But allowing local senior meal programs to be portrayed 
only as warm and fuzzy social services programs fails to emphasize the 
critical, often life saving, role these programs play in the lives of 
the people we serve. Perhaps more serious--and hard to discuss--is that 
the rosy picture of our successes fails to acknowledge the consequences 
for those individuals who don't get served because of a lack of 
resources. It is not a pleasant subject. But we need to admit to those 
consequences and the tragic fact that hunger exists among the elderly 
in this, the richest Nation on the planet. We need to admit that lack 
of proper nutrition leads to poor health and even death. Then we need 
to commit to working together to ensure that not one senior goes 
hungry.
    How do we do that? Incrementally, of course. It starts with raising 
awareness. Then it relies on resources. I know that you are authorizers 
and not appropriators, and although I certainly want to make a pitch 
for higher appropriation levels, the one proposal that I will raise 
today only you as the authorizing committee can enact.
    As background, you know: The OAA nutrition program is the largest 
program administered by the Administration on Aging (AOA). Last year 
funding for senior nutrition programs (title III-CI and III-C2 and the 
Nutrition Services Incentive Program) accounted for approximately 46 
percent of the total agency budget. That is, as authorized and 
appropriated, it was 46 percent. As you are also aware, currently the 
act allows States to transfer up to 30 percent of the total line item 
amount between titles III-B, Supportive Services, and title III-C, 
Nutrition Services.
    In the 5 fiscal years since the last reauthorization--2000 through 
2004--total net transfers from title III-C to title III-B was over $l74 
million dollars. MOWAA has always supported allowing flexibility to 
States to shift some funds to meet specific State and local needs. We 
continue to support some flexibility but, given current needs and the 
limitation on resources, only under specific conditions. MOWAA proposes 
that the act be amended to specify that transfers be allowed to be made 
between titles III-B and III-C only if there are no unmet needs in the 
category for which the allocations were explicitly made. In other 
words, there should be no transfer from title Ill-C to title Ill-B for 
non-nutrition related Supportive Services while waiting lists for 
nutrition services exist in any community or while even one senior goes 
hungry.
    Consistent with this proposal to establish line item integrity, 
MOWAA also believes that the act should stipulate that general and 
administrative dollars must be taken from the line item or category in 
which the services are performed. In other words, title Ill-C dollars 
may not be used to pay the administrative cost associated with managing 
title III-B services.
    If I may put the $174 million I mentioned earlier in context, let 
me suggest that at an average cost of $5 per meal, that equates to a 
loss of approximately 35 million meals. Those funds, if reserved for 
nutrition, could have gone a long way toward eliminating current 
waiting lists that more than 4 out of 10 home-delivered meal programs 
have. Preservation of nutrition funds for nutrition services will help 
assure that no senior of today or aging Baby Boomer goes hungry.
    Before I close, Mr. Chairman and members of the committee, let me 
raise two other points. Ever since the Mathematica Study was conducted 
over a decade ago, we have been in the habit of using the concept of 
waiting lists to measure unmet needs. It may be the only mechanism we 
have, but it is flawed and clearly understates the extent of the real 
need that exists today and is bound to grow as the Baby Boomers age. 
For one thing, not all programs keep waiting lists. Even more 
significant than that is the fact that not all seniors who could 
benefit by our services even try to access them. MOWAA is involved in 
two pilot projects--one called ``Community Connections'' that is a 
cooperative agreement with AOA and the other is a partnership with 
Humana. Both entail working to see that patients leaving the hospital 
who need home-delivered meals services get them upon discharge. Our 
preliminary results with ``Community Connections'' demonstrate positive 
health impact for those seniors, and we will soon be releasing our 
results. Another important finding of both these projects is that many 
of these eligible seniors either do not know of the availability of 
local meal programs or how to access them. This is another layer of 
unmet need.
    My second point is that the services we do provide are themselves 
limited. Most programs, again because of resource constraints, can 
serve only the minimum that the act allows--one meal per day, 5 days 
per week. Most Americans eat 21 meals per week. My fellow delegates at 
the 2005 White House Conference on Aging, who participated in the 
Implementation Strategy Session for the Older Americans Act, listed 
among their priorities for the future that senior nutrition programs be 
expanded to three meals per day, 7 days per week, That is a goal that 
MOWAA embraces and a vision that we share. The impediment to achieving 
that is a lack of adequate resources.
    Having said that, MOWAA acknowledges that the Federal Government 
cannot and should not be the sole source of the funding needed to 
provide services. This Association and our member programs work on a 
daily basis to raise funds from other sources and to engage other 
entities within the community in our important work. It helps our 
programs build capacity and it enriches communities. But the undeniable 
fact is that the Federal commitment, embodied in the Older Americans 
Act, is the foundation on which we build. Leadership is important; in 
fact, in a real sense, putting an end to senior hunger depends as much 
on leadership as it does on food. How the act directs the use of 
designated funding streams is vital, particularly in the face of the 
limitation on Federal dollars now and in the near term. Congress can 
and must lead by reforming policies and setting set priorities to 
address changing demographics and needs. That is what MOWAA is asking 
of you today.
    Some things--like the rising price of gasoline that has severely 
impacted our programs by raising their program costs, the changing 
demographic that will put additional strains on our programs, or even 
an across-the-board reduction in discretionary spending that have left 
our programs faced with trying to provide services with shrinking 
resources--are not within the purview of this committee or your power 
to change. But the simple amendment to the statute that MOWAA proposes 
is. We implore you to give it your most serious consideration. We would 
be delighted to work with you and your staff in any way we can on this 
issue.
    I want to close by thanking you, not just for this opportunity to 
address you, but for your dedication to improving the lives of 
America's great resources--its older Americans. You have demonstrated 
your commitment in the past and America's most vulnerable older adults 
are counting on you to do so.

    Chairman DeWine. Ms. Markwood.

STATEMENT OF SANDY MARKWOOD, CHIEF EXECUTIVE OFFICER, NATIONAL 
     ASSOCIATION OF AREA AGENCIES ON AGING, WASHINGTON, DC.

    Ms. Markwood. Senator DeWine, Senator Mikulski, my name is 
Sandy Markwood. I am the CEO of the National Association of 
Area Agencies on Aging, and on behalf of our membership of 650 
Area Agencies across the Nation, I want to thank you for having 
me at this roundtable today.
    Since it was enacted in 1965, the Older Americans Act has 
served as a legislative vehicle and the guiding force behind 
efforts to help older Americans successfully age where they 
prefer the most, in their homes and in their communities, and 
to do this safely with security and with independence for as 
long as possible. As the baby boom generation ages, ensuring 
that the necessary supports that are in place to promote 
healthy and productive aging has never been more important.
    According to the CDC, roughly 26 million older adults over 
the age of 65 have physical limitations or need assistance with 
activities of daily living. This figure jumps to almost two-
thirds for older adults who are age 80-plus.
    The system of supportive services the Older Americans Act 
operates in communities across this Nation, through State Units 
on Aging, Area Agencies on Aging, title VI Native American 
aging programs, and also a broad array of service providers, 
every year serves over 8 million older adults with physical 
limitations and helping them to remain independent and live 
where they choose. Additionally, they are saving taxpayers 
money and saving the Federal Government money because they are 
at home and in the community and not in institutional care, 
which is much more expensive.
    Given the age explosion this Nation is going to be facing, 
the 77 million baby boomers, as well as the increase in the old 
old, those 85-plus in this Nation, the need for these 
supportive services is great. Now is the time to ensure that 
the Older Americans Act is ready to continue its successes to 
address the challenges and the opportunities of the aging 
population.
    To do this, n4a is recommending several different proposals 
that we have in our written statement, but I would like to 
highlight a few of those today, and that is, first, to enhance 
the act to assist our older adults to be able to age in the 
community for as long as possible, to enhance the opportunity 
for communities to prepare for the aging of the population. The 
aging of the population is going to impact aging services 
directly, but it is also going to impact on a whole broad array 
of services that are provided in our Nation's cities and 
counties, from transportation to housing, land use planning, 
public safety, parks and recreation, workforce development. 
These are programs that will be directly and dramatically 
impacted by the aging of the population. However, today, very 
few communities have started planning and preparing for the 
aging of the population. Building on the role that State Units 
and Area Agencies already have as part of the act, n4a is 
recommending that we build on that and enhance the role of Area 
Agencies and State Units on Aging to be able to help 
communities prepare for the aging of the population.
    Additionally, we would like to strengthen the aging 
network's role as a single point of entry. We applaud the AOA's 
pilot programs in aging and disability resources and think it 
is now time to make these aging and disability resources a 
permanent part of the act.
    Additionally, third, we would like to enhance the aging 
network's role in health promotion and disease prevention. More 
and more research and studies clearly indicate that health 
promotion and disease prevention activities, even if initiated 
late in life, can reap substantial benefits for older adults. 
Additionally, they can also eliminate or offset the onset of 
chronic diseases. This improves the quality of life for older 
adults, but again, saves the Nation and its taxpayers millions 
of dollars every year. Now is the time to enhance Title III(d) 
of the Older Americans Act, not eliminate it.
    These are a few of our proposals. I have gone into more 
detail in our written statement. But again, we believe that now 
is the time to be bold, to modernize this act, and to make it 
successful for today's and tomorrow's seniors.
    Chairman DeWine. Thank you.
    [The prepared statement of Ms. Markwood follows:]

                  Prepared Statement of Sandy Markwood

                               ABOUT N4A
    N4A is the leading voice on aging issues for area agencies on aging 
across the country and a champion for title VI Native American aging 
programs in our Nation's capital. n4a advocates on behalf of its member 
agencies for enhanced services and resources for older adults and 
persons with disabilities in local communities nationwide. With 
independence, dignity and choice strongly held American values, n4a has 
long promoted the development of a service system that provides older 
consumers with access to the most appropriate services in the least 
restrictive environment. In addition to advocacy, n4a also provides 
training, technical assistance and support to the national network of 
650 AAAs and 240 title VI agencies to assist them in achieving our 
collective mission of building a society that values and supports 
people as they age.

             MEETING THE NEEDS OF OUR NATION'S OLDER ADULTS

    Since it was enacted in 1965, the Older Americans Act (OAA) has 
served as the legislative vehicle and guiding force behind efforts to 
help older Americans age in their homes and communities safely and with 
maximum dignity and independence for as long as possible. As the baby 
boom generation ages, ensuring that the necessary supports are in place 
to promote healthy and productive aging has never been more important.
    According to the Centers for Disease Control and Prevention (CDC), 
roughly 26 million older adults over the age of 65 have physical 
limitations or need assistance with activities of daily life, such as 
eating, bathing, dressing or getting around (2003). Among adults over 
age 80, almost three-quarters (73.6 percent) report at least one 
disability.
    The most preferred form of long-term care is provided through home- 
and community-based services, such as home-delivered meals, homemaker 
services, and respite care. Community-based supports and services allow 
older adults with physical limitations to remain independent and live 
where they choose, saving the Federal Government and the Nation's 
taxpayers the cost of expensive institutional care.
    Recent data from the Administration on Aging (AOA) show how 
successful OAA programs and services have been assisting older adults 
and their caregivers. AOA reports that 86 percent of family caregivers 
of OAA clients said the services ``allowed them to care longer for the 
elderly than they could have without the services.'' Additionally, OAA-
provided meals and services have allowed the nearly one-third of 
elderly home-delivered meals clients who have health conditions that 
make them nursing home-eligible remain in the community.
    The OAA offers an extensive range of options for older adults, 
including, but not limited to homecare services, transportation, 
ombudsman, case management, advocacy and assistance. The breadth and 
depth of OAA programs and services provide essential support to older 
adults who wish to age in place.
    One of the reasons the OAA is so successful is that it is based on 
an effective and efficient system--the national Aging Network--which 
serves as the infrastructure for aging service delivery at the Federal, 
State and local level. The OAA binds together all 650 AAAs and 240 
title VI Native American aging programs across the country, providing a 
support structure for planning, service coordination, oversight, and 
advocacy on programs and services that reach more than 8 million older 
Americans every year. AAAs serve as the focal point at the community 
level to link seniors and their family caregivers to a myriad of 
services.
    AAAs serve as a single point of entry for the complex and 
fragmented range of home- and community-based services for older adults 
and their caregivers, including congregate and home-delivered meals, 
other in-home services for the vulnerable seniors (such as personal 
care and chore services), elder abuse prevention and protections, the 
nursing home ombudsman program, senior centers, transportation, 
consumer information, education and counseling and senior employment.
    AAAs and title VI agencies leverage Federal dollars with other 
Federal, State, local and private funds to meet the needs and provide a 
better quality of life for millions of older adults. According to AOA: 
``In fiscal year 2003 . . . State and local communities leveraged 
approximately $2 from other sources for every $1 of Federal funding; 
for intensive in-home services, the ratio was closer to $3 to $1.''
    Many AAAs manage or receive funding from a variety of sources in 
addition to the OAA, including Medicaid waivers for home- and 
community-based care, social service block grants, transportation 
funds, and state-funded in-home service programs. AAAs have 
demonstrated an extraordinary record of achievement in stretching 
limited Federal resources to help hundreds of thousands of older people 
avoid costly nursing home placement and remain independent. OAA funds 
make it possible for AAAs to leverage millions of non-federal dollars 
from local Governments, foundations, the private sector, and 
participant and volunteer contributions.

                THE NEXT EVOLUTION: REAUTHORIZATION 2006

    Since its inception, the OAA has evolved to meet the changing needs 
of older adults and those who care for them. The creation of the AAA 
network in 1973 developed the community-level infrastructure that, to 
this day, serves to coordinate the core services that older adults have 
come to depend on, including nutrition programs, senior centers, 
community service employment, and a range of supportive services such 
as home care, transportation, elder abuse prevention, and legal 
assistance. In 2000, the OAA again evolved to directly address the 
needs of family caregivers--the backbone of our Nation's long-term care 
system--through the National Family Caregiver Support Program.
    n4a is pleased that the Senate Health, Education, Labor, and 
Pensions Committee is examining how the Older Americans Act needs to 
evolve again to meet the current and future challenges of older adults 
and their caregivers.
    Our challenge in 2006 and beyond is largely one of demographics. It 
is projected that the 65 years and older population, which numbered 35 
million in 2000, will more than double in size to about 70 million in 
the next 26 years. By 2030, one out of every 5 people in the United 
States will be age 65 and older. People 85 and older are currently the 
fastest growing segment of the population, increasing at a rate four 
times faster than any other age group.
    This year, the first baby boomers are turning 60, the age of 
eligibility for OAA services. Over the course of the next 3 decades, 
the aging of the baby boomers will have a direct and dramatic impact on 
national, State and local policies, programs and services. With the 
first of the 77 million baby boomers approaching retirement age, and 
the current senior population experiencing a ``longevity boom'' of 
unprecedented proportions, now is the time for individuals, families, 
communities and the Nation as a whole to plan and prepare for this 
coming demographic explosion.
    To balance the current and future needs of the older adult 
population, n4a believes that legislative changes are needed to improve 
the accessibility and quality of OAA programs, while meeting rising 
demand.
    As such, we make the following recommendations:
    1. Help Communities Prepare to Meet Demographic Challenges. The 
increase in the numbers of aging citizens will impact the social, 
physical and fiscal fabric of our Nation's cities and counties, 
directly and dramatically affecting local aging, health, human 
services, land use, housing, transportation, public safety, workforce 
development, economic development, recreation, education/lifelong 
learning, and volunteerism/civic engagement policies and services.
    Given their mandated role under the OAA to create multi-year plans 
for the development of comprehensive, community-based services which 
meet the needs of older adults, AAAs and title VI Native American aging 
programs are in a unique position to help communities prepare to 
address the challenges and opportunities posed by the growing numbers 
of older adults.
    n4a recommends that new language be included in the OAA to 
authorize State Units on Aging, Area Agencies on Aging and title VI 
Native American aging programs to help communities prepare for the 
aging of the baby boomers.
    New funds will be needed to support this expanded role, which would 
support a full- or part-time planning staff position in every AAA. This 
professional planner would offer the Aging Network's expertise to help 
State agencies, local city and county elected officials, local 
Government agencies, tribal councils, and private and nonprofit 
organizations to develop policies, programs and services to foster 
livable communities for all ages. In addition we recommend that:

    <bullet> Funding be non-formula based, with a minimum level of 
funding and additional formula-based funding to increase resources to 
more heavily populated service areas, and have a 25 percent non-federal 
match requirement.
    <bullet> It includes non-formula based funding to State Units on 
Aging to coordinate state-level preparedness planning.
    <bullet> A national resource center on aging in place be 
established to provide the necessary guidance, training and technical 
assistance to SUAs, AAAs and title VI Native American aging programs in 
their efforts to help communities become livable communities for all 
ages.
    <bullet> The new provision be evaluated and sunsetted in 10 years.

    2. Strengthen the Aging Network as a Single Point of Entry. n4a 
urges that the OAA reauthorization permanently establish authorized 
Aging and Disability Resource Centers (ADRCs) within every service area 
in the Nation, with AAAs given the right of first refusal to be 
designated as the ADRC within their service areas. The ADRC program, 
part of the President's New Freedom Initiative, and spearheaded by the 
U.S. Administration on Aging and Centers for Medicare and Medicaid 
Services, has helped 43 States integrate their long-term support 
programs for the elderly and people with disabilities into a single 
coordinated system.
    The OAA and the Aging Network comprise the Nation's non-Medicaid 
long-term care system, and also many AAAs manage Medicaid home- and 
community-based long-term care services. In order to structure a system 
that is easily accessible to all who need long-term care, AAAs and 
title VI Native American aging programs should be the single point of 
entry for both Medicaid and non-Medicaid long-term care services.
    Many individuals with disabilities, whether age-onset or life-long, 
need information on and access to basic supportive services that will 
enable them to become or remain active and contributing members of the 
community. Over the last 30 years, AAAs and title VI Native American 
aging programs have developed the infrastructure that coordinates a 
host of programs that provide information on, access to and choices for 
individuals who seek such services.
    AAAs have become the first and most trusted source for older 
Americans and their caregivers who are seeking information on home- and 
community-based services, both public and private, anywhere in the 
Nation. The rising numbers of aging baby boomers will bring a 
corresponding increase in the need and demand for a ``one stop'' source 
of information as well as a single point of entry into the aging 
services system.
    3. Enhance the Aging Network's Role in Health Promotion and Disease 
Prevention. To enhance the ability of AAAs to carry out health 
promotion and disease prevention efforts, n4a seeks an authorization 
level of $50 million for the title III-D program and proposes that $10 
million of the appropriation be set aside to pilot, through the AAAs, a 
community-based collaborative between local aging and healthcare 
providers to promote disease prevention services.
    Although only funded at $21 million in prior years and targeted for 
elimination in the President's fiscal year 2007 budget, Title III-D of 
the OAA has played a pivotal role in disease prevention and health 
promotion services for seniors in communities across America. This 
program has become increasingly invaluable as recent evidence-based 
research continues to prove that health promotion and disease 
prevention not only contribute significantly to an individual's quality 
of life, but also are a cost-effective means of reducing, or in some 
cases eliminating, acute or chronic care costs.
    As the coordinators and providers of home- and community-based 
services at the local level, AAAs and title VI agencies have long 
recognized the critical importance of health promotion and disease 
prevention. With limited title III-D funding, these agencies have 
developed innovative programs that improve the physical and mental 
well-being of older adults, while reducing the need for more intensive 
chronic and acute care services. To enable older adults to remain in 
their homes and communities for as long as possible, one critical 
element is engaging in activities that promote healthy living.
    4. Increase Authorization Levels to Enhance Home and Community-
Based Services. AAAs, as part of the larger Aging Network, have the 
ideal structure, the established reputation, and the expertise to 
engage in community planning, to serve as the ADRC, and to manage 
health promotion and disease prevention programs. What they lack are 
adequate financial resources.
    The OAA has provided vital community-based supports to millions of 
older adults for 40 years. Since 1980, however, there has been a 
substantial loss in the OAA's capacity to provide services to older 
Americans due to rising costs, an increasing number of older adults in 
need of services in general, and the need to provide more extensive 
services to larger numbers of vulnerable older persons living into 
their 80s, 90s and beyond.
    To illustrate how the cost of providing services has risen over the 
last 5 years, we'd like to share examples of a few situations in the 
State of Ohio.
    In many areas of Ohio, especially the more rural areas, a pattern 
that holds up across the country, transportation is one of the most 
requested services by older adults. It is also one of the most under-
funded and suffers from the most rapidly rising costs. Lack of funding 
has forced the Toledo-based AAA to provide 40 percent fewer trips in 
2005 than it did in 2002. Its AAA neighbor to the southeast, Ohio 
District 5 out of Mansfield, reports it could offer transportation 
services to 21.5 percent fewer consumers between 2000 and 2005. Besides 
the oft-recognized increases in fuel costs, vehicle maintenance and 
insurance costs have also risen dramatically.
    Food prices have also risen in recent years, driving up the cost of 
home-delivered and congregate meal programs that are funded under OAA 
Title III. The Central Ohio AAA paid $4.60 for each home-delivered meal 
served in 2000; that same meal is $5.05 today. In Southeastern Ohio, 
the cost of a home-delivered meal has reached $6.53, up from $5.81 5 
years ago.
    Unfortunately, appropriations for OAA programs over the past 5 
years have not reflected these and other increased costs. As a result, 
they have not kept up with demand. A senior center in Perry County 
reports that they keep waiting lists for home-delivered meals and 
homemaker services, but that ``many of the clients are deceased before 
we can serve them.'' In Lucas County, the number of seniors enrolled in 
programs has increased by 42 percent since 2000.
    Another factor also needs consideration. In Ohio and nationwide 
this year, the roll-out of the new Medicare Part D prescription drug 
plan has placed additional responsibilities on AAAs, largely without 
additional funding. Older adults and their families have turned to AAAs 
and title VI programs en masse during the 2005-2006 enrollment 
campaign. Yet only a small number of local aging programs received new 
resources from States or national pilot projects to support their one-
on-one counseling and enrollment assistance efforts.
    To respond to the overwhelming demand for Medicare Rx assistance, 
AAA staff were often shifted from other responsibilities to help with 
Medicare Part D enrollment, making this level of effort unsustainable. 
Even when the initial enrollment period ends, the public will continue 
to turn to AAAs and title VI aging programs. Millions of seniors will 
continue to need counseling and enrollment assistance every year, as 
they become newly eligible for Medicare or seek to change their 
prescription drug plans.
    In order for AAAs and title VI Native American aging programs to 
continue the tremendous amount of work that Medicare Rx enrollment 
assistance has generated, they will need new funding to support and 
sustain their efforts.
    In conclusion, to compensate for inflation and the rising costs of 
providing services, n4a seeks to raise the authorized funding levels of 
all the Titles of the OAA by at least 25 percent above the fiscal year 
2006 appropriated funding level, except for Title III-E which should be 
authorized at $250 million. The increased authorization levels will 
ensure the Aging Network has the necessary resources to adequately 
serve the projected growth in the numbers of older adults, particularly 
the growing ranks of the 85 and older population who are the most 
vulnerable and in the greatest need for aging supportive services.

                               CONCLUSION

    n4a appreciates the opportunity to present our suggestions for 
modernizing and strengthening the Older Americans Act. We look forward 
to working with Congress to reauthorize the OAA in a way that respects 
the needs of today's older adults and their caregivers, recognizes and 
rewards the cost-effectiveness of home- and community-based care vs. 
institutional care, and prepares adequately and responsibly for the 
aging boom.

    Chairman DeWine. Mr. Flood.

STATEMENT OF PATRICK FLOOD, COMMISSIONER, VERMONT DEPARTMENT OF 
 DISABILITIES, AGING, AND INDEPENDENT LIVING, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF STATE UNITS ON AGING, WASHINGTON, DC.

    Mr. Flood. Thank you. Good afternoon. My name is Patrick 
Flood. I am the Commissioner of Vermont's Department of 
Disabilities, Aging, and Independent Living and I am here today 
to represent the National Association of State Units on Aging, 
of which we are one, otherwise known as NASUA. NASUA is the 
national organization of State Units. The State Units in State 
Government administer the Older Americans Act in partnership 
with Area Agencies on Aging and the rest of the aging network, 
as well as manage a broad range of other State and Federally-
funded programs.
    I started out my career in aging services as a case manager 
in the AAA and for 5 years, I was the State long-term care 
ombudsman, so I have been living the Older Americans Act for a 
number of years. The act has developed a system in this country 
of services for elders that this country should be and can be 
proud of. It has made a huge difference in the daily lives of 
millions, millions of older Americans over the years.
    The act needs to be strengthened and the service system 
needs to be strengthened. Over the years, the act has been 
reauthorized and this reauthorization provides an opportunity 
to modernize the act's programs in preparing to serve the next 
generation of older people as well as to better meet the needs 
of today's growing and diverse aging population.
    NASUA has submitted to the committee detailed positions on 
the act's reauthorization. Today, I just wanted to highlight 
four key recommendations.
    First, the Older Americans Act services have been the 
cornerstone upon which State Units on Aging have built their 
home and community-based long-term care systems. I think that 
is something that is not well known. Today, almost all State 
Agencies on Aging also administer State-funded long-term care 
programs, and two-thirds of them manage their State Medicaid 
waiver programs for both elders and, in many cases, people with 
physical disabilities.
    The Aging and Disability Resource Centers funded under 
title IV have made it easier for older people to both access 
various public and private programs and obtain information that 
will help them make the informed decisions they need to make 
about their long-term care needs and about other benefits and 
options. We recommend that these resource centers should become 
a permanent part of the act.
    Second, we recommend adding a distinct component to the 
National Family Caregiver Support Program to focus on persons 
with Alzheimer's disease and their families, because if there 
is any family that has to deal with caregiver issues, it is a 
family with an Alzheimer's victim, and to continue the progress 
of the Alzheimer's disease demonstration program in developing 
and testing new ways to meet this population's need.
    Third, we propose an expansion of the act's emphasis on 
health promotion and disease management. I used to be a nurse, 
as well, and there is tremendous discussion in this country now 
about disease prevention and health promotion, and I am here to 
tell you that I don't believe those efforts will truly succeed 
unless the aging network is involved, because it doesn't matter 
what you order in the doctor's office. If the person can't get 
their prescription drugs or if they can't get the nutrition 
that they need to remain healthy or they can't get the 
transportation that they need to get their groceries, it won't 
matter what you order for treatments and services.
    Fourth, the act has created important programs that form 
the core of State elder rights systems, such as the Long-Term 
Care Ombudsman Program, legal assistance, and elder abuse 
prevention. Most State agencies also administer their State's 
adult protective services systems as well as the State Health 
Insurance Assistance Counseling Program known as SHIP. We 
propose that new authorities and resources be added to the act 
to help States and Area Agencies on Aging enhance information 
and counseling for older people, covering a wide range of 
benefits such as health and prescription drug plans and long-
term care financing options, retirement security, and income 
support.
    Nothing highlights the need for this more than the recent 
implementation, flawed implementation, I might add, of the 
Medicare prescription drug program. If it weren't for the aging 
network in this country, there would still be many, many more 
seniors not getting the prescription drugs that they need, and 
if that is not--if we are not included, if we are not funded 
appropriately to help seniors, that is going to continue to be 
a problem in the coming months and years.
    So thank you for the opportunity to present NASUA's 
recommendations to this committee and we look forward to 
working with you.
    Chairman DeWine. Thank you very much, Mr. Flood.
    [The prepared statement of Mr. Flood follows:]

                  Prepared Statement of Patrick Flood

Introduction

    The National Association of State Units on Aging (NASUA) is pleased 
to share with you a comprehensive set of recommendations for reform of 
the Older Americans Act (OAA) when it is reauthorized by the 109th 
Congress in 2006. These recommendations are based on a set of 
principles adopted by the NASUA membership in June 2004 at our 40th 
Anniversary Annual Meeting in Washington D.C. These principles provided 
the policy framework within which these recommendations for reform were 
developed by the membership in December of 2004.
    NASUA believes that the forthcoming reauthorization of the act 
provides an opportunity to modernize its structures, programs, and 
services to prepare to serve the next generation of older persons and 
their families. As you may know, the first cohort of baby boomers will 
become eligible for most of the services provided under the act during 
the next reauthorization period. Therefore, we strongly believe that it 
is critical that the Congress, the administration, national 
organizations, and State and local stakeholders take this opportunity 
to focus attention on the current status of the act, its overall 
effectiveness, and future ideas to enhance its capacity to serve the 
Nation.
    We look forward to an open and productive dialogue with all 
interested parties on the recommendations for changes that NASUA deems 
necessary from our perspective to further strengthen the act. Working 
together we can ensure a reauthorization process that results in an OAA 
that continues to be responsive to the dynamic circumstances, needs, 
and preferences of older Americans and their families as America 
diversifies and ages.

        POLICY RECOMMENDATIONS FOR THE 2006 OAA REAUTHORIZATION

1. Continue the Federal Government's responsibility to assist States 
    and communities to meet the needs of older people by increasing the 
    authorized Federal funding level of all OAA Titles and chapters to 
    reflect demographic change and inflation.

Recommended Statutory Change
    A. Raise the authorized funding level of all currently funded 
programs by at least 25 percent above the fiscal year 2005 appropriated 
funding level except for title III part E which should be authorized at 
$250 million.
    B. Provide specific funding levels for all programs currently 
authorized but not funded and all new programs authorized.

2. Strengthen the authority of State Government to ensure that the 
    act's resources are targeted to those older persons most in need of 
    support to maintain dignity and independence, such as the very old, 
    the poor, the near poor who may not qualify for Medicaid (Title XIX 
    of the Social Security Act), the frail, those geographically or 
    socially isolated, limited English speaking individuals, and low-
    income minority persons.

Recommended Statutory Change
    A. In all provisions of the statute which require State and area 
agency assurances and/or preferences related to targeting resources or 
activities to those most in need add references to ``the near poor who 
may not qualify for Medicaid (Title XIX of the Social Security Act),'' 
``the very old,'' and ``limited English-speaking older persons.''

3. Provide for an authorization period that is sufficient to ensure 
    continuity, promote quality improvements in programs and services 
    and allow newly authorized programs and amendments to be fully 
    implemented.

Recommended Statutory Change
    A. Amend all appropriate sections authorizing current and new 
programs for 5 years, except where noted.

4. Strengthen and broaden the Federal leadership role of the Assistant 
    Secretary for Aging to:

    <bullet> Include a new partnership with the Centers for Medicare 
and Medicaid Services (CMS) in the administration of HCBS Medicaid 
Waiver Programs and other long-term care programs.
    <bullet> Include a new partnership with CMS to ensure that older 
qualified individuals with disabilities have access to services in the 
most integrated setting appropriate to their needs.
    <bullet> Provide information, education and counseling to people 
with Medicare in partnership with CMS.
    <bullet> Assist in efforts to ensure the integrity of the Medicare 
program in partnership with CMS.
    <bullet> Advocate with other Federal agencies to end age bias and 
increase access by older persons to Federal programs and services.

Recommended Statutory Change
    A. Add a new provision in section 202(a) requiring the Assistant 
Secretary to work with the Centers for Medicare and Medicaid Services 
in the development, approval, and administration of Medicaid HCBS 
Waivers for older persons.
    B. Add a new provision in section 202(a) requiring the Assistant 
Secretary to work with the Centers for Medicare and Medicaid Services 
in the design, review, and approval of Medicaid research and 
demonstration projects in long-term care.
    C. Add a new provision in section 202(a) requiring the Assistant 
Secretary to prepare, publish, and disseminate a report, either 
directly or through grant/contract, which details all existing Federal 
policies that create barriers to community living for older people and/
or have an inherent age bias, and make specific recommendations for 
change to the administration and the Congress, and submit annual 
progress reports.
    D. Add a new provision in section 202(a) requiring the Assistant 
Secretary to work with the Centers for Medicare and Medicaid Services 
in the development of policies for, and in the administration of, the 
State Health Insurance Assistance Programs and Medicare and Medicaid 
integrity programs.
    E. Add a new provision in section 202(a) requiring the Assistant 
Secretary to develop a strategic plan to assist States and communities 
in preparing for the rapid aging of America and the increased longevity 
and diversity of the current population of older individuals.

5. Strengthen and broaden the leadership role of the State units on 
    aging to eliminate the institutional bias in their State's long-
    term care system through:

    <bullet> New partnership with the State Medicaid agency to ensure 
that older qualified individuals with disabilities have access to 
services in the most integrated setting appropriate to their needs.
    <bullet> Requiring active participation in the development and 
implementation of the State's Olmstead plan, long-term care rebalancing 
plans or meeting ADA Title II requirements for older people.
    <bullet> Statutory recognition of their expanded responsibilities 
in the design and implementation of home- and community based service 
systems including the State Medicaid Home and Community-Based Services 
Waiver programs for the aged and people with disabilities and other 
long-term care programs.
    <bullet> Expanded advocacy with other State agencies to end age 
bias and increase access of older persons to Federal and State programs 
and services.

Recommended Statutory Change
    A. Add a new provision in section 307(a) a new State plan assurance 
that the State unit on aging will be involved in the planning, 
coordination of, and where designated by the State in the 
administration of home- and community-based long-term care programs 
including Title XIX of the Social Security Act.
    B. Amend section 305(a)(D) to include the following: ``. . . which 
affect older individuals including State Olmstead plans where 
applicable, long-term care rebalancing initiatives, and meeting 
Americans with Disabilities Act (ADA) Title II requirements for older 
individuals . . . .''
    C. Add a new provision in section 307(a) a new State plan assurance 
requiring the State unit on aging to participate in State planning and 
coordination activities related to State's Olmstead plan, long-term 
care rebalancing plans or meeting ADA Title II requirements for older 
persons.
    D. Add a new provision in section 307(a) that the State plan shall 
include assurances that the State has in effect mechanisms to improve 
access to other federally funded State administered programs, including 
home- and community-based services and food stamps, for eligible older 
persons.

6. Provide authority and authorize funds to States to design and 
    implement Aging and Disability Resource Centers (ADRCs) to assist 
    older people and adults with disabilities to make informed 
    decisions about their service and support options and serve as the 
    one stop center for the State's long-term care service and support 
    system.

Recommended Statutory Change
    A. Add a new Title VIII to the Older Americans Act authorizing the 
Assistant Secretary to carry out a program for making grants to States 
to streamline access to multiple public programs for older persons and 
adults with disabilities through the establishment of aging and 
disability resource centers at an authorized level of funding of at 
least $100 million per year.

7. Further strengthen the National Family Caregiver Support Program 
    through the addition of a new program focusing on the needs of 
    older persons with Alzheimer's Disease and related dementia and 
    their caregivers, building on the success of the current State 
    demonstration program.

Recommended Statutory Change
    A. Add a new subpart 3 under title III part E authorizing the 
Assistant Secretary to carry out a program for making grants to States 
under State plans approved under section 307 to provide multi-faceted 
systems of support services for persons with Alzheimer's Disease and 
related dementia and their families and caregivers with an authorized 
level of funding of at least $50 million per year including a 10 
percent set-aside for statewide initiatives.
    B. Add a new subpart 4 under title III part E authorizing the 
Assistant Secretary to carry out a program for making grants on a 
competitive basis to foster the development and testing of new 
approaches to sustaining the efforts of families and caregivers of 
persons with Alzheimer's Disease (limit funding to 5 percent of funds 
appropriated for new Subpart 2).

8. Establish a major new evidenced-based prevention, disease 
    management, and health promotion program to support the healthy 
    productive aging of current and future generations of older 
    persons.

Recommended Statutory Change
    A. Modernize title III part D by establishing three distinct 
Subparts: Subpart 1: Health Promotion/Disease Prevention Programs and 
Services (current program); Subpart 2: Chronic Disease Management and 
Medication Management Programs authorized at $100 million per year 
(including a base amount for each State) including 10 percent set aside 
for statewide initiatives; and Subpart 3: State Innovation Grants in 
Evidenced Based Program Development authorized at $50 million per year 
(including a base amount for each State).

9. Enhance State authority and flexibility to develop and implement 
    consumer directed service delivery methods that promote 
    independence, autonomy, choice and control for older persons and 
    their caregivers in all OAA programs.

Recommended Statutory Change
    A. Amend title I section 101(10) by deleting the phrase which 
begins, ``full participation in the planning . . . . '' and replace 
with ``. . . consumer choice, direction and control in the planning and 
operation of home- and community-based services and programs provided 
for their benefit.''
    B. Revise title III section 314 to read ``Rights Relating to In-
Home and Community Based Services for Older Individuals,'' and amend 
the language to include the concepts of consumer direction and control.

10. Strengthen the capacity of State units on aging to develop and 
    implement a comprehensive elder rights system through:

    <bullet> Recognition of the critical role of adult protective 
services (APS) in such systems.
    <bullet> Statutory recognition of the existing role of State units 
on aging in administering APS programs.
    <bullet> Providing information, education, counseling and decision 
assistance to people with Medicare on Federal, State and local 
benefits.
    <bullet> Expanded responsibilities for Medicare program integrity.
    <bullet> Expanded responsibilities to design and support systems of 
advocacy and protection for older persons and, when appropriate, adults 
with physical disabilities, receiving home- and community-based 
services.

Recommended Statutory Change
    A. Amend section 705(a) by adding a new State plan assurance to 
read, ``An assurance that the State will develop an elder rights system 
which coordinates programs authorized under this title; includes 
partnerships with appropriate public and private entities; addresses 
the unique needs of the diverse older population; informs and empowers 
older individuals to act on their own behalf; provides individualized 
advocacy and representation as needed; and assures systemic advocacy.''
    B. Amend section 705(a)(6)(A) to read, ``. . . with existing State 
adult protective service activities `administered by the State unit on 
aging or other component of State Government' for . . . .''
    C. Amend title VII by adding a new Chapter 5--Outreach, Counseling, 
Protections and Assistance Program, which provides information, 
counseling and decision supports to, and representation for, older 
individuals on public and private benefits, including pensions, health 
and long-term care insurance, and income supports with a clearly 
defined role for legal assistance. Include a $100 million authorized 
level of funding.
    D. Amend title VII by adding a new Chapter 6 Senior Medicare 
Integrity Program: Provide allotments to States to promote awareness, 
prevent victimization, implement State and community partnerships to 
prevent Medicare and Medicaid fraud and abuse and restore program 
integrity. Provide an authorized level of funding at $50 million per 
year.
    E. Amend title VII by adding a new Chapter 7 Home Care Ombudsman 
Program: Provide allotments to States to establish a program to 
identify, investigate, and resolve complaints that are made by, or on 
behalf of, persons receiving in-home and community services with 
appropriate conflict of interest, protection of privacy, outreach, and 
coordination provisions. Provide for an authorized funding level of $50 
million.
    F. Amend section 702(c) by deleting ``such sums as may be necessary 
for fiscal year 2001'' and adding an authorized level of funding at $15 
million per year.

11. Enhance the capacity of the Senior Community Service Employment 
    Program (SCSEP) to respond effectively to the unique employment, 
    economic and social needs of older persons by:

    <bullet> Balancing community service and unsubsidized placement 
expectations.
    <bullet> Reducing statutory and regulatory barriers to 
participation of older workers in SCSEP and other Federal employment 
and training programs.
    <bullet> Developing reasonable performance expectations 
particularly regarding unsubsidized placements.
    <bullet> Reducing administrative burden.

Recommended Statutory Change
    A. Amend title V section 502(a)(1) by adding the words ``or 
underemployed'' after the word ``unemployed.''
    B. Amend section 516(2) by adding after Office of Management and 
Budget ``excluding (i) unemployment benefits income; (ii) 25 percent of 
Social Security income; (iii) SSDI benefits; and (iv) the income of 
non-spousal household residents.''
    C. Amend section 516(2) by adding the words after ``. . . including 
any such individual whose `average income in the last 6 months' . . . 
.''
    D. Amend section 513(a)(2)(C) to read ``For all grantees, the 
Secretary shall establish a measure of performance of not less than 20 
percent and not more than 25 percent . . . .''

12. Strengthen the income security provided to low-income older workers 
    in the SCSEP by exempting wages earned in the program as income for 
    purposes of determining eligibility for Medicaid and other Federal 
    benefits.

Recommended Statutory Change
    A. Amend section 509 to read ``Employment Assistance and Federal 
Benefits'' and add at the end ``. . . and Title XIX of the Social 
Security Act.''

13. Ensure that reporting and accountability requirements and 
    definitions are consistent across all titles of the act and focus 
    on program outcomes without unduly burdening program recipients and 
    the various components of the aging network.

Recommended Statutory Change
    A. Amend section 211 to read ``Reduction of Paperwork and 
Administrative Burden.'' Add the following language: ``The Assistant 
Secretary shall implement ways to improve the efficiency and 
effectiveness of reporting and reduce State reporting burden. The 
Assistant Secretary will implement cost effective ways to define the 
common data requirements needed for policy and management 
decisionmaking; reduce the information burden on program recipients; 
improve data collection methods and systems to ensure unduplicated 
counts; and reduce the expense of reporting systems. The Assistant 
Secretary shall provide grants to States to carry out such program 
information systems management changes. The Assistant Secretary shall 
establish a National Resource Center on Aging Network Information 
Systems to provide ongoing training, technical assistance and support 
to States.''
    B. Amend Section 216 Authorizations of Appropriations by adding a 
new subsection (d) Program Information Systems Management Initiative 
authorized at $10 million per year.

14. Ensure that States have sufficient new resources to prepare their 
    respective States and communities for the aging of America.

Recommended Statutory Change
    A. Add a new title IX Grants for State Aging America Initiatives: 
The Assistant Secretary shall establish and carry out a program of 
making allotments to States to pay for the cost of carrying out 
statewide initiatives to help communities develop the programs, 
policies and/or services needed to address the rapid aging of America 
and the increased longevity and diversity of the current population of 
older individuals. Provide for an authorized funding level of $50 
million per year and sunset after 2 years.

    Chairman DeWine. Ms. Mintz.

STATEMENT OF SUZANNE MINTZ, PRESIDENT AND CO-FOUNDER, NATIONAL 
      FAMILY CAREGIVERS ASSOCIATION, KENSINGTON, MARYLAND

    Ms. Mintz. Mr. Chairman, Senator Mikulski, thank you for 
this opportunity. I am Suzanne Mintz, President and co-founder 
of the National Family Caregivers Association and a family 
caregiver myself, and as you might suspect, I am speaking here 
today in support of the National Family Caregiver Support 
Program.
    NFCA's mission is to empower family caregivers to take 
actions that will improve their life and the lives of their 
loved ones by providing them with education, support, and a 
public voice. Our members care for spouses, children, aging 
parents, siblings, friends, and others. The majority of our 
members care for seniors. The stories they share with us paint 
a picture of isolation, a lack of information, a need for 
respite and financial assistance.
    I would like to share a story that we received some years 
ago from a woman right here in Potomac, Maryland, Sheue Yann 
Chen. To this day, it is imprinted on my mind. ``My husband is 
now 66 years old. He has a neurological disease which has no 
treatment and no cure. He can no longer walk, talk, or feed 
himself. He is totally incontinent and needs full-time 
assistance. I receive no financial help and work full-time to 
support his full-time home care. I am now 62 years old, 
overworked, and worn out.''
    The National Family Caregiver Support Program, part of the 
Older Americans Act, began providing services to family 
caregivers of the elderly and elderly people caring for 
children in 2002. Since that time, it has helped over 25 
million people like Mrs. Chen across the country receive 
information, respite, and support.
    In my own State of Maryland, approximately 45,000 people 
have been served by the National Family Caregiver Support 
Program since its inception for a cost of just over $2,165,000. 
That is approximately $48 per caregiver, about the cost of a 
dozen lattes. That is a pretty small investment, indeed, in the 
health and well-being of those Americans who are providing care 
to the most vulnerable of our citizens. It is a small 
investment in keeping family caregivers on the job. After all, 
when a family caregiver becomes sick and cannot provide care, 
society pays the price.
    Unfortunately, the vast majority of family caregivers have 
not had the opportunity to be served by the National Family 
Caregiver Support Program, either because sufficient funds were 
not available or because they were not even eligible.
    America's more than 50 million family caregivers are the 
mainstay of our Nation's long-term care system. Family 
caregivers strive often beyond the point when it is beneficial 
to all concerned to keep their loved ones at home. In times of 
tight budget constraints, supporting family caregivers is sound 
fiscal policy. That is why it is troubling that the 
Administration on Aging's budget request seeks fewer funds for 
the National Family Caregiver Support Program in fiscal year 
2007 than it currently receives, approximately $2 million less, 
$154 million for 2007 versus $156 million in 2006, and also 
that amount in 2005. It is as if we have been losing ground 
already for the past few years.
    The first of the baby boomers turned 60 last month. Our 
aging population is on the rise, and the number of people who 
need long-term care. I am all for more flexible and integrated 
programs that address the totality of a person's need, such as 
the Choices for Independence Initiative being proposed, and 
providing services for a person with a chronic illness or 
disability does indirectly help family caregivers. But it 
doesn't address the very specific needs of family caregivers. 
Only the National Family Caregiver Support Program does that.
    Since I am out of time, just let me say that I think it is 
imperative that we not reduce funding for this program, in 
fact, that we indeed increase it. In years past, there has been 
talk of doubling the program. It would be a very wise and sound 
investment if we did so.
    [The prepared statement of Ms. Mintz follows:]

                  Prepared Statement of Suzanne Mintz

    Mr. Chairman, members of the committee thank you for this 
opportunity to speak in support of reauthorization of the Older 
Americans Act, and in particular the National Family Caregiver Support 
Program. My name is Suzanne Mintz, and I am the President and Co-
founder of the National Family Caregivers Association (NFCA), and a 
caregiver myself for more than 2 decades for my husband who has 
multiple sclerosis.
    NFCA's mission is empower family caregivers to take actions that 
will improve their life and the life of their loved one by providing 
them with education, support, and a public voice. NFCA reaches across 
the boundaries of differing diagnoses, different relationships and 
different life stages to address the common concerns of all family 
caregivers. NFCA is located in Kensington, MD.
    Our members care for spouses, children, aging parents, siblings, 
friends and others. The majority of our members care for seniors and 
they tend to be ``heavy duty'' caregivers, meaning they are providing 
hands-on care on a daily basis, helping loved ones, dress, bath, toilet 
etc. The stories they share with us paint a picture of isolation, a 
lack of information and understanding of available resources, a need 
for respite, and financial assistance.
    I would like to share a story that we received some years ago from 
a woman right here in Potomac, MD, Sheue Yann Chen. To this day it is 
imprinted on my mind.
    My husband is now 66 years old. He has a . . . progressing 
debilitating neurological disease, which has no treatment and no cure. 
Since the diagnosis of his disease, I have been watching his slow death 
day by day.
    He now can no longer talk, walk, stand or feed himself. He is 
totally incontinent and needs full-time assistance for daily living. I 
receive no financial help and work full-time to support his full-time 
home care. I am now 62 years old and shoulder the entire household 
responsibility, from cooking, cleaning, shopping, learning to fix 
faucet leaks, mowing the lawn and shoveling the snow. I am over-worked 
and worn out. Because of his illness, we have no social life . . . 
Since his illness, many friends that we used to have abandoned us. I 
feel very alone, constantly worrying about my husband's health. Life 
has been a struggle for me.
    What can help me is to have a resource center which has names that 
I can call for finding a dependable workman to install a wheelchair 
ramp or fixing other household problems (e.g. leaking roof etc.), . . . 
assistance for transportation when my husband needs to go to see the 
doctor, . . . financial assistance for home care. At the minimum, 
financial assistance for a 2 week respite leave would be extremely 
helpful.
    The National Family Caregiver Support Program, a part of the Older 
Americans Act, began providing services to family caregivers of the 
elderly and elderly people caring for children in 2002. Since that time 
it has helped over 25,000,000 people like Mrs. Chenn across the 
country.

    <bullet> Over 1.5 million caregivers have received help in 
accessing services.
    <bullet> Almost 22 million have received information about caring 
for their loved one.
    <bullet> Over 814,000 have received counseling, become part of a 
support group, or learned new caregiving skills.
    <bullet> Almost one half million caregivers have gotten some of the 
respite they desperately require.
    <bullet> Approximately 350,000 caregivers have gotten supplemental 
services to help them meet very specific and immediate needs.

    Research has shown over and over again that family caregivers put 
their own health at risk as they assist their loved one. Family 
caregivers are more prone to depression than the rest of the 
population, among some subpopulations as much as six times as high. 
Research has shown that the stress of family caregiving can trigger the 
advent of chronic illnesses, and in extreme situations increase 
mortality rates.
    In my own State of Maryland just under 45,000 people have been 
served by the National Family Caregivers Support Program since its 
inception for a cost of $2,165,437. That's $48 and change per 
caregiver--about the cost of a dozen lattes. That is a very small 
investment indeed in the health and well being of those Americans who 
are providing care to the most vulnerable of our citizens. It is a 
small investment in keeping family caregivers on the job. After all 
when a family caregiver becomes sick and cannot provide care, society 
pays the price.
    As impressive as some of these numbers sound, we can not lose site 
of the fact that there are more than 44 million people who provide care 
to a loved one over the age of 50 and the numbers of caregivers served 
that I have quoted represent services over a 3 year period. There are 
so many family caregivers that have not had the opportunity to be 
served, either because sufficient funds were not available or because 
they were not even eligible.
    Family caregivers are the mainstay of our Nation's long-term care 
system. Family caregivers strive, often beyond the point when it is 
beneficial to all concerned, to keep their loved one at home. In times 
of tight budget constraints supporting family caregivers is sound 
fiscal policy. That is why it is troubling that the Administration on 
Aging's budget request seeks fewer funds for the National Family 
Caregiver Support Program in fiscal 2007 than it currently receives, 
approximately $2 million less, $154 million for 2007 versus $156 
million in 2006.
    I know that there are new initiatives being proposed, that will if 
implemented, provide some services to caregiving families. The budget 
calls for the creation of a new program of competitive grants, Choices 
for Independence, a $28 million initiative that will provide a flexible 
care plan of services for eligible individuals and therefore in the 
process support their family caregivers as well. I know that there are 
funds allocated for the Aging and Disability Resource Center program 
that began in 2003 to serve as single entry access points, but these 
are all small competitive grant programs that will serve only a small 
number of people and only indirectly support family caregivers.
    The first of the baby boomers turned 60 last month. Our aging 
population is on the rise and with it the number of people who will 
need long-term care. People over 85 are the fastest growing segment of 
the population and over half of them need help with personal care. I am 
all for more flexible and integrated programs that address the totality 
of a person's needs, and providing services for a person with a chronic 
illness or disability does indirectly help their family caregiver, but 
it doesn't address the very specific needs of the caregiver directly, 
only the National Family Caregiver Support Program does that.
    I know that money for programs to support needy Americans is very 
tight right now to say the least, but I fear that the proposed 
direction of the fiscal 2007 AOA budget will leave even more family 
caregivers fending for themselves than has already been the case.
    The implementation of the National Family Caregiver Support program 
in 2000 was a milestone in this country's recognition of the critical 
role that family caregivers play in our healthcare and social support 
system. Reducing its allocation sends a message that the work of family 
caregiving--upon which our Nation relies so heavily--is not as valuable 
as once thought. That is a step backwards and one that as a family 
caregiver advocate I must decry.
    Hubert Humphrey, for whom the headquarters building of the 
Department of Health and Human Services is named, once said ``A society 
is judged by how it treats its most vulnerable citizens.'' What can we 
say about America's concern for its most vulnerable citizens if we cut 
back on the one and only program designed to support those they rely on 
so heavily. Over two thirds of all seniors needing care get it solely 
from family and friends. It is imperative that we recognize the 
enormity of the work that family caregivers do in support of the 
elderly and the negative impact it has on their own wellbeing. By 
cutting the few social support services that exist we are only adding 
to the pool of family caregivers who will require more expensive 
services from our healthcare system, today and tomorrow. I implore you 
to consider at least funding the National Family Caregiver Support 
Program at current levels, if not adding to them.

    Chairman DeWine. Ms. Jones.

   STATEMENT OF KARYNE JONES, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, THE NATIONAL CAUCUS AND CENTER ON BLACK AGED, INC., 
                        WASHINGTON, DC.

    Ms. Jones. Senator DeWine, Senator Mikulski, I am Karyne 
Jones and I am President and CEO of the National Caucus and 
Center on Black Aged. From its inception, the National Caucus 
and Center on Black Aged has supported the spirit and the 
objectives of the Older Americans Act and continues its 
longstanding support.
    As the Congress considers the reauthorization of the act, 
NCBA wants to state its support of the reauthorization as 
follows. We strongly oppose any across-the-board cuts to 
discretionary spending programs. Such cuts are likely to have a 
disproportionate impact on OAA programs.
    We do not support eliminating specific references to 
minorities. It remains a sad reality that minorities are still 
disproportionately at the lower end of the economic spectrum. 
Removal of targeted languages will undermine efforts to direct 
services to the neediest of older Americans and roll back the 
progress that has been achieved in minority and low-income 
participation.
    NCBA opposes merging disability and aging services. 
Although many of the needs of the two groups do converge, the 
merging of these services will obscure the often distinct 
priorities. The ability of the service agencies and 
organizations to respond to the needs of the elderly will 
suffer from this additional bureaucracy.
    We also oppose these changes to the Senior Community and 
Service Employment Program, SCSEP. No. 1, eliminating national 
sponsors. No. 2, eliminating services to participants under age 
65. And three, eliminating fringe benefits for participants.
    NCBA supports preparation for the demands resulting from 
the aging of the baby boomer generation. This is overdue, in 
fact. The boomers have already begun to reach 55, and certainly 
our systems have been ramped up to meet their needs. The impact 
on all services, including those authorized by OAA, including 
the Senior Community Service Employment Program, the National 
Family Caregivers Support Program, nutrition programs, as well 
as health and promotion of disease activities, will reach 
unprecedented levels. Service providers at all levels will have 
to be proactive to meet the needs of an increased number of 
older Americans potentially utilizing these services. 
Particular attention must be paid to prepare for those who will 
be near or below the poverty line.
    NCBA supports a 25 percent increase of OAA authorization 
levels. This increase will offset the impacts of inflation and 
compensate for the flat funding levels of the past several 
years. The failure to increase the authorization levels has 
amounted to cutting spending levels as a result of inflation.
    NCBA supports establishment of Aging and Disability 
Resource Centers. The centers will provide a one-stop source 
for assisting seniors and disabled citizens with long-term care 
and service needs.
    I have to jump down, because 3 minutes just isn't enough to 
take care of the needs of poor, low-income people in this 
country. Most of it, of course, is in my statement, but I have 
to mention that, of course, NCBA supports retaining the current 
operational structure of the Senior Community Employment 
program.
    We support affordable housing for seniors, particularly 
low-income seniors. This is becoming an increasing need for 
older Americans, and this legislation does not address that 
adequately.
    We also support all I have mentioned. Following this brief 
statement, I do have all of my statistics and everything to do 
that.
    As we wholeheartedly support the Older Americans Act's 
reauthorization, we must be committed to enacting 
appropriations that effectively empower these agencies to carry 
out the mission and service provision for our elders. The 
Congress and the administrative branch are proud of the Older 
Americans Act, its goals and achievements, and we thank you for 
this opportunity, Senators, to talk about these things.
    Chairman DeWine. We do have your full statement.
    Ms. Jones. Thank you.
    [The prepared statement of Ms. Jones follows:]

                   Prepared Statement of Karyne Jones

       THE NATIONAL CAUCUS AND CENTER ON BLACK AGED, INC. (NCBA)
RECOMMENDATIONS FOR THE 2005 REAUTHORIZATION OF THE OLDER AMERICANS ACT 
                                 (OAA)

    My name is Karyne Jones and I am President and CEO of the National 
Caucus and Center on Black Aged, Inc.
    From its inception The National Caucus and Center on Black Aged, 
Inc. supported the spirit and objectives of the Older Americans Act 
(OAA) and continues its long-standing support. As the Congress 
considers the reauthorization of the OAA, NCBA wants to state its 
support of the reauthorization as follows:
    NCBA strongly opposes any across-the-board cuts to discretionary 
spending programs. Such cuts are likely to have a disproportionate 
impact on OAA programs. We do not support eliminating specific 
references to minorities. It remains a sad reality that minorities are 
still disproportionately at the lower end of the economic spectrum. 
Removal of targeting language will undermine efforts to direct services 
to the neediest older Americans and roll back the progress that has 
been achieved in minority and low-income participation in the OAA.
    NCBA opposes merging disability and aging services. Although many 
needs of the two groups do converge, the merging of these services will 
obscure the often distinct priorities. The ability of service agencies 
and organizations to respond to the needs of the elderly will suffer 
from the additional bureaucracy. Reluctantly the example of the Office 
of Homeland Security provides an almost worst-case scenario for this 
type of administrative umbrella.
    NCBA supports establishment of a new Title in the OAA to study and 
prepare for the demands resulting from the aging of the baby boomer 
generation. This is overdue in fact. The boomers have already begun to 
reach 55 and will reach 60 before our systems have been ramped up to 
meet their needs. The impacts on all services including those 
authorized by the OAA (including the Senior Community Service 
Employment Program (SCSEP), National Family Caregiver Support Program 
(NFCSP), nutrition programs as well as Health Promotion and Disease 
Prevention activities) will reach unprecedented levels. Service 
providers at all levels will have to be proactive to meet the needs of 
the increased number of older Americans potentially utilizing services. 
Particular attention must be paid to prepare for those who will be near 
or below the poverty line.
    NCBA supports a 25 percent increase in OAA authorization levels. 
This increase will offset the impact of inflation and compensate for 
the flat funding levels of the past several years. The failure to 
increase the authorization levels has amounted to cutting spending 
levels as a result of inflation.
    NCBA supports establishment of Aging and Disability Resource 
Centers. The centers will provide a one stop source for assisting 
senior and disabled citizens' with their long term care and service 
support needs. The ability of well-trained representatives to access 
and inform clients will reduce the burden of information gathering and 
the application process involved.
    NCBA supports retaining the current operational structure of the 
Senior Community Service Employment program (SCSEP) utilizing National 
sponsors and State aging units. The system has served the goals of the 
legislation and the clients very effectively. We support reinforcing 
income security for low-income SCSEP participants by providing 
exemptions for SCSEP wages when determining eligibility for Federal 
benefits programs (e.g. Medicaid). The combination of near poverty line 
status and fixed incomes demands this relief in order for many elderly 
to maintain a reasonable quality of life. NCBA supports establishing 
practical assessment standards and performance expectations 
particularly for unsubsidized placements. The benefits of workers 
moving to private sector or direct Government employment are many, the 
most important being making room for new participants as more baby 
boomers become eligible.
    NCBA supports strengthening the Health Promotion and Disease 
Prevention capacity of the OAA and its service providers by 
establishment of evidence-based programs that will be implemented at 
the local, State and national levels. NCBA supports allocating funds 
for outreach and enrollment assistance for the Medicare prescription 
drug program. NCBA supports directing services to those older 
individuals with the greatest economic and/or social need with 
particular attention to low-income minority individuals and 
demographically dense communities.
    Following this brief statement are some facts and statistics that 
illustrate the increasing importance of the services provided for by 
the OAA. These facts highlight the necessity of carefully addressing 
the authorization levels and organizational structure of service 
delivery systems. There are many areas where racial, ethnic or 
socioeconomic disparities continue to have an impact in our society and 
the health and wellbeing of minority seniors.
    The Congress and administrative branch can be proud of the Older 
Americans Act, its goals and achievements. Let's not run the risk of 
prematurely rolling back its authority or diluting its ability to meet 
its designed objectives. Thank you for the opportunity to share NCBA's 
enduring appreciation for the act and the efforts of the many agencies 
and organizations that implement the resultant programs.

                        POPULATION DEMOGRAPHICS

    ``From 1950 to 2004 the total resident population of the United 
States increased from 150 million to 294 million, representing an 
average annual growth rate of 1 percent. During the same period, the 
population 65 years of age and over grew twice as rapidly and increased 
from 12 to 36 million persons. The population 75 years of age and over 
grew 2.9 times as quickly as the total population, increasing from 4 to 
18 million persons. Projections indicate that the rate of population 
growth from now to 2050 will be slower for all age groups, and older 
age groups will continue to grow more than twice as rapidly as the 
total population.'' This ``preretirement age'' population, defined as 
all adults 55-64 years of age, is projected to be the fastest growing 
segment of the adult population during the next 10 year period.\1\
---------------------------------------------------------------------------
    \1\ National Center for Health Statistics, Health, United States, 
2005, With Chartbook on Trends in the Health of Americans, Hyattsville, 
Maryland 2005.
---------------------------------------------------------------------------
                    HEALTH STATUS OF OLDER AMERICANS

    ``While many Americans age 55-64 are in good health and relatively 
well off financially, minorities, primarily African-Americans, American 
Indians, and persons of Hispanic origin, are more likely than non-
Hispanic white Americans to have chronic health problems, live in 
poverty, lack insurance coverage, and be unable to work because of a 
disability.''
    The percent of the population that is black or Hispanic is 
increasing. If current racial and ethnic disparities do not narrow, 
this trend could indicate even higher prevalence of obesity, diabetes, 
hypertension, and other diseases more common in minorities and a 
corresponding higher burden on the health care system.
    ``Changes in the racial and ethnic composition of the population 
have important consequences for the Nation's health because many 
measures of disease and disability differ significantly by race and 
ethnicity. One of the overarching goals of U.S. public health policy is 
elimination of racial and ethnic disparities in health.'' \2\
---------------------------------------------------------------------------
    \2\ 2005 National Healthcare Disparities Report. Agency for 
Healthcare Research and Quality.
---------------------------------------------------------------------------
    Adults age 55-64 have more frequent and more severe health problems 
than younger people. The prevalence of diabetes, hypertension, heart 
disease, and other chronic diseases increase with age. In addition, 
hypertension and obesity have been increasing over time for this age 
group.

                      CARDIOVASCULAR RISK FACTORS

    Hypertension, obesity, and high cholesterol are all independent 
risk factors for the leading causes of death in the United States--
heart disease and stroke. Hypertension is also a major risk factor for 
congestive heart failure and kidney failure. Being obese is associated 
with increased risk of morbidity and mortality. High cholesterol 
increases the likelihood of developing heart disease and raises the 
risk of heart attacks among those with heart disease.
    Between 1988-94 and 1999-2002 the percent of adults 55-64 years of 
age with one or more of the three cardiovascular risk factors examined 
remained level at about 70 percent.
    Almost one-half of non-Hispanic black adults had two or three of 
the risk factors, compared with just under one-third of non-Hispanic 
white and Mexican adults.

                              MAMMOGRAPHY

    Breast cancer is the most common type of newly diagnosed cancer 
among women and the second leading cause of cancer deaths for women. In 
2002 approximately 204,000 women in the United States were diagnosed 
with breast cancer and nearly 42,000 women died from the disease. Rates 
of newly diagnosed breast cancer, breast cancer survival rates, and 
death rates vary among race and ethnic groups.
    Disparities in mammography screening among underserved women with 
low income or less education also continue to exist. In 2003 poor women 
remained less likely than women with higher incomes to have a recent 
mammogram--55 percent compared with 74 percent.

                               PAP SMEAR

    A Pap smear is a microscopic examination of cells scraped from the 
cervix that is used to detect cancerous or precancerous conditions of 
the cervix and other medical conditions. If detected, precancerous 
conditions can be treated before they become malignant.
    Pap smear screening rates remained lower for Asian and Hispanic 
women than for non-Hispanic black and non-Hispanic white women.

                   HEALTH AND HEALTHCARE DISPARITIES

    African-Americans are 10 times more likely than whites to be 
diagnosed with AIDS.
    African-Americans are 10 percent more likely than whites to have 
poor access to healthcare and 9 percent more likely to receive poorer 
quality care.
    Hispanics are 3.7 times more likely than whites to be diagnosed 
with AIDS.
    Hispanics are 87 percent more likely than whites to have poor 
access to healthcare and 16 percent more likely to receive poorer 
quality care.

                           EMPLOYMENT STATUS

    Employment, or past employment, is a determinant of access to 
health care both in terms of supplying income to pay for care and also 
because employer-sponsored health insurance is frequently offered to 
employees. In 2002-2003 employment status differed by race and 
ethnicity. Non-Hispanic white men and Hispanic men were more likely to 
be working (about 65 percent) than non-Hispanic black men (57 percent). 
Among women, a little over one-half of non-Hispanic white women were 
working compared with 46 percent of non-Hispanic black women and 41 
percent of Hispanic women. Hispanic women in this age group were more 
likely to be taking care of home or family than non-Hispanic women. 
Hispanic men and women were less likely to be retired than non-Hispanic 
adults 55-64 years.
    Unemployment due to disability was higher for non-Hispanic black 
men and women age 55-64 years than for other racial and ethnic groups. 
In 2002-2003, about one-fifth of non Hispanic black men and one-quarter 
of non-Hispanic black women were unemployed due to a disability 
compared with 15 percent of Hispanic adults and 10 percent of non-
Hispanic white adults.

                               LOW INCOME

    People with low income are more likely to be in poor health and 
have a higher prevalence of many serious chronic diseases than those 
with higher incomes. Their worse health is a result of many factors 
including a higher prevalence of health risk factors, poor nutrition 
and housing, occupational and environmental hazards, and other social 
ills. Poor health may also contribute to poverty by reducing the 
ability to earn income. People living below or near the poverty level 
are also more likely to lack health insurance, which, combined with 
their low incomes reduces their access to health care.
    In general the preretirement age population 55-64 years has higher 
incomes than older persons age 65 and over. In 2003 more than one-fifth 
of the population age 55-64 had incomes below 200 percent of poverty, 
compared with almost two-fifths of older persons age 65 years and over. 
More older adults than preretirement age adults had incomes in the 100-
199 percent of poverty range. The percent living below 100 percent of 
poverty, however, was similar for the two groups (about 10 percent). 
There is large variation in the poverty distribution by gender and race 
and Hispanic origin for the preretirement age population. In 2003 women 
55-64 years of age were more likely than men to be living in poverty 
(10 percent compared with 8 percent). Both non-Hispanic black and 
Hispanic men and women were about twice as likely to be living in or 
near poverty as non-Hispanic white adults. In addition, non-Hispanic 
black and Hispanic women were more likely to be poor than their male 
counterparts.
    Income for persons age 55-64 is not likely to increase and will 
probably decrease upon retirement. Persons 55-64 currently living in 
poverty most often cannot expect future increases in their employment-
based incomes. Employment prospects at this age for poor and near poor 
persons diminish and are most often limited to low-income jobs with few 
fringe benefits.

                       HEALTH INSURANCE COVERAGE

    Health insurance coverage is an important determinant of access to 
health services and is of particular importance for people with chronic 
conditions that require ongoing care. Whereas Americans age 55-64 years 
are more likely to be insured than other working-age adults under age 
65, preretirement age adults do not have the guarantee of health 
insurance coverage that Medicare offers to almost all older adults age 
65 and over.
    Adults 55-64 years of age are reaching a time of life when health 
problems are likely to become more frequent and more serious. 
Consequently, persons of this age group are likely to have greater 
health care needs, on average, than younger persons. Because being 
married is associated with higher rates of health insurance, minority 
women, in particular, are more at risk for being uninsured than other 
groups, as well as more likely to live in poverty.

    Chairman DeWine. Mr. Blancato.

STATEMENT OF BOB BLANCATO, NATIONAL COORDINATOR, ELDER JUSTICE 
                   COALITION, WASHINGTON, DC.

    Mr. Blancato. Thank you, Senators. As National Coordinator 
of the 440-member bipartisan Elder Justice coalition, thank you 
for the invitation to discuss Title VII of the Older Americans 
Act, allotments for vulnerable elder rights protection 
activities.
    Elder abuse, neglect, and exploitation is more prevalent 
than in 2000, the last Older Americans Act reauthorization. A 
new study by the National Center on Elder Abuse points broadly 
to a 19.7 percent increase in elder and vulnerable adult abuse 
and neglect cases since 2000. The Center's Special Committee on 
Aging has estimated there to be more than 500,000 reported 
cases of elder abuse, with as many as 5 million total cases 
since so much goes unreported.
    The only Federal program with dedicated funds for elder 
abuse prevention is title VII. Its mission and purposes are 
sound. Its resources are not. It has just over $20 million. The 
President's budget would reduce it by $1 million. Two of its 
programs, including the Native American Organization Program, 
have never been funded.
    A stronger title VII should be a goal of this 
reauthorization. It must include enhancing the capacity of the 
aging network to develop and implement a comprehensive elder 
rights system over the coming years. It must include a strong 
State and local long-term care ombudsman program that operates 
with adequate resources and in an environment of autonomy. A 
stronger title VII must commit more attention and resources to 
help stem the alarming rise in self-neglect cases. Yes, it will 
take more money, but outcomes will come from this investment: 
Reducing elder abuse, neglect, and exploitation through 
education, training, and better reporting.
    Authorization levels proposed by LCAO deserve serious 
consideration, including $10 million each for elder abuse 
prevention, the Native American Organization, and the legal 
services developer program. They also call for $45.5 million 
for the ombudsman program to help meet a goal of the Institute 
of Medicine, which calls for one ombudsman per every 2,000 
nursing home residents.
    Finally, the National Center on Elder Abuse and the 
National Long-Term Care Ombudsman Resource Center need to 
continue and each should be funded at $1 million a year. They 
are both critically important to research and practice.
    The Elder Justice Coalition also hopes this committee will 
again adopt its version of the Elder Justice Act. The 
bipartisan and comprehensive Elder Justice Act has been 
introduced as S. 2010 by Senators Hatch and Lincoln. It would 
greatly expand and better coordinate our Federal response to 
elder abuse, neglect, and exploitation, and provide a dedicated 
funding stream for adult protective services, the front line of 
response to the estimated 80 percent of elder abuse cases which 
occur in noninstitutional settings. APS's main funding source 
is the Social Services Block Grant, which President Bush just 
proposed to cut by an unconscionable $500 million.
    Combine the 1,200 delegates to the White House Conference 
on Aging, the Elder Justice Coalition, and the LCAO and you 
have quite a powerful and bipartisan group of American 
constituencies calling for the same end, more resources to 
address elder abuse.
    S. 2010 notes with chilling simplicity, victims of elder 
abuse, neglect, and exploitation are 3.1 times more likely to 
die at an earlier age than expected compared to elders who are 
not victims. Is there a more compelling call to action than 
that? Thank you.
    Chairman DeWine. Thank you.
    [The prepared statement of Mr. Blancato follows:]

                   Prepared Statement of Bob Blancato

    Senators Enzi, Kennedy, DeWine, and Mikulski, and members 
of the committee. As national coordinator of the 440 member 
bipartisan Elder Justice Coalition, I appreciate the invitation 
to share views on the impending Older Americans Act 
reauthorization especially as it relates to Title VII 
Allotments for Vulnerable Elder Rights Protection Activities. I 
also serve as the Immediate Past President of the National 
Committee for the Prevention of Elder Abuse.
    This 15th reauthorization of the Older Americans Act may 
provide one of the key opportunities for Congress to recommit 
itself to the prevention of elder abuse, nearly 15 years ago 
after title VII was added to the act.
    Since the last reauthorization in 2000, reported cases of 
elder abuse have clearly risen in our Nation. The most recent 
indication comes from a new study released by the National 
Center on Elder Abuse. It points to a 19.7 percent increase in 
reports of elder and vulnerable adult abuse and neglect cases 
since 2000 as reported to adult protective services. The study 
also cites a 15.6 percent increase in substantiated cases.
    The reality is this is only one dimension of elder abuse 
incidence. There are other reporting entities not reflected in 
this study. Furthermore as the Senate Special Committee on 
Aging has reported in the past there may be as many as 4 times 
as many elder abuse cases that go unreported. Using their 
figures on reported cases from the only incidence and 
prevalence study we may be dealing with as many as 500,000 
reported cases and upwards of 5 million overall.
    For the moment there is only one Federal program that 
dedicates categorical funds for elder abuse prevention and that 
is title VII. It was made a separate title by Congress to 
consolidate and expand certain programs that focus on the 
protection of the rights of older persons which had been 
previously under title III. Its mission and purposes are sound. 
Its resources are not. The entire title VII of the act has a 
current appropriation of just over $20 million. Especially 
woeful is the $4.8 million for the elder abuse prevention 
program in the title which broken down by State rounded means 
$206,000 for Ohio, $87, 000 for Maryland, $26,000 for Wyoming 
and $116,000 for Massachusetts.
    In fact, two of the sections of title VII, the Native 
American program and the Legal Services Developers have never 
received funding. That absence of funding needs to end this 
year.
    Clearly we support a stronger title VII with adequate 
funding to allow it to better accomplish its missions of 
supporting community-based elder abuse prevention programs, 
helping with better reporting data and aiding in raising public 
awareness through education. In title VII we need to commit 
more attention and resources to the alarming rise in self 
neglect cases in elder abuse.
    Central to a stronger title VII must be a strong Ombudsman 
program both State and local long-term care ombudsman.
    What is more central to a national elder abuse prevention 
strategy than the ombudsman program which involves dedicated 
individuals who identify, investigate and resolve complaints 
filed by or on behalf of elderly residents in long-term care. 
In this reauthorization process I urge the subcommittee to get 
direct input from State and local ombudsmen and make sure that 
title VII promotes a strong environment of autonomy for 
ombudsmen.
    Specifically the strategy to a stronger title VII is 
providing it with realistic funding levels to allow it to 
achieve the goal of enhancing the capacity of the aging network 
to develop and implement a comprehensive elder rights system 
over the coming years.
    The proposals put forth by the Leadership Council of Aging 
Organizations whose chair and a number of other members are 
here related to title VII deserve the very serious 
consideration. It is critical to set authorization levels high 
enough to send the proper signal to the Appropriations 
Committees of the importance of all of the title VII programs.
    In particular I would note their call for $10 million in 
funding for elder abuse prevention activities under title VII, 
$45.5 million in funding for the Long Term Care Ombudsman 
program which would take this program a long way to meeting a 
critical recommendation of the Institute on Medicine which 
recommended there be one ombudsman per 2,000 nursing home 
residents--$10 million in funding for the Native American 
Organization provisions and $10 million in funding for the 
Legal Services Developer program.
    There will be guaranteed returns on this investment of 
Federal money. These funds will lead to clear outcomes--better 
training of law enforcement and medical personnel and others 
who come in regular contact with the elderly to be able to 
detect possible elder abuse. These funds will lead to the 
bolstering in some cases and the establishment in other cases 
of local-based multidisciplinary teams formed to help combat 
elder abuse in the community. They will lead to the hiring of 
more ombudsmen and can lead to better reporting of elder abuse, 
which is so crucial.
    I remember presenting testimony to this committee back in 
September of 2003 and noting that a new commitment to elder 
justice--the right of older Americans to be free from abuse, 
neglect and exploitation is as important as any initiative that 
has been undertaken to improve the quality of life for seniors 
in need.
    A good first step would be to accomplish the 
reauthorization of the Older Americans Act with a commitment to 
a stronger title VII. It should be about taking those steps to 
allow a comprehensive elder rights system to be developed and 
advanced at the State and local level through the aging 
network. Also under title II we need to continue the National 
Center on Elder Abuse and hope it too can receive a modest 
increase in its authorization. This call for a prompt and 
purposeful reauthorization of the Older Americans Act was the 
top vote getting resolution at the recent 2005 WHCOA.
    The Elder Justice Coalition also hopes that this committee 
will again move forward and adopt its version of the Elder 
Justice Act either in conjunction with the Older Americans Act 
reauthorization or separately.
    This committee in 2004 reported out S. 2940 the Act for 
Elder Justice unanimously.
    This followed a unanimous reporting out of S. 333 the Elder 
Justice Act by the Finance Committee. The 108th Congress did 
adjourn before taking final action on the bills.
    Our Coalition is pleased that Senators Hatch together with 
Senators Lincoln, Smith and Kohl have introduced S. 2010. It is 
now and always has been a bi-partisan bill which would greatly 
expand and better coordinate our Federal response to the 
problems of elder abuse neglect and exploitation.
    When a new bill is considered by this committee related to 
elder justice we hope it maintains the essential feature 
supported by the administration of enhancing the existing 
authority of AOA to raise awareness about elder abuse, promote 
coordination and support intervention efforts. We also hope it 
will take the critical step of creating a specific Office of 
Elder Justice within the Department--the precise location to be 
at the discretion of the Secretary.
    We also hope that this legislation as well as anything done 
on reauthorization of the OAA recognizes the critical role of 
adult protective services in the prevention of elder abuse, 
neglect and exploitation. In the previously mentioned national 
Incidence and Prevalence study, it noted that 80 percent of 
elder abuse occurs in home settings, not institutions; Adult 
Protective Services is the entity best trained and able to work 
to respond, aid in reporting and help victims of this more 
common form of elder abuse.
    Although not the direct jurisdiction of this committee the 
Elder Justice Coalition does want to reiterate its support for 
a dedicated funding stream for adult protective services in the 
future. This is especially critical in light of the proposed 
$500 million reduction offered in the President's budget for 
the Social Services Block Grant which is the largest source of 
funding of adult protective services.
    The delegates to the White House Conference on Aging 
actually spoke twice on the subject of elder abuse prevention. 
Their top resolution as mentioned called for the prompt 
reauthorization of the OAA including Title VII. They also 
adopted a resolution entitled Create a National Strategy for 
Promoting Elder Justice through the Prevention and Prosecution 
of Elder Abuse. It ranked number 15 of the 50 resolutions 
adopted.
    When you combine the 1,200 delegates to the White House 
Conference on Aging, the more than 430 members of the Elder 
Justice Coalition and the Leadership Council of Aging 
organizations you get quite a powerful and bi-partisan group of 
American constituencies calling for the same end: more 
resources to address elder abuse in this country.
    There is a finding in the opening pages of S. 2010 which to 
me says with chilling simplicity the ultimate consequence of 
elder abuse. It states ``that victims of elder abuse, neglect 
and exploitation are 3.1 times more likely to die at an earlier 
age than expected than elders who were not victims of elder 
abuse, neglect and exploitation.''
    This compels us to move forward on the Older Americans Act 
and the Elder Justice Act.
    Thank you.

    Chairman DeWine. Mr. Lacayo.

 STATEMENT OF CARMELA G. LACAYO, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, NATIONAL ASSOCIATION FOR HISPANIC ELDERLY, PASADENA, 
                           CALIFORNIA

    Ms. Lacayo. Buenes tardes. I am Carmela Lacayo, President, 
CEO, and founder of the National Association for Hispanic 
Elderly. Thank you, Senator Mikulski and Senator DeWine, for 
inviting me to present testimony on the reauthorization of the 
Older Americans Act. For the last 35 years, I have been through 
the process of reauthorizations, and believe me, it is a 
process many years.
    My comments are expanded in the written testimony we have 
submitted for the record. I am going to be very brief in 
summarizing some of the key important issues that our 
organization is concerned with.
    Congress, in our view, has wisely included targeting 
language historically in the Older Americans Act to direct 
services to those seniors with the greatest economic and social 
needs, with particular attention to low-income aged minorities. 
This language recognizes that there are not sufficient Older 
Americans Act moneys to reach all older Americans. The 
targeting language has helped to focus Older Americans Act 
services on those seniors with the greatest needs. 
Additionally, the targeting language has improved minority 
participation in Older Americans Act programs. This language is 
extremely important to our organization and we urge that it be 
retained.
    Because of limitations of time, I am going to direct my 
remarks to the Senior Community Service Employment Program. 
There are four points that I wish to bring to the attention of 
the committee.
    First, the value and worth of title V has been amply 
demonstrated for low-income senior workers, the communities 
they serve, and our Nation. The Senior Community Service 
Employment Program has been independently evaluated on numerous 
occasions and it has always received high marks. The existing 
State sponsor partnership has worked extraordinarily well and 
Congress should continue this winning approach.
    Second, there is an old adage that one should not attempt 
to fix what is not broken. This clearly applies to the SCSEP 
and especially the proposal to de-nationalize title V and turn 
the program over to the States. We oppose this proposal. There 
is no authoritative research to support this change. Quite to 
the contrary, independent evaluations have given high marks to 
the existing SCSEP. We urge Congress to maintain the existing 
State-national organization partnership.
    Third, Congress should continue the longstanding basic 
principles that have contributed to title V success. These 
bedrock principles include targeting older Americans with poor 
employment prospects, serving minorities, limited English 
speaking, and other individuals with the greatest economic and 
social needs, at least in proportion to their numbers in each 
State, retaining and enhancing the community service aspect of 
the SCSEP.
    Fourth, we urge Congress to avoid taking specific actions 
which would be harmful to the SCSEP. Title V should not be 
folded or forced into the Workforce Investment Act, WIA. The 
Association is aware that some people will argue that it is 
better to have all employment and training activities under one 
roof. Congress tackled that very issue more than 30 years ago 
and wisely decided that a Senior Community Service Employment 
Program was needed to serve low-income persons 55 or older with 
poor employment prospects. General job training programs 
enacted after the passage of the Older Americans Community 
Service Employment Act, such as JTPA, CETA, and now WIA, do not 
have a good record of reaching out and serving older workers, 
particularly low-income disadvantaged older Americans.
    Just 2 seconds. Title V differs from the conventional 
training programs under the direction of the Department of 
Labor, such as WIA. The SCSEP combines community service with 
employment and training for low-income seniors. DOL wants to 
model the title V after WIA. We think the opposite should 
occur. WIA should model itself after the SCSEP and its success 
with older workers.
    Our view is that SCSEP has been a far more effective 
program in achieving its objectives than WIA has. We urge 
Congress not to further the WIA-fication of the SCSEP.
    [Laughter.]
    Ms. Lacayo. In conclusion, the value and worth of the SCSEP 
and other Older Americans Act programs have been amply 
demonstrated throughout the history of the Older Americans Act, 
and I believe in my--well, I am young--Hispanics age 
gracefully--that the Older Americans Act, next to the Medicare 
Act and the Social Security Act, are the preeminent legislation 
that really allow older Americans to live their life with a 
little bit of dignity, and I say a little bit because we see 
the cutbacks and the problems facing so many of our service 
providers.
    Thank you very much, Senators.
    Chairman DeWine. Thank you.
    [The prepared statement of Ms. Lacayo follows:]

                Prepared Statement of Carmela G. Lacayo

    Mr. Chairman and members of the Health, Education, Labor and 
Pensions Committee, the National Association for Hispanic Elderly 
(Asociation Nacional Pro Personas Mayores) appreciates the opportunity 
to participate in the roundtable discussion concerning the 
reauthorization of the Older Americans Act (OAA).

              A. OAA SERVICES BENEFIT SENIORS IN MANY WAYS

    At the outset, we wish to express our strong support for the OAA 
and the vital services that it provides to seniors throughout our 
Nation. The OAA continues to be the primary source for funding 
supportive and nutrition services for people 60 years of age or older. 
These services--such as homemaker or home health care--have enabled 
seniors to live independently in their communities, rather than being 
placed prematurely, and sometimes unnecessarily, in a nursing home at a 
much higher public cost.
    Similarly, the national elderly nutrition program, which is 
probably the most visible title III services program, provides millions 
of home-delivered and congregate meals to older Americans each year. 
Quite often, this program delivers the only nutritious meals that 
seniors will receive on a particular day.
    Participants in the Senior Community Service Employment Program 
(SCSEP) have been enormously helpful in contributing to the noteworthy 
achievements of the OAA congregate meals and home-delivered meals 
programs. These nutrition programs, which have helped millions of older 
Americans over the years, could not have achieved their current success 
without the exceptional assistance from title V participants.
    The OAA also helps seniors access needed services. Routine tasks 
for most Americans--such as shopping, visiting friends or going to the 
doctor--can become formidable challenges for aged individuals without a 
car or suitable public transportation. Unfortunately, far too many 
older Americans live under a form of ``house arrest'' because public 
transportation is often unavailable, inaccessible, or too expensive. 
OAA transportation services have helped elderly people in numerous ways 
and have made it easier for these individuals to cope with the 
challenges related to advancing age.

   B. SERVING MINORITIES MORE EFFECTIVELY THROUGH TARGETING LANGUAGE

    Congress, in our view, has wisely included targeting language in 
the OAA to direct services to those seniors with the greatest economic 
need and greatest social need, with particular attention to low-income 
aged minorities. This language recognizes that there are not sufficient 
OAA resources to reach all older Americans. The targeting language has 
helped to focus OAA services on those seniors with the greatest needs. 
Additionally, the targeting language has improved minority 
participation in OAA programs. A good example is the SCSEP which had 
nearly a 45 percent minority participation rate for the program year 
ending June 30, 2004--the most recent year that official public 
information is available.
    We urge the Congress to retain the existing targeting language 
because it has directed additional services to those seniors who are 
truly needy. Earlier equity studies conducted for the Administration on 
Aging (AOA) found that aged minorities have a much greater need for 
services than non-minority seniors--oftentimes two to three times as 
great as for the Anglo aged. One important reason is that older 
minorities have a poverty rate that is typically two to three times as 
great as for Anglo seniors. Moreover, elderly minorities have a much 
lower level of educational attainment than the Anglo aged. A large 
proportion of older Hispanics has limited English-speaking ability, 
which exposes them to a multiple form of jeopardy because of their age, 
minority status, and communications skills.
    We reaffirm our support for maintaining the existing targeting 
language and oppose any efforts to dilute or otherwise undercut this 
essential language.

                            C. COST SHARING

    The 2000 OAA Amendments authorized cost-sharing for certain 
services under certain conditions. We opposed this measure because it 
can discourage minority participation in OAA services programs, despite 
some of the safeguards written into the law. We want to make certain 
that the existing cost-sharing language does not, in any way, 
discourage or reduce minority participation in supportive services 
programs. Furthermore, we want to assure that waivers from cost-sharing 
are granted when a significant percentage of older Americans in the 
planning and service area have incomes below the cost-sharing 
threshold, and cost-sharing would be an unreasonable administrative or 
financial burden upon the area agency on aging (AAA).
    Existing law requires States and AAAs to develop plans prior to 
implementing cost-sharing to ensure that participation of low-income 
older individuals, with particular attention to low-income minorities, 
will not decrease because of the cost-sharing. AOA must enforce this 
measure fully and vigorously. Similarly, AOA must be vigilant in taking 
corrective action to provide services without cost upon a finding that 
cost-sharing is having a disparate impact upon the participation by 
low-income and minority older individuals. In short, we call upon AOA, 
State offices on aging, and AAAs to enforce the safeguards in the law 
to prevent a reduction in minority participation in OAA supportive and 
nutrition services programs.

           D. SCSEP: FINE TUNING RATHER THAN RADICAL OVERHAUL

    It appears now that the future direction for the SCSEP will be the 
most likely contentious issue for the reauthorization of the OAA.
    Title V, in our view, is the most successful employment and 
training program ever enacted for older Americans, especially for low-
income seniors with poor employment prospects. The SCSEP has been 
enormously effective for our Nation, low-income senior participants, 
and the numerous communities served by the SCSEP. It has been evaluated 
on numerous occasions and has always received positive marks, whether 
from independent evaluators, elderly participants, host agencies, or 
others.
    Title V has enabled low-income seniors to improve their economic 
well-being by helping others in their communities through the provision 
of much-needed services at libraries, hospitals, senior centers, 
nutrition sites and numerous other locations. Congress carefully 
crafted this program to address two crucial objectives:
    1. Self-help through employment and training opportunities for low-
income seniors who typically have poor employment prospects;
    2. The provision of vital community services that would normally 
not be available without the SCSEP.
    One of the hallmarks of title V is that it has given low-income 
seniors an opportunity to help themselves while helping others in their 
communities, rather than be dependent upon public assistance. It has 
taken some of the more disadvantaged older Americans in the United 
States in terms of limited educational attainment, outmoded work 
skills, or a long-term detachment from the labor force and helped to 
place them in gainful employment in our economy.

                1. AVOID DISRUPTIVE AND HARMFUL CHANGES

    We favor a fine-tuning approach for continuing the SCSEP, rather 
than proposing major changes. Congress made fundamental and far-
reaching changes for title V with the enactment of the 2000 OAA 
Amendments. The result has produced four new national sponsors, new 
regulations governing the program, a different and much more complex 
reporting system, more stringent performance standards, and a shifting 
of numerous older participants from one national sponsor to another 
national sponsor. People who work with the program on a day-to-day 
basis and those who participate in community service employment need to 
reach a comfort level with the substantially revised SCSEP. They do not 
need more fundamental changes or a radical overhaul. This action would 
be harmful for the program, the low-income senior participants, and the 
communities that they serve. A fine-tuning approach is necessary to 
minimize disruption and to prevent title V's achievements from slipping 
or falling precipitously.
    In approaching this task, it is important to consider not only what 
should be done for the SCSEP but also what should not be done to the 
SCSEP. One important lesson is that what you do not do can be as 
important as what you do, and sometimes even more important.

            2. OPPOSITION TO ``DE-NATIONALIZING'' THE SCSEP

    There is an old adage that one should not attempt to fix something 
when it is not broken. This clearly applies for the SCSEP, and 
especially the proposal to ``de-nationalize'' title V and to turn the 
program over to the States. States would conduct periodic competitions 
under this approach.
    We oppose this proposal for several reasons:

    <bullet> There is no authoritative research to support this 
proposal. Quite to the contrary, prior independent evaluations have 
given high marks to the existing SCSEP, which operates successfully now 
as a national program with a national sponsor-state partnership.
    <bullet> Performance levels certainly do not justify this 
recommendation, primarily because national sponsors have consistently 
outperformed the States by most meaningful performance measurements. 
This is not meant to criticize States because they have a solid record 
in administering SCSEPs. National sponsors, though, have outperformed 
States according to key important standards. For example, national 
sponsors had a 30.6 percent unsubsidized placement rate for the program 
year ending June 30, 2004, compared to 26.8 percent for the States. 
National sponsors achieved this higher unsubsidized placement rate 
while serving more hard-to-place individuals on the basis of poverty 
status, lower levels of educational attainment, minority status, and a 
higher percentage of older participants.
    <bullet> A ``de-nationalized'' title V would become a balkanized 
program. It would lead to greater chaos and more disruption. The SCSEP 
has functioned well as a national program. It has operated as a 
successful partnership with national sponsors and States. Each party 
has something to offer to make the program operate more efficiently, 
effectively and successfully as well as to respond to the diverse 
population groups served by the SCSEP while meeting community service 
needs. For these reasons, the Asociacion urges Congress to maintain (1) 
the existing partnership between national sponsors and States and (2) 
the existing ratio of funding between national sponsors and States.

  3. OPPOSITION TO INCORPORATING SCSEP IN THE WORKFORCE INVESTMENT ACT

    The Asociacion urges the Congress to avoid taking two specific 
actions, which would be harmful for the SCSEP, the participants served 
by the program, and host agencies working with the program. First, 
title V should not be folded into the Workforce Investment Act (WIA). 
The Asociacion is fully aware that some people will argue that it is 
better to have all employment and training activities under one roof. 
They further maintain that there should not be separate programs for 
special groups. Congress tackled that issue more than 30 years ago and 
wisely decided that a SCSEP was needed for low-income people 55 or 
older with poor employment prospects because of their limited 
education, outmoded work skills, long-term detachment from the work 
force, and other limitations. Congress wisely opted for this approach 
when it became readily apparent that general employment and training 
programs oftentimes overlooked or ignored people 55 years of age or 
older. Congress realized that older workers were historically 
underserved by general employment and training programs. Congress was 
pragmatic in recognizing that employment service and national manpower 
activities placed a premium on serving younger workers because there is 
a mindset that these programs will receive ``more bang for the buck'' 
by focusing on youth and younger populations. General work and training 
programs enacted after passage of the Older American Community Service 
Employment Act--such as the Comprehensive Employment and Training Act 
(CETA), the Job Training Partnership Act (JTPA), and now WIA--do not 
have a good record of reaching out and serving older workers, and 
particularly low-income, disadvantaged older Americans with poor 
employment prospects. In fact, the unacceptably low participation rate 
for older workers in these programs following creation of the SCSEP is 
a powerful reason to continue the SCSEP in its current form, rather 
than have it subsumed in a comprehensive employment and training 
program. Unfortunately, the record is all too clear that older workers 
lose under comprehensive employment and training programs because their 
participation rates are unacceptably low. The harsh reality is that 
older workers will effectively be swimming upstream because of the 
employment service and manpower network's preoccupation with serving 
younger workers first and foremost. Low-income aged minorities, 
especially those with limited English-speaking ability, can be 
particularly disadvantaged when seeking assistance from general work 
and training programs.

           4. CONTINUE THE LONGSTANDING UNDERLYING PRINCIPLES

    Title V does not need a radical overhaul. A much sounder approach 
is to continue underlying core principles that have made the program 
successful. For example, the SCSEP should continue to target older 
Americans who have poor employment prospects. These individuals 
typically have the greatest need for training, employment or additional 
income. Quite often these people are simply not good candidates for 
employment in the private sector because they have outmoded work 
skills, a long-term detachment from the workforce, limited English-
speaking ability or other disadvantages. It is important to target the 
SCSEP's resources in the most cost effective manner because title V 
cannot possibly reach all the potentially eligible persons with 
existing funds now or those that will be available in the future. An 
emphasis on targeting those with poor employment prospects will help to 
assure that the SCSEP's funds are utilized effectively, efficiently, 
and in a cost-effective manner.
    Congress should continue the existing language directing SCSEP 
sponsors, to the extent feasible, to serve the needs of minority, 
limited English speaking people, and individuals with the greatest 
economic need at least in proportion to their numbers in the State 
where the project is located.
    One of the hallmarks of the SCSEP is the community service aspect 
through which title V SCSEP participants provide valuable services for 
aged community residents as well as the community at large. The 
Asociacion supports retention of the community service aspect for the 
SCSEP. We are opposed to any attempt to deemphasize community service 
under title V. Many important programs flourish or are helped 
significantly by the services provided by SCSEP participants. Congress 
should encourage community service activities under title V, rather 
than discourage them.
    Title V has been a very successful program for numerous important 
reasons. Congress targeted the program in a way to reach those with the 
greatest employment, training and income needs. Congress was also 
realistic in developing a pragmatic program that was responsive to the 
needs of the SCSEP's clientele. Congress created a program that merged 
two important concepts: (1) community service employment to make more 
community services available and (2) self-help for those who performed 
these services. Another key principle is to encourage people to move 
from the SCSEP to employment in the private or public sectors. This not 
only enables more low-income older Americans to participate in the 
SCSEP; it also permits them to earn more as full-time employees in the 
private or public sectors. Title V provides part-time community service 
employment as an incentive for participants to move into full-time 
employment in the private or public sectors. On the other hand, 
legislators who established the SCSEP recognized that there would 
probably be many participants who would not have a realistic prospect 
to find employment in the private or public sectors for a variety of 
reasons. Consequently, the leading sponsors of the SCSEP did not want 
the program to apply undue pressure to force these people out of the 
program. Thus, there was a reasonable and realistic balance established 
to be responsive to the program's goals and the participants' needs in 
the real world. These principles have worked well.

                   5. AOA SHOULD ADMINISTER THE SCSEP

    Title V differs from the conventional training programs under the 
direction of the Department of Labor (DOL), such as the Workforce 
Investment Act (WIA). The SCSEP combines community service with 
employment and training for low-income seniors with poor employment 
prospects. DOL wants to model Title V after WIA. We think the opposite 
should occur: WIA should attempt to be modeled more after title V. 
Moreover, general training programs, such as WIA, have had a poor 
record in serving older workers, and especially low-income seniors with 
poor employment prospects. Our view is that the SCSEP has been a far 
more effective program in achieving its objectives than WIA has.
    In addition, there seems to be a more natural bonding between the 
way title V operates, with its emphasis on community service, and AOA/
OAA programs under the direction of the aging services network at the 
State and local levels. This has been an extraordinarily effective 
partnership that has been a ``win-win'' proposition for all concerned. 
Title III Supportive and Nutrition Services programs have been able to 
reach out and serve many more older Americans, and more effectively. 
SCSEP participants have been able to improve their economic well-being 
while providing rewarding and valuable services in their communities.
    For these reasons, we recommend that the administration of the 
SCSEP be transferred from DOL to AOA. We strongly believe that this 
action would improve the administration of the program as well as its 
performance. Moreover, there is a more natural affinity between the 
objectives of the supportive and nutrition services activities of the 
AOA administered OAA programs and the SCSEP than there is between title 
V and WIA.

                             E. CONCLUSION

    In conclusion, the value and worth of the SCSEP and other OAA 
programs have been amply demonstrated throughout the history of the 
OAA. These programs deserve to be continued and expanded. The OAA 
should be extended for at least 4 years, and ideally for 5 years.
    We reaffirm that the SCSEP should be continued without major or 
fundamental changes to prevent disruption for the participants, the 
host agencies and the sponsors administering the program. All parties 
connected with title V have already made significant adjustments and 
sacrifices to conform to the 2000 OAA Amendments. Every effort should 
be made now to permit a comfort level to be reached for those 
participating in the SCSEP as well as those administering the program.

    Chairman DeWine. Mr. Fong.

  STATEMENT OF CLAYTON S. FONG, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, NATIONAL ASIAN PACIFIC CENTER ON AGING, SEATTLE, 
                           WASHINGTON

    Mr. Fong. Thank you, Mr. Chairman, Senator Mikulski. I want 
to begin by thanking you both for your leadership the last time 
we had the reauthorization. It was tough for a long time, and I 
think it was your joint bipartisan approach that really 
unplugged it and got it done quickly, on a timely basis, and we 
look forward to that happening again with the same players at 
the helm.
    I want to say, though, I think what we have seen is a 
demonstration of how 99.9 percent of this act, we all agree on, 
and it is Republican and Democrat, it is from different States, 
and it is from different parts of the country. We all agree on 
it 99.9 percent. So I won't talk about the 99.9 percent. We at 
the National Asian Pacific Center on Aging clearly support 
LCAO's principles and we have submitted that as part of our 
testimony, and I want to also point out that we have also 
submitted, 13 members of national organizations have also 
supported the Vision for America's Low-Income Senior Workers in 
their Communities, and I want to submit those as part of my 
testimony.
    I want to, though, focus on just a couple simple things, 
and that is, one, we all talk a lot about the aging of the baby 
boomers and the tremendous numbers that are coming about. Few 
of us talk about the changing face of that baby boom 
population. And a good example of that would be the Hispanic 
and the Asian community. At the same time as the plus-65 
population is going to grow, is going to double in size, the 
Asian and Hispanic elders are going to grow seven times faster 
and that is an astonishing number.
    So what are we going to do to be able to meet the needs of 
a different and more diverse population, as well? Probably the 
most key and fundamental issue is going to be language, so I 
want to talk a little bit about language and language capacity.
    In our communities, the Hispanic and Asian communities, 
fully 60 percent of elders do not speak English well, and one-
third live in a household where no adult speaks English, and 
those are astonishing numbers in terms of figuring out how to 
reach them and serving a population that is most vulnerable and 
not getting service.
    But it isn't just new immigrants. I want to use my dad as 
an example. He currently has Alzheimer's and is in a nursing 
home. He came here in 1949. He came here for the simple reason 
that he wanted his kids to have a better life, and I am a 
testament to that fact. However, because he came here as an 
adult, English will always be his second language, and now that 
he has got Alzheimer's, there are many times when he just goes 
back to his Chinese language and you can't treat him. It is 
literally veterinary medicine if you don't have the language 
capacity.
    But beyond that, I think that it is an example of how we 
have got to figure out how we best serve those most vulnerable 
and target those resources to those that have the greatest 
needs.
    I want to also mention the other area that I want to 
reemphasize and that is the Senior Community Service Employment 
Program. For us, the Older Americans Act and especially the 
Senior Community Service Employment Program have been, in the 
Asian community, an emerging community, a critical component to 
building an infrastructure for reaching and serving seniors who 
otherwise would not have been served. In our communities, we 
have not only language barriers, but most seniors in our 
community actually also don't have pensions and so they have to 
work longer. So the Senior Community Service Employment Program 
is absolutely critical to that.
    I will merely close with a couple of quick points. It is 
really important that we have a critical mass, and you all have 
seen wisely to make sure that there is a minimum critical mass 
available for the National Asian Pacific Center on Aging--well, 
for Asian and for Native American Indian elders, because there 
is a critical mass to language in serving a national program, 
so you have got to have big enough critical mass to figure out 
how to do that. You have got to have a big enough critical mass 
to figure out, how do you reach employers that will hire people 
that speak other than English.
    I also want to merely say that there is an economy of scale 
that exists for limited English-speaking elders, but it also 
exists for serving elders altogether, because there really is 
literally a disincentive to serve, I think, elders in the 
overall employment training programs because just placement, 
elders aren't going to be as easy a placement. And then if you 
speak limited English, it is even harder.
    The last point I will merely say is that the community 
service component and the placement of jobs are not mutually 
exclusive. SCSEP is a good example of how you can literally 
marry the two. The seniors get jobs where they can make a 
difference in their communities, and that is very simply what 
SCSEP is all about. Thank you.
    [The prepared statement of Mr. Fong follows:]

                   Prepared Statement of Clayton Fong
 
           National Asian Pacific Center on Aging,
                                         Seattle, WA 98101,
                                                 February 14, 2006.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, D.C. 20510.

    Mr. Chairman, members of the committee, and fellow aging advocacy 
colleagues. My name is Clayton Fong and I have the distinct honor 
serving as the Executive Director of the National Asian Pacific Center 
on Aging (NAPCA). I appreciate the opportunity to offer comments on the 
reauthorization of the Older Americans Act from the perspective of the 
seniors I serve--Asian and Pacific Island Americans.
    NAPCA is dedicated to the needs and concerns of Asian and Pacific 
Island seniors in the United States. As an organization, we have long 
held ``improved access to eligible services'' as the focal point for 
our mission. NAPCA serves as one of the 13 national SCSEP sponsors. The 
SCSEP is critically important for our seniors and we would like to see 
it continue to serve this growing and diverse segment of senior 
Americans.
    NAPCA supports the basic reauthorization principles articulated by 
the Leadership Council on Aging (LCAO) of which we are a member. Rather 
than going into these principles, I attach them for the record and 
focus my comments on a single component of the Older Americans Act--
Title V, the Senior Community Service Employment Program (SCSEP). This 
particular program illustrates the nature of work of organizations such 
as ours who are committed to serving elders. SCSEP is directed to a 
particularly difficult to serve segment of senior Americans--low-income 
seniors. While all low-income seniors are difficult to serve, Asian 
Pacific Islanders are especially difficult to serve.
    Presently there are approximately 1,100,000 API elders 65 and over 
that live and work in the United States. This population is expected to 
grow faster than any other minority group over the next decade. This 
increase in population is likely to include increasing diversity among 
API ethnic groups, languages, and nationalities. This diversity is 
magnified by differences in immigration history, citizenship status, 
English proficiency and by life-span experiences. These experiences 
impact life chances and influence how APIs enter and experience old age 
and aging.
    These differences also make it difficult to serve this community. 
Over 70 percent of all APIs are foreign born, 80 percent of API elders 
speak a language other than English and a third live in a household 
where no adult speaks English. Language proficiency has a significant 
impact on an API elder's experiences. According to the Census Bureau 60 
percent of all API elders are limited English proficient (LEP). That 
percentage is higher for certain ethnic groups especially SE Asians, 
and Koreans. Not surprisingly, an API elder survey conducted in 1998-
1999 by NAPCA in five urban areas found that language barriers ranked 
highest among many unmet needs.
    These elders, who tend to be the most vulnerable, will face 
daunting challenges in understanding what changes are being made to the 
social and health-related programs on which they depend. While 
mainstream seniors might be aware of such services through mailings, 
news media, and television, Asian Pacific elders can seldom be reached 
through these vehicles. This segment of older Americans requires more 
direct and continuous attention than those in the mainstream. NAPCA is 
committed to improving Asian and Pacific Islander Americans' access to 
the benefits for which they are eligible.
    NAPCA is one of the national sponsors actively participating in 
SCSEP. We have chosen to operate our efforts by collaborating with 
existing community-based organizations rather than having stand-alone, 
NAPCA-staffed SCSEP programs in those communities with large Asian and 
Pacific Islander senior populations. We feel this approach is not only 
cost effective but also enhances the capacity of community-based 
organizations to serve seniors.
    NAPCA along with the National Indian Council on Aging (NICOA) are 
the two smallest national sponsors in terms of allocation of enrollees. 
Because both programs have a national focus and literally operate in 
locations across the United States, these programs can only be cost 
effective if there are a sufficient number of enrollees over which to 
spread fixed costs of administration and management. If the number of 
enrollees allocated to these smaller programs fall below this 
``critical mass'' level, program costs per enrollee would make the 
program impractical.
    We aggressively defend the need for a national sponsor, such as 
NAPCA, dedicated to serving Asian and Pacific Islander Americans since 
just the language barriers for this segment of seniors make it 
impractical, if not impossible, for mainstream organizations to serve 
our constituents. Clearly, there are economies of scale in having a 
national organization such as ours serve as a clearing house of 
information and regulatory requirements so that our constituents have 
an understanding of options and can make more informed choices. NAPCA 
operates as a clearing house in the sense that we translate difficult-
to-understand information and regulations into forms that are easily 
understood and used by senior Asian and Pacific Islander Americans.
    I submit that without a national sponsor focusing on the API 
seniors, this segment of the senior population would be underserved. 
This is not because States and other sponsors do not want to serve our 
constituents; it is simply because the prominent language and cultural 
diversity of API seniors make them a difficult group to serve.
    Replacing the national sponsors with a block grant to the States 
would inevitably displace many low-income seniors, and particularly 
aged minorities. States will simply not be able to locate projects in 
areas where there are high concentrations of minorities to the same 
extent that national minority aging organizations currently do. 
Additionally, States would be unable to duplicate the language capacity 
of the existing minority networks at a level that would sustain the 
existing 1,000 API seniors that are served every year.
    Simply put, national minority aging contractors are more effective 
than States in representing the interests of minority enrollees and 
involving minority host agencies in the SCSEP. We have a better track 
record. We have the respect and confidence of the minority community. 
In short, minority seniors will not be adequately served without the 
continued levels of support for the national organizations that are 
dedicated to the needs and concerns of minority seniors.
    Finally, why block grant this program when national sponsors have 
outperformed the States by virtually every single important measurable 
barometer, including unsubsidized placements, fully utilizing allocated 
funds, and serving older Americans with the greatest needs in terms of 
poverty status, limited education, and advancing age?
    In the reauthorization of the Older Americans Act, NAPCA urges the 
committee to retain Sections 506(a)(2) and 506(a)(3) relating to 
Reservations for Territories and Organizations. Without this section of 
the law, low-income Asian and Pacific Islander Americans will be less 
likely to be served. Second, we also urge the committee to require that 
the Federal agency administering SCSEP take into account the specific 
economic and cultural environment of seniors in assessing and 
evaluating placement in unsubsidized employment. Placement rates tend 
to move in concert with employment rates in a community; and, community 
differences must be accounted for in program evaluation and assessment. 
Finally, we cannot overemphasize the importance of the dual nature of 
SCSEP. Community service and employment training are a powerful 
combination.
    NAPCA recently participated in discussions of SCSEP with other 
aging organizations on ways to improve how we serve low-income seniors. 
The outcome of this self-evaluation and forward looking discussion is 
contained in a statement entitled ``A Vision for America's Low-Income 
Senior Workers and Their Communities'' which I endorse and include for 
the record.
    Mr. Chairman and members of the committee, I thank you for the 
opportunity to offer my views on behalf of Asian and Pacific Islander 
seniors.
 a vision for america's low-income senior workers and their communities
    The following statement was adopted at a meeting held January 10, 
2006, of the 13 national grantees funded by the U.S. Department of 
Labor.
    For 40 years, the Senior Community Service Employment Program 
(SCSEP) has provided part-time employment in a wide range of nonprofit 
and public agencies to low-income adults 55 and over. Every year, more 
than 100,000 older adults with poor employment prospects and the 
greatest need are able to re-enter the labor force. As extra help, 
SCSEP participants enable thousands of community and faith-based 
organizations to provide vital public services that would not otherwise 
be available to other needy seniors, children, and the general public.
    The 2000 reauthorization of the Older Americans Act kept SCSEP 
intact while strengthening program accountability and the role of State 
Governments. Congress concluded that SCSEP is an efficient and cost-
effective program, serving practically every county in the Nation, 
including hard-to-serve rural and urban communities.
    The 2005 White House Conference on Aging recognized that SCSEP 
ensures that ``the oldest, poorest and least skilled older workers do 
not fall through the cracks.'' Across the aging network, there is broad 
support for continuing SCSEP--with minor refinements--as our Nation's 
most effective workforce program serving the most vulnerable older 
Americans.

  PRINCIPLES TO GUIDE SCSEP REAUTHORIZATION (TITLE V, OLDER AMERICANS 
                                  ACT)

    1. Target services to older persons with the greatest economic and 
social need--including those from minority, rural, and urban hard-to-
serve communities--by keeping the current age and income eligibility 
requirements.
    2. Maintain and enhance the community service employment aspect of 
the program in addition to promoting economic self-sufficiency among 
participating seniors.
    3. Maximize expenditures on participant wages and benefits and 
minimize administrative costs by retaining current policy on program 
budgets.
    4. Support best practice and avoid disruption in the program by 
continuing to fund both national and State/territorial grants to 
operate SCSEP.
    5. Strengthen the role of the Administration on Aging in SCSEP.

                     POSSIBLE REFINEMENTS TO SCSEP

    1. Amend section 502(e) to remove disincentives for private 
business concerns, community colleges, and other training providers to 
participate in innovative training and placement activities for SCSEP 
participants.
    2. Fully implement a ``balanced scorecard'' to measuring SCSEP 
grantee performance that reflects Congressional intent, including 
service level to most-in-need, unsubsidized placement, and community 
service.
    3. Streamline performance data collection.
    4. Provide sufficient funds to respond to the projected increase in 
SCSEP-eligible persons.
    This approach would respect Congressional intent in 2000 to update 
SCSEP without disrupting a proven program has evolved to meet changing 
needs since its inception. Adopting these principles and refinements 
will enable SCSEP to serve the most vulnerable and hardest-to-serve 
older adults in a cost-effective, research-validated, and high-quality 
manner for the remainder of this decade.

                               RATIONALE

    1. The number of older adults in poverty and at risk will increase 
significantly, according to the Census. By 2008 there will be 6.7 
million persons aged 55 or over below poverty, a 22 percent increase 
from 5.5 million in 2000; by 2015, this number will increase to 9 
million low-income older Americans. Clearly the need for SCSEP is 
growing.
    2. Current research about productive aging, employment, and civic 
engagement supports the validity of paid community service employment 
to assist older adults at risk. Working in bona fide part-time jobs 
provides not only needed financial aid but also contributes to 
participants' physical and mental well being, helping them avoid 
becoming increasingly dependent on others.
    3. SCSEP does more than help older job seekers find employment--it 
directly supports the day-to-day operation of thousands of community 
and faith-based organizations and Government agencies. According to 
USDOL, 70 percent of these agencies reported that they would not have 
been able to provide the same level of services without SCSEP. Last 
year alone, SCSEP participants provided these agencies close to 46 
million hours of paid community service. For instance, SCSEP 
participants and staff work as the primary older worker specialists at 
many WIA One Stops and have helped meet the increased demand for social 
services as a result of Hurricane Katrina.
    4. SCSEP serves over 100,000 persons 55 and over each year, over 
twice as many as those served by WIA. Further, SCSEP serves a more 
needy population: about over 70 percent of all SCSEP participants are 
women; over 80 percent are 60 and older; over 80 percent are at or 
below poverty, about one-third have less than a high school education; 
and over 40 percent are from a minority group. In contrast, WIA 
nationally serves less than 4,000 persons 65 and over of any income and 
education level (likely due to performance disincentives currently 
built into WIA, according to GAO Report 03-350). In fiscal year 2004, 
national and State/territorial SCSEP grantees achieved ACSI customer 
satisfaction scores that were ``substantially higher'' than scores for 
WIA, and better than most organizations in the private sector.
    5. The 13 national grantees (selected by USDOL through a national 
competition in 2003) add significant value to the total SCSEP program 
and delivery system. They develop and replicate successful program 
models by partnering with national-level corporations, employer 
associations, social service agencies, and other providers. These 
national nonprofit organizations strengthen SCSEP at the State and 
local level by sharing best practices on serving hard-to-reach rural 
and urban communities, including minority and immigrant groups; 
collaborating with WIA One Stops, area agencies on aging, etc.; and 
leveraging local resources to support SCSEP. National SCSEP grantees 
represent unmatched expertise and experience that would be difficult to 
replace.
    6. Since USDOL did not issue final regulations for SCSEP until 
2004, many of the initiatives and improvements embodied in the 2000 
reauthorization are only starting to take effect. For instance, the 
reauthorization requires stronger national and State grantee 
coordination, but the improved State planning process has been in place 
for only 1 year. At the request of the Senate Special Committee on 
Aging, GAO is conducting a review of SCSEP since the 2000 Amendments. 
It would be premature to make major changes without full implementation 
of Congressional intent from the last reauthorization in 2000.

    [Editors Note--LCAO Older Americans Act Reauthorization 
Recommendations can be found with the statement of Barbara B. 
Kennelly.]

    Chairman DeWine. Mr. Kourpias.

   STATEMENT OF GEORGE J. KOURPIAS, PRESIDENT, ALLIANCE FOR 
               RETIRED AMERICANS, WASHINGTON, DC.

    Mr. Kourpias. Thank you very much for this opportunity, and 
let me say that the Alliance for Retired Americans will submit 
further testimony here.
    The Alliance for Retired Americans is a nationwide 
grassroots organization that advocates on behalf of older 
Americans. The Alliance represents some three million retired 
workers and our mission is to support public policy that 
protects the health and economic security of this country's 
senior citizens. We teach seniors they can and should make a 
difference in their lives through activism, and it is this 
activism that we harness to help preserve and protect that 
which makes a difference in the lives of older Americans.
    I am here today to say that the Older Americans Act, from 
which the Alliance receives no money nor do we administer OAA 
programs, is a perfect example of legislation that has made an 
enormous positive difference in the lives of millions of 
seniors. Designed to promote the dignity and the independence 
of older people, this landmark legislation has resulted in the 
creation of a broad range of indispensable and, some would say, 
life-saving services for older adults and their caregivers. 
Thanks to the Older Americans Act, American seniors can today 
live independent and dignified lives as members of their 
communities for as long as possible.
    I hear time and time again what a difference the program 
made possible by the Older Americans Act has made in the lives 
of our Alliance members. Food arrives with a knock at the door 
from Meals On Wheels. Doctor visits are possible, and 
prescription drugs can be picked up at the pharmacy thanks to 
transportation. And if you or your family member are in a long-
term care facility and have a problem, thanks to the Older 
Americans Act, you today have legal recourse to resolve their 
issue.
    I can't imagine what would happen if these folks didn't 
have these services to count on. Programs and services funded 
by the Older Americans Act are not only life savers for 
seniors, but they save the Federal Government and taxpayers the 
high costs of institutional care. This cost savings is destined 
to deliver an even better return in the not-too-distant future 
because home- and community-based support services will become 
even more essential as the baby boomers start to age.
    Just last month, there was a great fanfare when the first 
of 77 million baby boomers turned 60. This huge increase in the 
aging population will have a direct and dramatic impact on 
every community, county, and city in this country for decades 
to come.
    What this should be telling us is that now is the time to 
plan for expansion in the adequate health and support services. 
We should not be debating cutting or curtailing these essential 
programs. The reauthorization of the Older Americans Act 
provides Congress the opportunity to do what is right for 
today's aging population, as well as for tomorrow's new 
seniors. It is my hope that as Congress debates measures 
designed to reduce the deficit, it resists the temptation to 
cut or eliminate programs that help millions of needy older 
Americans.
    I am especially concerned that the Senior Community Service 
Employment Program remain intact. Thanks to this program, more 
than 100,000 of the country's neediest seniors are given part-
time jobs, and last year alone, seniors in this program 
provided close to 46 million hours of paid community service.
    The Older Americans Act created vital programs and services 
that millions of Americans count on daily to survive. It, too, 
deserves to survive. Thank you very much.
    [The prepared statement of Mr. Kourpias follows:]

                Prepared Statement of George J. Kourpias

    Good afternoon Senators. I am George Kourpias, President of the 
Alliance for Retired Americans. We are a nationwide, grassroots 
organization that advocates on behalf of older Americans. The Alliance 
represents more than 3 million retired workers, and our mission is to 
support public policy that protects the health and economic security of 
this country's senior citizens.
    We teach seniors they can and should make a difference in their 
lives through activism. And it is this activism that we harness to help 
preserve and protect that which makes a difference in the lives of 
older Americans.
    I am here today to say that the Older Americans Act is a perfect 
example of something that has made an enormously positive difference in 
the lives of millions of seniors. Designed to promote the dignity and 
independence of older people, this landmark law has resulted in the 
creation of a broad range of indispensable, some would say life saving, 
services for older adults and their caregivers.
    The Alliance does not receive funding, nor do we administer 
programs, through the Older Americans Act. Many of our members receive 
the benefits of this law in their everyday lives. And many of our 
members volunteer in Older Americans Act programs as well.
    Thanks to the Older Americans Act, American seniors can today live 
independent and dignified lives as members of their communities for as 
long as possible. I hear time and time again what a difference the 
programs made possible by the Older Americans Act have made in the 
lives of our Alliance members.
    Food arrives with a knock at the door from the ``Meals on Wheels'' 
programs. Older Americans Act transportation programs provide visits to 
the doctors or prescription pick-ups at pharmacies. Ombudsman programs 
for long-term care provide the peace and comfort that family members 
need when a loved one is in a long-term care facility.
    This past December, delegates to the White House Conference on 
Aging, which several dozen Alliance members attended as delegates, 
voted as their number one resolution that the Older Americans Act be 
reauthorized within the first 6 months following the Conference.
    But what the Older Americans Act makes possible is more than just 
health and supportive services. It is, for millions of American 
seniors, the very reason they can continue to live their independent 
lifestyles. It allows them to remain part of their communities.
    Without the programs funded by the Older Americans Act, far too 
many elderly citizens would have little choice but to pack up their 
homes and lives and move to hospitals or nursing homes. Programs and 
services funded by the Older Americans Act are not only lifesavers for 
seniors, but they save the Federal Government and taxpayers the high 
cost of institutional care. This cost savings is destined to deliver an 
even better return in the not too distant future. Home- and community-
based support services will become even more essential as the baby 
boomers start to age.
    The Older Americans Act also supports the Senior Community Service 
Employment Program (SCSEP), which provides part-time jobs to 100,000 of 
the most needy seniors each year. Participants in this program work 
directly for thousands of community and faith-based organizations and 
Government agencies. According to the United States Department of 
Labor, 70 percent of these agencies reported that they would not have 
been able to provide the same level of services without SCSEP. Last 
year alone, SCSEP participants provided these agencies close to 46 
million hours of paid community service. This cost-effective program 
needs to be continued without any major changes.
    Also, the number of older adults in poverty and at risk will 
increase significantly, according to the Census. By 2008 there will be 
6.7 million persons aged 55 or over below poverty, a 22 percent 
increase from 5.5 million in 2000; by 2015, this number will increase 
to 9 million low-income older Americans. Clearly the need for SCSEP is 
growing.
    Just last month there was great fan fare when the first of the 77 
million baby boomers turned 60. This seismic increase in the aging 
population will have a direct and dramatic impact on every community, 
county, city, and State in this country for decades to come. Everything 
from transportation to health, from recreation to workforce development 
and housing will be impacted.
    What this should be telling us today is that NOW is the time to 
plan for a dramatic expansion in adequate health and support services. 
We should NOT be debating cutting or curtailing these essential 
programs. The reauthorization of the Older Americans Act provides 
Congress the opportunity to do what is right for today's aging 
population as well for tomorrow's ``new seniors.''
    The baby boomers are real, but we cannot ignore the fact that the 
fastest growing segment of our population today is people over 85. 
Congress must provide for adequate funding to keep seniors independent 
and productive. And it must ensure that the necessary system of 
services is in place to meet both current and future needs.
    I have seen what programs created by the Older Americans Act do to 
improve the quality of living for today's older Americans. And it is my 
hope that as Congress debates measures designed to reduce the deficit, 
it resists the temptation to cut or eliminate programs that help 
millions of older Americans.
    The Older Americans Act created vital programs and services that 
millions of Americans count on daily to survive. It deserves--and the 
Alliance for Retired Americans supports--a prompt reauthorization.
    Thank you for allowing me to testify before the committee today.

    Chairman DeWine. This has been very good, very, very 
helpful. We have got just a couple minutes left. I think it 
could be helpful if we could just kind of open it up, if 
anyone--Barbara, if you have any questions, but I thought we 
would just kind of open it up if anybody wants to react in any 
way to anything anyone said or if anyone wants to jump in here 
very quickly with any additional comments. Barbara?
    Senator Mikulski. Senator, first of all, I think it is 
wonderful that everybody stuck to the 3 minute rule. There are 
lessons to be learned here.
    [Laughter.]
    But I agree with you. I would like to hear if anyone would 
like to say more.
    Chairman DeWine. Don't be bashful. Come on now.
    Senator Mikulski. Howard has got a comment, Senator.
    Mr. Bedlin. I would just like to associate myself with 
Clayton's comments that 99.9 percent of the issues that you 
have heard, there is consensus, and I am very grateful that 
both of you were so much involved 5 years ago when it took us--
actually 6 years ago when it took us 5 years to do this. I 
think if we all work together, which I know we can, on a 
bipartisan basis, we can do this. Even though the White House 
Conference resolution said, do it within 6 months, the 
delegates didn't have the opportunity to change that language. 
I think there was consensus that we want to do it this year. 
But I really am very enthusiastic about the very broad 
consensus that is here and that is reflected in all the 
comments that we have heard today.
    Senator Mikulski. I would like to ask a question of Jo 
Reed, if I could.
    Ms. Reed. Yes.
    Senator Mikulski. It goes more to the livable communities. 
Are you familiar with the concept of NORCs?
    Ms. Reed. Yes.
    Senator Mikulski. I would like to know what you think about 
them. Senator DeWine has a demonstration project in Ohio. I 
have two in Maryland and we are contemplating a hearing on 
NORCs. Also what you think about reverse mortgages, which also 
offers seniors the income and opportunity to remain at home. 
How would we protect against fraud and gouging? Because as you 
know, where there is a need, there is often a greed and gouging 
that goes with it.
    Ms. Reed. Right. Well, with regard to Naturally Occurring 
Retirement Communities.
    Senator Mikulski. NORCs, not narcs.
    [Laughter.]
    Ms. Reed. This is kind of an evolving awareness that these 
exist already and that we need to get out there and recognize 
this is an opportunity to achieve economies of scale in 
providing services to people where they live, where they want 
to remain, and we are really interested in the demonstration 
projects that you are working on there.
    We also have been engaged as an association for a long time 
in monitoring what is happening with the development of reverse 
mortgages. It is a real option for people who are house rich 
but cash poor, but it is subject to all kinds of dangerous 
marketing behaviors if we are not very careful in keeping track 
of this developing industry. AARP has been a very strong 
proponent of the FHA insurance program for home equity 
conversion mortgages, which requires independent third-party 
counseling for people who are considering getting a reverse 
mortgage to make sure that they are clear on what their 
alternatives are and whether this is truly the best choice for 
them.
    So that is the thing that we have worked very hard to 
ensure was passed, first of all, that FHA insurance program, 
and then expanded and the cap raised on how many could be 
insured, and now we are hoping to see the cap removed 
altogether because this is really taking off.
    Chairman DeWine. Who else?
    Senator Mikulski. Suzanne, we need to have the microphone.
    Ms. Mintz. I think one of the things that we need to 
consider as people age in place and we see more and more of 
that coming, and I certainly believe in it, is that if people 
are living in homes that they have lived in for a very long 
time, more likely than not, they are not particularly 
disability friendly, and as people age, obviously, they tend to 
require more aids.
    There is not a whole lot of money around to help people 
make adjustments to their homes so that they can stay in them 
safely and healthfully. Certainly Medicare does not cover even 
grab bars or something as minimal as that. So I think to 
support people staying in their homes, we need to look at that 
entire package of what does that mean and making their home 
capable of housing them in a safe way as they age and become 
more disabled is something that needs to be part of the entire 
package.
    Senator Mikulski. Ms. Mintz, could I ask a question, 
because I was touched by the story of the lady in Potomac, 
Maryland, which is not a poor community----
    Ms. Mintz. Right.
    Senator Mikulski [continuing]. But nevertheless shows the 
level of desperation. How do you see this? She called for help 
even in terms of changing the light bulb, the leaky roof, 
essentially what we would call the basic household maintenance, 
which can cost a bundle, again seniors are subject to great 
consumer fraud. Do you think this should be done through 
volunteers? Do you think there should be ways of adding 
flexibility in the law to essentially encourage extreme 
makeovers in caregiving, a version of the way Habitat for 
Humanity, which I am a big believer in, builds new housing, but 
kind of a retrofit as well as maintenance.
    Ms. Mintz. I think there is a combination of things that 
are needed. I think there will never be enough money around to 
solve everything.
    Senator Mikulski. Right.
    Ms. Mintz. I think that we need to come back together as 
communities, the old concept of barn building. I think help in 
mowing the lawn and changing a light bulb and all of that is 
definitely something that can be done on the community level by 
volunteers, by just putting together networks of friends and 
neighbors to support efforts of that nature. We need to build 
more on that.
    But in terms of the larger issues of programs, I do think 
we need to look at the concept of things, what is it, Christmas 
in April is a group that comes in and helps people with homes. 
I think we need to be thinking about those kinds of programs in 
terms of rehabilitating housing so that people can stay there 
as they age or as they become disabled for whatever reason. So 
I think it is a combination of both programs and reeducating 
all of us to watch out for our neighbors.
    Senator Mikulski. But, you know, in Potomac, Maryland, you 
can find a lot more lawyers than you can find plumbers and God 
love them, we appreciate that, or social workers and so on. 
Again, I am not saying anything about Potomac, but when you 
look at the rural community or other communities, a neighbor 
can watch out but might not be able to because they themselves 
might be poor.
    Ms. Mintz. Right.
    Senator Mikulski. Therefore they don't have either the 
skills or can't run to Home Depot to help Miss Mabel. That is 
why I am wondering, the use of AmeriCorps, others where there 
is actually even more reliability and sustainability available 
to the Offices on Aging.
    Ms. Mintz. Yes, I think we definitely need to look at the 
various programs that are out there and pull them together so 
that we can build on the value. Somebody talked about baby 
boomers and volunteering, and in fact, baby boomers as a 
generation have the largest number of people who volunteer. I 
think we need to work on those initiatives and get more people 
involved in things, whether it is the young people or older 
people who are retiring. And I think it needs to be built 
around the community.
    Senator Mikulski. Yes.
    Ms. Mintz. There are any number of Web sites and systems 
out there to help people develop networks of support and I 
think we need to find out more about them, make them more 
available to a wide range of people. I believe people want to 
help. I think they don't necessarily know how. And I think 
people are afraid of being sucked into something that is long-
term. We need to find ways to help people give in the ways that 
are easiest for them.
    In DC., there is a program called DC. Cares, which actually 
got started, oh, it has got to be a dozen years ago, I think, 
to give professionals opportunities to volunteer, recognizing 
that they had crazy, overworked schedules as it is, and it is 
that concept.
    Senator Mikulski. I appreciate that. Senator DeWine is 
going to have to go, and if I could put that in our information 
bank. Senator, before you go, if you want me to continue, I do 
want to follow up with Meals On Wheels and the Offices on Aging 
and the changing nature of the volunteer in the new century and 
the new demography, if I could.
    Chairman DeWine. I do have to go. I have a 4 o'clock 
meeting in the Leader's office. But I want to thank all of you 
very much. Senator Mikulski is--are you going to continue, 
Barbara?
    Senator Mikulski. Just for a little bit more, if I could, 
on this issue of volunteerism.
    Chairman DeWine. My staff will remain and listen. It has 
been very, very helpful. We look forward to working with all of 
you. It worked last time. We got a bill. We all worked 
together. We got it done. Senator Mikulski and I are dedicated 
to getting it done again with your help, and so we are going to 
make it happen. Thank you very much.
    Senator Mikulski. [Presiding]. We will work together. We 
are going to get this done, and I think what Senator DeWine was 
saying, the way you have said it to each other is, we are not 
going to make the perfect the enemy of the good, but we are 
going to have a good bill that we all have a sense of pride in, 
consensus in.
    First of all, I do want to ask about volunteers, like in 
the delivery of Meals On Wheels, the nature of this program has 
been changing since it was created in 1965, but know my 
position is that private philanthropy is never a substitute for 
public policy nor for public funding. So we are not looking for 
cheap labor to be a substitute, and I mean that quote not that 
that is cheap labor, but let us go to Meals On Wheels.
    Ms. Borden, thank you for your testimony, but here is my 
question. The very nature of the need is expanding because 
people are staying at home and also even now the issue of 
chronic often equals infirmity and therefore are shut-ins. We 
are also hearing there are not enough volunteers to do Meals On 
Wheels. Are you finding that? Would you tell me the impact of 
that on the delivery of your services, and also, could you 
share with the committee the impact of rising energy costs, 
because if you have a meal and you need a wheel, you need gas--
--
    Ms. Borden. That is right.
    Senator Mikulski [continuing]. To both cook, prepare, as 
well as to deliver.
    Ms. Borden. That is right. Thank you for bringing this up. 
It is one of the issues that is actually the most significant 
to us today.
    I mentioned in my testimony that we have four out of ten 
programs that have waiting lists. When we poll our programs to 
find out why we have those waiting lists, one of the top two 
answers is a lack of volunteers. The face, the changing 
demographic shows us that the face of the current volunteer are 
those people who are seniors themselves. Those are the people 
who have the time during that portion of the day to actually go 
out and volunteer, so that is becoming increasingly a more 
difficult problem for us.
    And the second issue that we are facing today is the rising 
cost of gas. More and more of our programs are finding all 
sorts of problems getting people to volunteer because they 
can't afford the price of the gas.
    So any help that you can give us along those lines will be 
most appreciated. It is a huge problem for us. We cannot--our 
programs cannot exist without volunteers. We are a volunteer 
program, for the most part. When we lose our volunteers because 
of age and because of gas prices, we are in deep trouble, and 
we are finding that it is a major, major problem today.
    Senator Mikulski. I am going to ask the leadership council 
really to ponder this because I think it is an issue in each 
and every one of the program areas, and in certain communities, 
it is even more exacerbated, and also in those parts of our 
country or even in our own States where particularly the 
delivery is very long distances, the rural parts of our State. 
We were talking about Appalachia. That is very rugged terrain, 
as you know. You spent a lot of time in Maryland.
    Ms. Borden. Absolutely.
    Senator Mikulski. You know what I am talking about. So we 
really would like the leadership council, to look at this tax 
break for volunteers. I don't have the answers, but I am 
concerned, and you shouldn't be penalized. It is one thing to 
do it on your own time and do it on your own dime, but it is 
another thing to do it on Exxon's dime. So if we could get some 
ideas on that.
    Ms. Kennelly. Senator, I would like to speak to that----
    Senator Mikulski. If you have ideas now, this is a good 
place to hear them.
    Ms. Kennelly. But I think we have to continue to have some 
group thinking is what we have all said. I mean, I travel the 
country. I go to senior centers all the time. The 
sophistication of the senior centers is limited. It is 
absolutely limited. I think that so many of us who have so much 
knowledge and talent have to be forward-thinking about that we 
are all going to work longer, much longer, and that we have got 
to update how we think about ourselves from 70 to 80.
    And I think the leadership council could be--I listened to 
this whole thing. It was wonderful, but there is so much talent 
here. We can't just protect what we have got. We have got to do 
much better.
    Senator Mikulski. That is what I am saying.
    Ms. Kennelly. We have got to do much better, and I can't 
think of any better group, and I thank you for your leadership, 
but I don't think we can be self-congratulatory. I really 
don't. I don't think we have moved into who we are and where we 
are going and how long we are going to live.
    Senator Mikulski. I think we have a couple of crises. One, 
of course, is in this budget, so that is one thing. This budget 
is a crisis, and I will leave it to you all to figure out how 
you are going to be advocates. You can count on me certainly to 
be speaking up.
    The second is the terrible thing that happened in disaster 
planning with Katrina. Hello, we are Americans, too. Who got 
left behind?
    Ms. Kennelly. Seventy percent.
    Senator Mikulski. Who died? Who were vulnerable? Who ended 
up holding children, it was the grandparents. So one is the 
role in disaster planning. This might not be in the Older 
Americans Act, but this is a good time for us to have a 
conversation. Do you all have a kind of a generalized position 
or a white paper?
    The third is the gas crisis, the energy crisis, of being a 
volunteer and a variety of other things associated with that.
    Then there is the usual and customary things that we are 
facing. I know Mr. Flood raised them and Ms. Markwood, who 
represents the Area Agencies on Aging. You are up against it, 
aren't you, but yet you have got the solutions.
    Ms. Markwood. Well, in saying that, I think that there are 
solutions out there and a lot of the solutions exist at the 
local level and we need to cull that out and we need to support 
those best practices.
    Senator Mikulski. Which, of course, is what Ms. Mintz was 
saying.
    Ms. Mintz. But in addition to that, Senator Mikulski, 
speaking to the disaster preparedness that you raised, I think 
what we are proposing as part of our community preparedness is 
really that, is helping communities look at preparing and 
planning for the aging of the population, helping people plan 
to prepare and modify houses, but also to develop new housing 
options, helping them to develop new transportation options. 
Disaster preparedness for older adults is to really look across 
the services that exist at the community level and look at how 
they are going to be impacted by an aging population.
    And at this point, our concern is that is really not 
happening, and somehow or another, we need to be proactive as 
the aging community to help cities and counties across the 
country make this happen.
    Senator Mikulski. Do you feel that these recommendations 
you are making for the Older Americans Act, if adopted, would 
strengthen your ability to do that?
    Ms. Markwood. I think having the aging network play the 
role as the community liaison with the existing community 
agencies would go a long way toward increasing the awareness of 
various county, city agencies on what an aging population is 
going to mean for their service areas.
    Senator Mikulski. See, I worry about these things, and 
maybe we need a new title. I am going to ask you to ponder that 
and really welcome your recommendations. I don't want to break 
new ground, because we need your recommendations and in some 
ways consent. Senator DeWine and I have both the will, the 
relationship, and I think a framework to move ahead and move 
the bill.
    At the same time, I worry about the disasters plan. Every 
one of our States has a disaster. If we are hit by a pandemic 
like avian flu, well, who is going to get sick first? Is it the 
Olympic team? I don't think so. So it is the vulnerable. What 
are you going to do, quarantine? I mean, all of these issues 
which you have to go to and organize systematic, skilled, 
experienced professionals with the networks, and that is your 
point. So they should be included in that, as well as any kind 
of event that could affect the community that we can't even 
anticipate, if there is a bio attack in Baltimore or in 
Bethesda or something along those lines. Hartford was hit by a 
snowstorm, Congresswoman Kennelly's town.
    Should we actually have a title that says that all 
governors, mayors, or county executives and so on should 
include as part of disaster planning consultation with the 
Office on Aging or something like that? So that is something 
else for us to think about.
    Then there is the changing nature of demography. I think 
Ms. Mintz said it. People are reluctant to volunteer because 
they don't want to sign up forever. They will sign up for an 
event. It is the new style, and then how do we use these 
volunteers? But if you are delivering Meals On Wheels, that 
can't be a Christmas in April model, or it can't be a Saturday 
afternoon model. This is where we wonder, is this where 
AmeriCorps, ExperienceCorps, all these others could be some 
other form? I don't know. What do you think?
    Ms. Markwood. I think that there are various models that we 
can use, but I think with the idea of civic engagement, it is 
being able to capitalize on those individuals for these short 
periods of time. I think the thing is that the nature of civic 
engagement and volunteerism has changed, but the models that we 
use at the local level unfortunately haven't changed to be able 
to engage those people.
    Senator Mikulski. Which would also pick up on language, you 
see.
    Ms. Markwood. Because the face of volunteers have changed.
    Senator Mikulski. This, then, comes back to, though, the 
national framework and the local flexibility. We have one 
county in Maryland that has a significant Korean population. 
That is Howard County. Montgomery County, where Ms. Mintz 
lives, has a significant Chinese population. So you have to 
keep that flexibility, because in Maryland, one size wouldn't 
fit all.
    But I think these have been just terrific ideas and if you 
want to amplify based on our questions or Senator DeWine's 
questions, we would like to hear from you. And if you think you 
have good ideas but don't want to put them in the Older 
Americans Act, consider something else, also let us think in 
those ways. But the Older Americans Act framework and the 
network from State to the local senior centers, I think was the 
genius of the program.
    Senator Mikulski.Yes, Mr. Fong.
    Mr. Fong. I wanted to catch on that point and emphasize an 
interesting area that was mentioned by Mr. Bedlin, and that is 
the area of--if you look at what is happening with the Medicare 
outreach right now, the whole aging network is really working 
with, n4a, the State units, we are all working together, and it 
was mentioned by a couple of folks. It is really a good 
example, or for lack of a better word, a demonstration of how 
this network is being utilized and mobilized.
    However, the key to it was under the last few years of 
diminishing resources, we have not really been able to think 
outside of the box. We see a little bit of resource coming 
about for this Medicare Act and you are seeing the potential of 
it. I suspect if there is a message in that, it is very simply 
there is tremendous potential for reaching the most vulnerable 
population.
    On the disaster preparedness side, absolutely key. It could 
fall within a demonstration act. It could also amplify, I think 
it was a benefits outreach demonstration or title that I think 
Howard was talking about.
    I also wanted to say that there are a number of things 
that--one of the other areas that five national sponsors 
recently did was we collaborated with the lead of SSA on a 
guide for providing and engaging immigrant seniors, which I 
wanted to amplify on parts of your community. It is an example 
of something that happens at the national level because we have 
an ability to kind of collaborate and think outside of the box 
and have some economies of scale and work together.
    And I guess to go back to a point, I guess my biggest fear 
as we go forward here is we will see separate Senior Community 
Service Employment Programs or some proposals within that kind 
of bog this thing down, and I hope not.
    Senator Mikulski. That has always been the prickly. That 
has always been the prickly. But I think we can deal with that 
and go from there.
    Ms. Kennelly. You have got that one under control.
    Senator Mikulski. Well, we don't have it under control, but 
I think we have a will to do that and we do believe in give and 
take with each other. I think we came up with a very good 
approach last time.
    Mr. Fong. There is a rumor about a, quote-unquote, 
``formula grant,'' or actually now in the administration's 
budget something that would move funding to the States, and I 
suspect that would really--if you think about a formula change 
that created a five year logjam, imagine what happens if you 
try to create a literal elimination of the national groups.
    And I want to emphasize that the reason we care so much 
about this program is the nature of the folks that we serve 
with it. It is not a matter of turf, I think it is a matter of 
the folks that we serve and the tremendous needs within that 
community. Thank you.
    Senator Mikulski. Well, I am surprised there hasn't been a 
revolution over the prescription drugs. I remember--I am from 
the generation, and Congresswoman Kennelly was in the House, as 
well, when we did the catastrophic care under President Reagan, 
and I remember, Jo, the Anne Arundel County AARP came, and it 
is a very polite group and more of almost a school marmish 
style, they chased me down the Capitol steps with a broom 
saying, ``Clean house! Clean house!'' over this bill, because 
it has been so confusing and so disappointing.
    But it is the Aging State Units and also the Area Offices 
on Aging. Quite frankly, I think you bailed CMS out with your 
excellent information and workshops and so on, and then not 
only on Part D, but I am familiar in other parts of the 
country, you have even in many instances gone a step farther, 
where you have had the clinical pharmacologists come in and 
they have had, bring your bag of drugs in and sort it out, 
because people get drugs often, or they are very sick when they 
hear about it. They have been alone in either a hospital or a 
doctor's office, not because they are isolated, because their 
daughter couldn't get off from work or it happened so fast.
    So you have this bag of drugs. You are not sure what to 
take, the sequencing. Is it with meals, without meals? Can you 
have hot food or cold food or no food, and all these things, 
and you are sorting all that out and bringing in resources, am 
I right?
    Mr. Flood. Absolutely. I want to----
    Senator Mikulski. Or saying, this is 3 years old. No, this 
is for an allergy, for God's sake, don't take this with----
    Mr. Flood. The amount of work that the aging network is 
doing to help implement Part D cannot be overstated. In my 
State, our Agencies on Aging tell me that 50 percent, fully 50 
percent of their organization's time is now spent on Part D 
issues, answering questions, helping people sign up. I think 
that is true across the country to a similar degree. It is a 
phenomenal effort on the part of the aging network, and I 
think, if I could, the reason that you are not experiencing a 
revolution is because, A, an awful lot of seniors still have no 
idea what they are supposed to be doing, and the ones that have 
been paying attention are so discouraged by what they are 
hearing and the first time they encounter their pharmacist or a 
plan that gives them bad information, they just shut down. I 
think that millions of seniors are simply not participating.
    Senator Mikulski [continuing]. They are immobilized.
    Mr. Flood. They haven't had the bad experiences yet.
    Ms. Kennelly. That is why you voted against the bill. It 
was too complicated.
    Senator Mikulski. Yes. I mean, we could get----
    Ms. Kennelly. It was too complicated.
    Senator Mikulski [continuing]. You think it is? Well, 
Clayton, you spoke very eloquently about language issues, but I 
tell you, if you listen to my phones, I have heard language 
spoken that I hadn't heard coming through the senior community 
centers in a long time. It was a lot of, shall we say, ``Old 
Bay'' words, both salty and peppery at the same time.
    [Laughter.]
    Well, this has been just a wonderful conversation. Let us 
put our hats and thoughts together here, see if we can't move 
the bill and also look at what other things that we can do, 
again, to provide the maximum--because your point is maximum 
flexibility and a 25 percent increase in funding would go a 
long way and not allow this fungibility where you take from one 
needy group to move it over to another needy group, am I 
correct?
    God bless you and what you do and thank you very much for 
being here. This hearing is concluded and the committee will 
convene subject to the call of the chair.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

         Prepared Statement of Easter Seals Disability Services
easter seals priorities for the reauthorization of the older americans 
                                  act
    As a provider of services to older adults across the country, 
including medical rehabilitation, in-home care, employment supports, 
and as the country's largest provider of adult day services; Easter 
Seals has a vested interest in the success of the aging network in 
America. This history of service has given us insight into the needs of 
older adults and their caregiver and how the aging network might best 
be structured to meet those needs. Easter Seals urges Congress to 
reauthorize the Older Americans Act (OAA) in 2006. Without the security 
of the programs authorized in the Older Americans Act, many older 
adults, their caregivers, and service providers will be hampered in our 
efforts to reach our common goal which is to allow people to live as 
independently as possible for as long as possible. Within the 
reauthorization, Easter Seals recommends the following actions.
    (1) Protect the title V Senior Community Service Employment Program 
(SCSEP)--Easter Seals urges Congress to maintain SCSEP's historic 
purpose and structure. The partnership between national programs and 
State Units on Aging enables SCSEP to fully achieve its goal of 
equitable distribution. It is also imperative that the historic focus 
on community service, which significantly benefits the aging network, 
the non-profit sector, and seniors with limited work experience, be 
maintained.
    (2) Increased Funding for Supportive Services--Supportive Services 
under Title III of the OAA are the lynchpin of the aging network and 
are a key component to supporting the independence of older adults. As 
the baby boom generation ages and more seniors are seeking these 
services, there will be a high demand for these already underfunded 
services. Easter Seals recommends a 25 percent increase in this 
program.
    (3) Expand Community-Based Services--The Older Americans Act 
programs should be structured to support innovative community-based 
services delivery methods including consumer-directed models that 
promote independence for older adults and their caregivers.
    (4) Enhance the National Family Caregivers Support Program--The 
National Family Caregivers Support Program, established in the last OAA 
reauthorization, has been a resounding success. Easter Seals recommends 
doubling the original authorization of this program to bring the 
authorized funding up to $250 million. In addition to increased 
funding, Easter Seals recommends that the grants for projects of 
national significance be reinstated and made permanent, these 3 year 
grants, given on a one-time basis under the last reauthorization, 
addressed pressing issues facing caregivers nationally, including 
transportation, grandparents raising grandchildren, training and other 
needs. These initial grants were highly successful and need to be 
expanded upon. There are also significant areas of concern that still 
need to be addressed at a national level such as the needs of rural 
caregivers.
    (5) Make the Family Friends Program Permanent--This unique program 
matches trained senior volunteers to provide support to families 
include a child with a disability. Though small this program is 
effective and greatly needed. Easter Seals urges Congress to include 
language in the OAA making this program permanent.

              Prepared Statement of William L. Minnix, Jr.

    On behalf of the American Association of Homes and Services for the 
Aging (AAHSA), I appreciate the opportunity to submit testimony on the 
re-authorization of the Older Americans Act. AAHSA members serve 2 
million people every day through mission-driven, not-for-profit 
organizations dedicated to providing the services people need, when 
they need them, in the place they call home. Our members offer the 
continuum of aging services: assisted living residences, continuing 
care retirement communities, nursing homes, home- and community-based 
programs, and senior housing. AAHSA's commitment to create the future 
of aging services through quality people can trust. Our ideals also 
include dignity for all persons at every stage of life, advocacy for 
the right public policies for the right reasons, and leadership through 
shared learning.

                         AAHSA'S FIVE BIG IDEAS

    We are proposing a national agenda consisting of Five Big Ideas 
designed to transform the field of long-term care into a more cost-
effective and efficient system that works for older adults. First, 
AAHSA believes that managed care concepts should be expanded in the 
field of aging services to meet consumer needs and responsibly contain 
costs. Second, affordable housing should be combined with supportive 
services to enable older adults to age in place. Third, the development 
of new technologies and the innovative applications of existing ones 
should be encouraged to improve consumer choice, quality of care, 
quality of life, and cost-efficiency. Fourth, the culture of aging 
services must change to focus on individual choice and direction. All 
segments of aging services need to embrace a quality-of-life, resident-
focused service culture and a continuous quality improvement management 
culture. Fifth, the transitions of elders between various settings--the 
community, acute and long-term care--must be managed to minimize stress 
to the consumer and wasteful and duplicative bureaucratic requirements 
for service providers.
    Now is the time to solve the problems that face the elderly, their 
families and caregivers, and their aging services providers. This is 
our society's obligation. The re-authorization of the Older Americans 
Act should incorporate new solutions that will strengthen the aging 
services network and enable service providers to continue to meet the 
needs of the people they serve.

       INNOVATIVE APPROACHES TO HOME AND COMMUNITY BASED SERVICES

    The Older Americans Act (OAA) funds a wide variety of social and 
nutrition services that enable the frail elderly to maintain their 
independence, including senior centers, meals programs, in-home 
services, adult day services, transportation, and family caregiver 
support programs. Supporting seniors in their homes through community-
based care programs such as the OAA allows a cost-effective alternative 
to premature institutional care. A recent Supreme Court decision 
requiring States to consider community-based alternatives for the 
mentally disabled emphasized the need for States to begin to 
``rebalance'' their long-term care delivery systems from an 
institutional model of care to one that includes home- and community-
based alternatives.
    The current effort to reauthorize the Older Americans Act to 
prepare for upcoming demographic changes should incorporate new ideas, 
new solutions and creative approaches to home- and community-based 
services that will modernize the aging services network and increase 
choices for consumers. We must begin to explore the ways technological 
innovations can impact the aging services network and improve the 
quality of care and quality of life of the elderly. We must also expand 
on partnerships between affordable housing programs and supportive 
services that will enable the frail elderly to receive a more 
comprehensive set of services in the place they call home. These 
solutions offer a cost-effective approach to home- and community-based 
services.
    Title IV of the Older Americans Act authorizes the Assistant 
Secretary of Aging to award grants for training, research and 
demonstration projects designed to test innovative approaches to the 
aging services network. Demonstration grants have been used to develop 
successful programs such as the Aging and Disability Resource Centers 
and Medicare Part D outreach activities. The Older Americans Act should 
fund additional demonstration projects to study the effect of linking 
affordable housing with supportive services, along with projects 
studying the ways technological innovations can be used to meet the 
objectives of the Older Americans Act.

                   TECHNOLOGICAL INNOVATION AND HCBS

    Technology has great potential--across the continuum of aging 
services--to help older adults maintain their independence; improve 
quality of care and quality of life; support the needs of professional 
and family caregivers; increase aging services provider efficiency; and 
reduce our Nation's health care costs. Technological advancements will 
dramatically impact the ability of the frail elderly to age in place. 
Recognizing the potential of these developments in our field, AAHSA 
launched the Center for Aging Services Technologies (CAST) to explore 
ways in which technological developments could be applied to the field 
of aging services. We have achieved an exciting collaboration with 
corporations such as Intel and Sodexho, universities including MIT and 
the University of Virginia, aging services providers, and other 
stakeholders such as the Alzheimer's Association and the Robert Wood 
Johnson Foundation.
    Technological innovations such as in-home monitoring tools, 
assistive technologies and advanced communication devices should be 
used to improve the efficiency and effectiveness of the aging services 
network. AHHSA recommends that the Older Americans Act include Title IV 
demonstration projects to test the ways technological innovations can 
be used to assist the frail elderly and strengthen the aging services 
network. These demonstration projects should incorporate the following 
objectives:
    1. Develop, implement, and assess technology-based service models 
and best practices to improve the aging services network for older 
adults both in their homes and in settings such as adult day care 
centers.
    2. Develop, implement and assess the use of in-home monitoring and 
assessment technologies designed to connect both family and 
professional caregivers to the frail elderly.
    3. Develop, implement and assess technology-based service delivery 
systems designed to meet the needs of frail elderly residing in remote 
or rural areas.

   INNOVATIVE APPROACHES TO INTEGRATING HCBS WITH AFFORDABLE HOUSING

    Subsidized housing facilities currently offer supportive services 
onsite, including service coordination, health screening, education, 
and activities, meals programs and more advanced health monitoring. 
Virtually all of these programs link the Department of Health & Human 
Services housing programs with Older Americans Act supportive services 
programs. AAHSA's Institute for the Future of Aging Services is 
studying ways to improve the integration of housing and services 
through the development of innovative models and practices that foster 
consumer choice and independence. The re-authorization of the Older 
Americans Act is the right time to study and develop the linkages 
between affordable housing and supportive services.

                               CONCLUSION

    The re-authorization of the Older Americans Act provides the 
opportunity to develop new ideas that will strengthen the network of 
services that our aging population needs. AAHSA supports the 
development of innovative approaches to the home- and community-based 
service delivery system. Technological innovations will transform the 
home- and community-based long-term care delivery system, and we must 
develop, implement and assess this model of care. Affordable housing 
must be linked to supportive services to offer a comprehensive approach 
to care that will meet all of the needs of our frail elderly. We look 
forward to working with these proposals.

                Prepared Statement of Traci L. McClellan
                  National Indian Council on Aging,
                                     Albuquerque, NM 87111,
                                                 February 24, 2006.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, D.C. 20510.

    Mr. Chairman, members of the Health, Education, Labor, and Pensions 
Committee, and fellow aging advocacy colleagues, my name is Traci L. 
McClellan; and, I am Executive Director of the National Indian Council 
on Aging (NICOA), the only national organization dedicated to the well 
being of American Indian and Alaska Native Elders. I welcome the 
opportunity to offer comments on the reauthorization of the Older 
Americans Act (OAA) from the perspective of the seniors I serve since 
much of the services on which our Elders depend are derived from this 
legislation. Given that NICOA's mission is to bring about ``improved 
comprehensive services to American Indian and Alaska Native Elders,'' 
the service authorities in the Older Americans Act are paramount.
    As a member of the Leadership Council on Aging, NICOA supports the 
reauthorization principles articulated by this coalition of aging 
advocates. Rather than going into these principles, I attach them for 
the record and focus my comments identifying portions of the Older 
Americans Act that are especially important to the constituents I 
serve. Specifically, I highlight in my testimony: the Indian specific 
provisions in the OAA adopted by the 1,200 delegates at the White House 
Conference on Aging (WHCOA); title V, the Senior Community Services 
Employment Program (SCSEP); title VI, Nutrition and Supportive Services 
for Indian Tribes, including caregiver provisions; and, title VII, 
Subtitle B, the provision that addresses elder abuse prevention and 
awareness in Indian Country. I also include three resolutions adopted 
by the National Congress of American Indians over the past year that 
relate specifically to the Older Americans Act for the record.

    [Editors note--Due to the high cost of printing, previously 
published materials submitted by witnesses are not reprinted and can be 
found in committee files.]

                           OAA FUNDING LEVELS

    In a year when baby boomers are turning 60, Congress must address 
the needs of vulnerable older Americans who benefit greatly from 
programs funded through the Older Americans Act. The reauthorization 
provides an opportunity to create base funding levels and authorize 
services that current seniors and those just turning 60 require to age 
well in their communities. Due to this changing demographic landscape 
of aging America, NICOA strongly opposes any further cuts or 
rescissions to OAA programs and any other entitlement or discretionary 
programs that provide a safety net for vulnerable older individuals. 
With high poverty rates, geographic isolation, and low education levels 
among most of our American Indian and Alaska Native Elders, further 
cuts to critical programs greatly impact the ability of the 
wisdomkeepers to remain healthy and contributing members in the Tribal 
communities that they live in. This same reality is present for 
African-American, Asian and Hispanic Elders who often face similar 
challenges in their ability to access much needed services and 
programs. Therefore, NICOA supports a 25 percent increase in all OAA 
authorization levels to negate the downward trend in flat funding 
levels and rescissions and allow for inflation, so programs can 
adequately provide for the needs of the Elders they serve. For title 
VI, providing nutrition and other supportive services to Native 
American Elders, however, NICOA requests an authorized base funding 
level at $100 million to be reached incrementally to address the lack 
of funding that has plagued these programs, impeding the ability of 
Tribes and Tribal organizations to provide the necessary services for 
their Elders.

                WHITE HOUSE CONFERENCE ON AGING (WHCOA)

    Twelve hundred delegates from across the United States appointed by 
Members of Congress, State Governors, the National Congress of American 
Indians and the WHCOA Policy Committee through the at-large process. 
This 4 day event yielded a set of resolutions and practical 
implementation strategies that will inform and guide the President, 
Congress, States and Tribes as they work together to address the needs 
of older Americans. The number one resolution at the WHCOA receiving 
the most votes was the reauthorization of the Older Americans Act. 
Delegates regardless of age, income, or race ranked its importance 
first among the final 50 resolutions adopted. The delegates also 
provided a number of practical implementation strategies for OAA 
reauthorization, focusing on provisions they wanted to see included by 
Congress, which are available on the WHCOA Web site at www.whcoa.gov. 
Some of the strategies adopted include:
    1. Maintain the dual purpose of SCSEP program with emphasis for 
program performance on community service;
    2. Retain the National Indian organization as title V sponsor and 
the participation of cultural and ethnically diverse organizations;
    3. Provide $1 million for title VII, Part B for elder abuse 
awareness grants to Tribes, Tribal organizations and Indian 
organizations;
    4. Provide $1.3 million for training and technical assistance to 
title VI grantees;
    5. Reestablish the Indian White House Conference on Aging to be 
held prior to the next WHCOA to allow Tribes to present their issues 
directly to the President and WHCOA Policy Committee in recognition of 
the Federal trust responsibility and the Government relationship that 
the Federal Government and Tribes enjoy;
    6. Elevate the Director of the American Indian, Alaska Native and 
Native Hawaiian Affairs with the Administration on Aging to the Deputy 
Secretary level in recognition of the Government relationship;
    7. Integrate delivery systems to allow Area Agencies on Aging under 
title III to assist Tribal councils and title VI programs in planning 
for the aging baby boomer population on reservations and how best to 
provide services to them.
    Again, NICOA would request that the committee members review the 
resolutions and implementation strategies adopted by the WHCOA 
delegates as they consider provisions to strengthen within the Older 
Americans Act during reauthorization.

      TITLE V--SENIOR COMMUNITY SERVICE EMPLOYMENT PROGRAM (SCSEP)

    On Friday, February 24, 2006, in a briefing with the national 
sponsors of SCSEP, U.S. Department of Labor (DOL) Deputy Assistant 
Secretary Mason Bishop stated that if the program is to be administered 
by the DOL, then it needs to be employment focused with goals of 
unsubsidized employment. He also stated that if Congress decides it is 
primarily a human resource supplement for non-profit and community 
organizations, then it should probably reside elsewhere and not within 
DOL. Frankly, NICOA agrees with Mr. Bishop's statement. If the 
Department is not willing to honor the intent of Congress as expressly 
stated in the prior reauthorization and over the 40 year history of the 
Senior Community Service Employment Program, then Congress should move 
it to the Administration on Aging to be administered along with the 
other aging network programs. This would mitigate the disruption in 
services currently experienced in SCSEP and the overall lack of 
cohesion with other programs under the OAA. The Senate Committee Report 
106-399 for the 2000 reauthorization clearly states that ``It is not 
the committee's intent to disrupt sections or parts of a grantee's 
overall program or operation that is serving enrollees and communities 
well.'' That has occurred repeatedly with the changes in income 
guidelines, data collection requirements and final regulations not 
being published until April 2004 since the 2000 reauthorization.
    As mentioned previously, the WHCOA delegates overwhelmingly 
supported maintaining the dual structure and purpose of title V, the 
Senior Community Service Employment Program (SCSEP). The attached NCAI 
resolution also demonstrates the intent of Tribal leaders, who value 
the program, to maintain its dual structure and on and retention of a 
national Indian organization as well. SCSEP is directed to a 
particularly difficult to serve segment of older Americans--low-income 
seniors. While all low-income seniors are difficult to serve, American 
Indian Elders are especially difficult to serve because of language 
barriers, cultural barriers, and geographical isolation of many 
reservation Elders. This is precisely the group of Elders that NICOA 
has worked hardest to serve and advocate for over our 30 year history. 
NICOA is one of the national sponsors actively participating in SCSEP. 
We are passionate about this program because we strongly believe that 
if we were not conducting this program, seniors in Indian Country would 
not have access to the program and the mostly rural and reservation 
communities they reside in would not benefit from their service.
    We aggressively defend the need for a national sponsor, such as 
NICOA, dedicated to serving seniors in Indian Country since just the 
language barriers for this segment of seniors make it impractical, if 
not impossible, for mainstream organizations to serve our constituents. 
Similarly, geographic isolation and lack of services provided to Tribal 
communities by States will severely limit the number of American Indian 
Elders that will be served by States operating SCSEP. The national 
sponsors have a proven track record of serving the most vulnerable 
older Americans, which generally include minorities and American Indian 
Elders. To eliminate their participation in the program's 
administration would leave these Elders underserved; and, that has 
never been Congress' intent since the program was created.
    In the reauthorization of the Older Americans Act, NICOA urges the 
committee to retain Sections 506(a) (2) and 506(a)(3) relating to 
Reservations for Territories and Organizations. Without this section of 
the law, low-income Indian Elders will be less likely to be served.
    Second, we also urge the committee to require that the Federal 
agency administering SCSEP take into account the specific economic and 
cultural environment of seniors in assessing and evaluating placement 
in unsubsidized employment. Placement rates tend to move in concert 
with employment rates in a community; and, community differences must 
be accounted for in program evaluation and assessment. Placing 
enrollees in unsubsidized employment is a monumental task in 
reservation communities with unemployment rates in excess of 50 
percent. With organizations like ours, which have most of our 
allocations in reservation and rural areas, the ability to meet 
performance standards that give disproportionate weight to unsubsidized 
placement versus community service (the most prevalent form of training 
opportunities for our participants) is difficult.
    Third, in recognition of the unique legal and political status of 
American Indians, the law allows our organization to have a separate 
equitable distribution to be developed in consultation with the 
Secretary. This allows our organization to serve American Indians 
regardless of location where we have been assigned by the U.S. 
Department of Labor. DOL, however, has never worked with us to allow 
this service to occur, so we are restricted to serving in counties 
assigned by DOL instead of following the law. We would urge the 
committee to strengthen this language during the reauthorization, thus 
allowing for greater access to SCSEP by American Indian Elders.
    Fourth, income calculation changes and constant revisions to the 
data collection system since the regulations were finalized in 2004 
have caused more staff time to be spent on administrative tasks than on 
direct service to the Elders, host agencies and prospective employers, 
which is the focus of SCSEP. The SCSEP participants suffer for these 
continual disruptions and changes mandated by the agency. NICOA would 
strongly recommend that Congress not allow the agency to make changes 
to the program that are unrelated to identified problems without first 
seeking Congressional approval. Similarly, NICOA requests that Congress 
require greater cooperation between DOL and the Administration on Aging 
to ensure title V is meeting the needs of low-income older Americans 
first and foremost. If the DOL is not committed to ensuring the program 
retains its dual structure and purpose as expressly stated in the 
Senate Committee Report 106-399, which accompanied S. 1536 
reauthorizing the OAA on September 7, 2000. NICOA would request the 
committee consider moving the program under the Administration on 
Aging, which oversees all other OAA programs, in order to keep the 
program's primary focus on community service. The Administration on 
Aging's mission is closely aligned with serving the vulnerable, hard-
to-serve seniors we work with everyday, whereas the Department of Labor 
primarily focuses on and serves the labor force under the age of 60. As 
such, both agencies must work together if those low-income, hard-to-
serve Elders over age 60 will benefit from the training and community 
service opportunities provided by SCSEP.
    Finally, we cannot overemphasize the importance of the dual nature 
of SCSEP. Community service and employment training go hand in hand. 
Unfortunately, program assessment and measurement places more emphasis 
on unsubsidized employment than on community service which constitutes 
80 percent of the program's focus and should be assessed on a greater 
scale. I am including the specific language adopted by the WHCOA 
delegates about SCSEP below for the record.
    ``Reauthorize Title V of the Older Americans Act, (the Senior 
Community Service Employment Program) which provides part-time 
employment opportunities for low-income individuals over the age of 55, 
to ensure the oldest, poorest and least skilled older workers do not 
fall through the cracks.''
    ``Maintain the dual structure of State, minority, and national 
[SCSEP] grantees; retain the vital, historic focus on community 
services to support local community organizations and the aging 
network; streamline program eligibility to promote increased 
participation to meet demographic changes and the growing ethnic and 
culturally diverse population to include tribal organizations.''
    NICOA recently participated in discussions of SCSEP with other 
aging organizations on ways to improve how we serve low-income seniors. 
The outcome of this self-evaluation and forward looking discussion is 
contained in a statement entitled ``A Vision for America's Low-Income 
Senior Workers and Their Communities'' which NICOA endorses and I 
include for the record.

    [Editors note--A Vision for America's Low-Income Senior Workers and 
Their Communities can be found with the statement of Clayton Fong.]

                  TITLE VI--GRANTS TO NATIVE AMERICANS

    Since its inception in 1980, Title VI of the Older Americans Act 
has been the primary vehicle for providing OAA services in Indian 
Country. However, funding has been so inadequate that reservation 
services have never been ``comparable to those provided under title 
III,'' as the title mandates. Nevertheless, this program currently 
serves 243 reservation projects and remains the cornerstone of Older 
Americans Act services to Indian Elders.
    While funding per project ranges from $73,000 to $180,000, two-
thirds, approximately 50 percent of projects, receive less than 
$100,000. This amount is intended to provide meals and other supportive 
services for a minimum of 50 Elders for an entire year! Projects funded 
at the highest level ($180,000) need to serve 1,500 or more Elders! 
Further, with the aging of the population in Indian Country, more 
Tribes are qualifying for title VI funding but cannot be served due to 
fund limitations. Thirteen programs were denied funding this year 
because of the fiscal year 2005 budget shortfall.
    These (primarily title VI) programs are established to provide 
nutrition and other supportive services to Native American Elders 
throughout the United States. Title VI service providers not only have 
daily contact with Elders but are often the Elders' only contact with 
services providers.
    While Federal funding for substantive aspects of this program is 
extremely inadequate, funding to strengthen the capacity of these 
community-based organizations is practically nonexistent. A most 
glaring example is the 2005 appropriation of $6.3 million for Native 
American caregivers through the National Family Caregivers Support 
Program, which continues to operate despite repeated requests from 
Indian Elder advocates without any provisions for training service 
providers to effectively provide these services. More than 100 title VI 
providers struggle to operate these grant programs with little Federal 
direction and technical assistance.
    On behalf of the Elders in Indian Country, I ask the support of the 
committee to retain all aspects of title VI as currently enacted. In 
addition, I urge the committee to provide for increased training for 
title VI service providers and to support demonstration of new ways to 
improve Elder Indian access to social services across all of Indian 
Country. Such an initiative could include but not be limited to the 
following objectives:

    <bullet> Training to improve title VI program management and 
delivery;
    <bullet> Title VI staff development to improve morale and 
retention;
    <bullet> Training on information dissemination of health care, 
preventative medicine, illness-coping, and caregiving strategies;
    <bullet> Training to improve Elder access to social services at 
Federal, State, and Tribal levels;
    <bullet> Training to assist Native American National Family 
Caregiver Support Program grantees.

    Currently, the Administration on Aging takes 1 percent of title VI 
funding off the top of the appropriated amount for training and 
technical assistance of title VI staff. This limits meals and other 
services the title VI programs can offer to the Elders and often does 
not allow enough resources for adequate training for all title VI 
staff. Separate funding is required to address the training needs of 
title VI staff.
    Concurrently, funded projects are struggling with relentless 
increases in the cost of providing nutrition and other supportive 
services to their clientele. These conditions dictate that current 
funding of $26.4 million is grossly inadequate and an incremental 
increase in funding to $100 million is in order. I ask the committee's 
assistance in authorizing appropriations to this level and to also 
maintain language that the level of services provided under title VI be 
raised to a level comparable to those provided under title III.
    In fiscal year 2005, NICOA conducted a pilot/demonstration project 
in the State of Washington to assist title VI grantees to access social 
and other supportive services by training Tribal members to serve as 
Benefits Counselors to provide assistance to American Indian Elders. It 
is NICOA's goal to implement a similar program nationwide if funding is 
available once the Washington demonstration project is completed and 
evaluated. Due to the outcomes experienced thus far and the large 
increase in Elders accessing services they are entitled to receive, 
NICOA recommends that this program be made permanent with grants 
available to title VI programs across the Nation.

      TITLE VII, SUBTITLE B--PREVENTION OF ELDER ABUSE AND NEGLECT

    Subtitle B of Title VII of the Older Americans Act authorizes a 
program for Tribes, public agencies, or nonprofit organizations serving 
Indian Elders to assist in prioritizing issues relating to Elder rights 
and to carry out activities in support of these priorities. Funds have 
never been appropriated for this purpose.
    While funds have been appropriated to States for similar purposes, 
these programs seldom reach Indian Elders due to cultural, 
jurisdictional, and geographic barriers. Indian Tribes have little or 
no access to the agencies, departments, ombudsman, or other programs 
that are available to States. Further, Tribes have no additional source 
of mandated Federal funding for Elder protection activities. Anecdotal 
evidence provided by those involved with Elder services in Indian 
Country as well as a 2004 report produced by NICOA suggests a high 
incidence of Elder abuse in Indian Country, particularly financial 
abuse due to high poverty rates. To complicate matters further, it is 
commonly acknowledged that ``abusers'' are often family members; and, 
Elders often do not realize they are being abused. If they do know, 
they are reluctant to disclose this information to the authorities.
    Outreach and demonstration programs are needed to increase 
awareness of Elder abuse and to help Tribes devise ways to minimize 
abusive behavior. On behalf of Elders in Indian Country, I strongly 
urge the committee to retain this subtitle, to authorize an 
appropriation of $10 million, and to encourage an appropriation in 
2007.
    Mr. Chairman and members of the committee, I thank you for the 
opportunity to offer my views on behalf of American Indian and Alaska 
Native Elders. I would be happy to provide any additional information 
that might be useful to you and your committee staff as you consider 
the reauthorization this session.
                                 ______
                                 
                     American Dietetic Association,
                                         Chicago, IL 60606,
                                                   August 30, 2005.
Margaret Ingraham,
Director of Policy and Legislation,
Meals on Wheels Association of America,
203 South Union Street,
Alexandria, VA 22314.

    Dear Ms. Ingraham: On behalf of the American Dietetic Association 
(ADA), it is my pleasure to submit this letter of support for the Meals 
on Wheels Association of America's (MOWAA) efforts to establish ``line 
item integrity'' in Title III of the Older Americans Act (OAA) as it is 
reauthorized. ADA is the Nation's largest organization of food and 
nutrition professionals, with nearly 67,000 members serving the public 
through the promotion of optimal nutrition, health and well being. ADA 
has made aging a top priority in its public policy and advocacy 
program.
    Title III C, which encompasses the OAA nutrition programs, is 
currently the largest single component of the OAA, and arguably the one 
that is most critical to maintaining the well-being, independence and 
functionality of the older adults it serves. ADA agrees with MOWAA's 
position that a strong Federal commitment to OAA must be maintained 
through increased financial support to meet the program's growing 
needs. ADA supports MOWAA's position that OAA, when reauthorized, 
should establish ``line item integrity'' which would include the 
following provisions:
    <bullet> General and Administrative dollars must be taken from the 
line item/category in which the services are performed. For example, 
title III C dollars should not be used to pay for title III B 
administrative.
    <bullet> Transfers from one line to another cannot take place while 
an unmet need still exists in the category for which dollars are 
designated without, at the very least, some verification why the 
transfer is necessary and justified.
    ADA welcomes the opportunity to partner with MOWAA to support 
proposals for the reauthorization of the Older Americans Act.
            Sincerely,
                         Rebecca S. Reeves, DrPH, RD, FADA,
                                                    ADA, President.
                                 ______
                                 
    [Editors Note--Meals on Wheels Association of America statement 
presented to House Committe on Education and the Workforce, 
Subcommittee on Select Education entitled ``An Examination of the Older 
Americans Act'', dated May 24, 2005, may be found in House Hearing No. 
109-19.]

    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                    

</pre></body></html>
